<html>
<title> - ASBESTOS: STILL LETHAL/STILL LEGAL: THE NEED TO BETTER PROTECT THE HEALTH OF AMERICAN WORKERS AND THEIR FAMILIES</title>
<body><pre>[Senate Hearing 110-22]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-22
 
  ASBESTOS: STILL LETHAL/STILL LEGAL: THE NEED TO BETTER PROTECT THE 
                               HEALTH OF 
                  AMERICAN WORKERS AND THEIR FAMILIES

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EMPLOYMENT AND 
                            WORKPLACE SAFETY

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

EXAMINING ASBESTOS, FOCUSING ON EFFORTS TO BETTER PROTECT THE HEALTH OF 
                  AMERICAN WORKERS AND THEIR FAMILIES

                               __________

                             MARCH 1, 2007

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                senate


                    U.S. GOVERNMENT PRINTING OFFICE
34-334                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel

           Katherine Brunett McGuire, Minority Staff Director

                                 ______

            Subcommittee on Employment and Workplace Safety

                   PATTY MURRAY, Washington, Chairman

CHRISTOPHER J. DODD, Connecticut     JOHNNY ISAKSON, Georgia
TOM HARKIN, Iowa                     RICHARD BURR, North Carolina
BARBARA A. MIKULSKI, Maryland        LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     PAT ROBERTS, Kansas
BARACK OBAMA, Illinois               WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma
EDWARD M. KENNEDY, Massachusetts     MICHAEL B. ENZI, Wyoming (ex 
(ex officio)                         officio)

                     William Kamela, Staff Director

                  Glee Smith, Minority Staff Director

                                  (ii)






                            C O N T E N T S

                               __________

                               STATEMENTS

                        Thursday, March 1, 2007

                                                                   Page
Murray, Hon. Patty, Chairman, Subcommittee on Employment and 
  Workplace Safety, opening statement............................     1
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia, 
  opening statement..............................................     3
Castleman, Barry, ScD, Environmental Consultant and Author, 
  Garrett Park, MD...............................................     5
    Prepared statement...........................................     7
Wilson, Richard, Professor of Physics, Harvard University, 
  Boston, MA.....................................................    14
    Prepared statement...........................................    16
Vento, Susan, Widow of Representative Bruce Vento, St. Paul, MN..    20
    Prepared statement...........................................    22
Pass, Dr. Harvey, Professor of Cardiothoracic Surgery, New York 
  School of Medicine, New York, NY...............................    23
    Prepared statement...........................................    25
Thayer, John, Pipefitter and Supervisor, Office of the Architect 
  of the Capitol, Washington, DC.................................    26

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Specter, Hon. Arlen, a U.S. Senator for the State of 
      Pennsylvania, prepared statement...........................    36
    Linda Reinstein, Asbestos Disease Awareness Organization 
      (ADAO).....................................................    39
    Jennifer Joy Wilson, National Stone, Sand & Gravel 
      Association (NSSGA)........................................    40
    Kerry Swift, parent of Brookfield, Connecticut Public School 
      student....................................................    42
    Letter from Richard A. Lemen, Ph.D, M.S.P.H., Asst. Surgeon 
      General, USPHS (ret.)......................................    46
    Letter and post-hearing comments from Robert P. Nolan, Ph.D., 
      Deputy Director, Center for Applied Studies of the 
      Environment................................................    47
    Letter from David S. Egilman, M.D., M.P.H., Clinical 
      Associate Professor, Brown University......................    57
    Letter and comments from the Government of Canada............    58

                                 (iii)

  


  ASBESTOS: STILL LETHAL/STILL LEGAL: THE NEED TO BETTER PROTECT THE 
             HEALTH OF AMERICAN WORKERS AND THEIR FAMILIES

                              ----------                              


                        THURSDAY, MARCH 1, 2007

                                       U.S. Senate,
Subcommittee on Employment and Workplace Safety, Committee 
                 on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
Room 430, Dirksen Senate Office Building, Washington, DC., the 
Hon. Patty Murray [chairman of the subcommittee] presiding.
    Present: Senators Murray [presiding], Brown, and Isakson.



                  Opening Statement of Senator Murray

    The Chairman. This subcommittee will come to order. I am 
very pleased to convene the first hearing of the Senate 
Employment and Workplace Safety Subcommittee of the 110th 
Congress and I want to thank our Ranking Member, Senator 
Isakson, who has worked with me in the past in reverse order 
but I look forward to working with you on this subcommittee 
again in this Congress. I want to thank some of our 
subcommittee members who will be joining us and I especially 
want to thank all of the witnesses who are here for us today.
    The purpose of this hearing is to gather information on the 
need to ban asbestos, improve public awareness and invest in 
research and treatment. But before I turn to the policy, I want 
to introduce you to two people.
    Six years ago I held my first hearing on asbestos in the 
workplace. One of the witnesses at that time was Fred Biekkola. 
He is from Michigan. He served in World War II and for almost 
30 years, Fred worked for a mining company in Michigan where he 
was exposed to asbestos. Fred testified at my very first 
hearing back on July 31st of 2001. That hearing was held right 
here in this room and in fact, he sat right there at that 
witness table and I'll never forget what Fred told us.
    He said, Senators, please make sure that what happened to 
me won't happen to anyone else. Workers like me are counting on 
you to protect us. Please don't let us down. Well, I'm sad to 
say that we did let Fred down. We didn't ban asbestos. We 
didn't warn the public and we didn't invest in research and 
treatment.
    Fred died of asbestosis and mesothelioma on April 7 of 
2004. Sadly, Fred is not the only advocate that we've lost over 
the years because Congress has failed to act. This is a picture 
of Brian Harvey. He is a teacher who lived in Marysville, 
Washington in my home State. Brian stood by my side as I 
introduced my first bill to ban asbestos back in July of 2002.
    Most asbestos victims die within a year of being diagnosed. 
Brian lived for 6 years after being diagnosed. He knew he was 
living on borrowed time so he used his time to fight for 
others. He stood by my side again in 2004 at another press 
conference. Sadly, Brian died in July 2005.
    Now Fred and Brian are not with us but their words hang 
over this hearing. It is estimated that each year, up to 10,000 
Americans die every year from asbestos. Ten thousand Americans 
every year. I've been at this for 6 years. This is my third 
bill and I know we cannot wait another year to fix this 
problem. The stakes are too high. To anyone who says we don't 
need this bill, I pose one question. How many more Americans 
have to die before our government finally does the right thing 
and bans asbestos? We have to do the right thing and I believe 
we need to do it now.
    As I look at this issue, four problems stand out. First, 
asbestos is deadly. It's so deadly that there is no known safe 
level of exposure. It only takes a tiny bit of fiber to cause 
disease. Second, asbestos is everywhere. It's put into consumer 
and industrial products on purpose every day. We bought these 
brake pads in a store 3 days ago. They contain asbestos. Brake 
pads like these ones are on tens of thousands of cars. Any time 
one of those cars gets their brakes repaired, a mechanic could 
be unknowingly exposed to asbestos.
    Now fortunately, there are alternatives. These brakes I'm 
holding right here, are made without asbestos and they work 
just as well. We shouldn't keep selling these kinds of products 
containing asbestos. We are putting more and more consumers at 
risk every day by doing that and that's not just brake pads. 
There are thousands of products that contain asbestos--floor 
tiles, roofing materials, cement pipes, even hair dryers.
    Third, asbestos is still legal. Many Americans assume, as I 
did, that asbestos is already banned in this country. It is 
not. In 1989, the EPA tried to ban asbestos but most of those 
regulations were overturned in a 1991 appeals court ruling. As 
a result, while new applications for asbestos were banned, 
asbestos is still being imported and used in consumer and 
industrial products.
    Fourth, research and treatment for asbestos diseases are 
not very far along. Doctors have been hampered by the lack of 
research on how asbestos fibers actually cause disease and what 
treatment strategies work best. Industrial hygienists have been 
hampered by the lack of research on how to best measure 
asbestos fibers in the air.
    To address this national challenge, I have introduced the 
Ban Asbestos in America Act of 2007. So let me quickly 
summarize the bill and then I will turn to Senator Isakson and 
our witnesses.
    First, my bill bans asbestos. It prohibits the importation, 
manufacture, processing and distribution of products containing 
asbestos.
    Second, my bill dramatically increases and expands research 
and treatment. It creates a 50 million dollar 10-center 
asbestos-related disease research and treatment network. It 
creates a new national asbestos-related disease registry. It 
supports research at the Department of Defense and launches a 
study to determine the most promising areas for new research.
    And finally, my bill importantly launches a public 
education campaign to protect and inform Americans of the 
dangers of asbestos and the treatment options.
    I know we can make progress. More than 40 other countries 
have banned asbestos. Around the world, chlorine producers are 
phasing out dangerous and inefficient methods in favor of safer 
and environmentally responsible technology. We need to help our 
U.S. companies embrace new, greener approaches today.
    To help inform our work, we've invited a panel of expert 
witnesses. Dr. Barry Castleman, Dr. Harvey Pass, Dr. Richard 
Wilson, Sue Vento and John Thayer. I will introduce them more 
before they come up before us but I know that each one of them 
will provide us with useful information and unique 
perspectives.
    I want to thank all of you for coming today to help America 
join other enlightened countries in banning asbestos.
    Now I want to turn to my Ranking Member, Senator Isakson, 
for his opening remarks.

                  Opening Statement of Senator Isakson

    Senator Isakson. Well, thank you Chairman Murray and thank 
you very much for holding this hearing. I admire your advocacy 
and appreciate the opportunity to participate today. I 
particularly want to acknowledge the presence of Sue Vento. I 
had the privilege of serving in the United States House of 
Representatives with her husband and had the privilege of 
meeting her then and we're honored to have you here today.
    I appreciate the Chairman also allowing Senator Specter, 
who will be here in a few moments, to testify. That request was 
late and I appreciate very much your courtesy in that.
    There is no debate that certain forms of asbestos are toxic 
and are deadly. Over the past 30 years, we've learned the sad 
truth that exposure to air-borne asbestos fibers pose 
potentially serious health risk. Continued exposure to air-
borne asbestos can increase the amount of fibers that remain in 
the lung. Once embedded in lung tissue, those fibers, over 
time, may cause serious lung diseases, including asbestosis, 
lung cancer and mesothelioma.
    We will hear today that there are several types of 
asbestos. Different forms of asbestos pose different health 
risks. Any ban passed by Congress should recognize those 
differences.
    The EPA initially proposed a ban of asbestos in the late 
1970s. At the time, the United States consumed over 500,000 
tons of asbestos, about 7 percent of which was the very toxic 
amphibole asbestos. The rule was then struck down by the 5th 
Circuit because the EPA had, according to the court, failed to 
muster substantial evidence in support of the ban. The Court of 
Appeals remanded back to the EPA, demanding the agency 
demonstrate that all asbestos posed an unreasonable risk to 
Americans.
    During the 1990s, the worldwide trade of the most hazardous 
form of asbestos, amphibole asbestos, ceased. Thus, the very 
toxic form of asbestos is no longer available in the United 
States. Essentially, there is a defacto ban put on by all 
people of reason who recognize the dangers and the fact that it 
shouldn't be used.
    Today, asbestos is still used in the United States albeit 
very sparingly. According to the U.S. Geological Survey, the 
United States consumes about 2,000 tons of chrysotile asbestos 
every year, down from almost 800,000 tons consumed in the mid 
1970s. The consumption has decreased by 99.75 percent by 
industry on its own and with the recognition of the advocacy of 
people like Senator Murray.
    Chrysotile asbestos is used for three purposes only today: 
roof coatings, the space shuttle motor parts and specified 
fibers used in the manufacture of chlorine.
    Last congress, I was happy to support an asbestos ban, 
included in Senator Specter and Leahy's Fair Act. Senator 
Specter and Leahy recognized the important distinctions between 
various kinds of asbestos and the ban that emerged in their 
bipartisan bill was a workable and reasonable ban.
    In closing, there are many kinds of asbestos. It comes to 
many different forms. There is room for bipartisan work on this 
bill to bring it to the floor and I look forward to working 
with the Chairman to recognize those differences, find out 
where we can have common ground and move forward in the ban of 
the most dangerous forms of asbestos.
    The Chairman. Thank you very much, Senator Isakson. We are 
waiting for Senator Specter to arrive but I think what I will 
do is have our witnesses go ahead and come forward to the 
witness table and when Senator Specter arrives, we'll have him 
give his statement. If our witnesses could come up to the 
table. I'm going to introduce you quickly while you are moving 
forward.
    We have Barry Castleman with us today. Dr. Castleman is an 
environmental consultant with a long-term interest in the use 
of asbestos in the United States and worldwide.
    Dr. Harvey Pass, who is a Professor of Cardiothoracic 
Surgery at New York University School of Medicine and 
Comprehensive Cancer Center.
    Mrs. Sue Vento, who is the widow of Congressman Bruce 
Vento. He died from mesothelioma in 2000 and let me just thank 
you for your tremendous work over the years on making sure we 
continue to work to the right thing.
    Professor Richard Wilson is a Research Professor of Physics 
at Harvard University.
    Mr. John Thayer is a pipefitter and supervisor of the 10-
man power plant tunnel crew here within the Office of the 
Architect of the Capitol.
    I want to thank all of our witnesses for being here. Before 
I move to our witnesses, I also wanted to acknowledge one 
person in the audience, Linda Reinstein. Linda, thank you so 
much for being here. She is the Executive Director and co-
founder of the Asbestos Disease Awareness Organization. Linda 
knows personally about the tragedy of asbestos. She lost her 
husband, Alan, to the disease this past year. Linda, I just 
want to personally thank you for your commitment and your 
support. Thank you for being here today.
    With that, I'm going to turn to our panel and Dr. 
Castleman, we will begin with you and your testimony.

STATEMENT OF BARRY CASTLEMAN, ScD, ENVIRONMENTAL CONSULTANT AND 
                    AUTHOR, GARRETT PARK, MD

    Mr. Castleman. I've worked for 35 years with U.S. 
government agencies, nongovernmental organizations and 
international agencies on asbestos. I also testify as an expert 
witness about the public health history of asbestos, the 
subject of my doctoral thesis. I work with other public health 
workers all over the world on asbestos and we all hope that 
soon the United States will join the other 40 or so countries 
that have banned asbestos.
    Asbestos is banned throughout the European Union, 27 
countries and in many other parts of the world, including Saudi 
Arabia, Argentina, Australia, Chile, Japan, Kuwait and other 
countries. Bans have been in effect for 10 years or more in 
Germany and Italy and Sweden and France. The cars still stop. 
The roofs don't leak anymore than they did when they had 
asbestos in the roofing materials. Life goes on and their 
economies are going on just fine without endangering people by 
the use of asbestos.
    The World Trade Organization has ruled that controlled use 
of asbestos is unrealistic and has supported national bans on 
asbestos when the issue was brought up at the WTO about 7 years 
ago.
    In your legislation, there is a possibility that there may 
need to be some exceptions considered to the ban. The only 
exception that I know of in the European Union is the exception 
for the chlorine industry and this was agreed to based on the 
state of things in 1999, when the European Union voted to have 
such a ban. If the chlorine industry wishes to have an 
exemption in the United States to the ban here, they should 
have to make the case based on the state of technology today 
and the issue is, can they convert to the membrane cell plants, 
which are the kind of chlorine plants that have been built all 
over the world for the last 20 years. It's a superior 
technology to the asbestos and mercury cell plants.
    As noted, the use of asbestos is down to about 2,000 tons a 
year. The only use that I know of is in roofing materials. 
There is no exception for roofing materials in Europe. I don't 
understand why we would need to have one here but again, if 
companies want to make the claim that they have to continue to 
use asbestos in such products, your law would provide them the 
means to press for an exemption at the EPA.
    The big problem is imports of asbestos products. We import 
over 100 million dollars a year worth of asbestos brake linings 
and brake shoes from countries that use a lot of asbestos. 
Senator Murray, you wrote to the Head of the Occupational 
Safety and Health Administration 3 years ago, asking them to 
look at the imports, the rising imports of brake shoes and 
brake linings coming in from Brazil, China, Columbia and Mexico 
and they brushed you off. Since then, the importation of 
asbestos--of these products has doubled from those countries. 
So I think it is an urgent matter to revisit this.
    Asbestos-cement sheet products have been coming in from 
Mexico in rising quantities, over 60,000 tons last year and 
these are dangerous construction materials. If you cut them, 
saw them, drill them, demolish them, you have exposure, as 
you'll hear from John Thayer later today. Once you have 
asbestos in the structure of buildings, it stays there a long 
time and it can endanger many people through that time.
    The U.S. automakers ought to be able to sell cars and 
replacement parts here that are asbestos-free, just as they do 
in the European Union. The U.S. brake part manufacturers ought 
to welcome a ban on imports of asbestos brakes because it 
competes unfairly against their safer brake products.
    With two other scientists, I want to talk now a little 
about contaminant asbestos. With two other scientists, I filed 
a complaint a month ago at the Consumer Product Safety 
Commission over a consumer patching compound called Durham's 
Water Putty. Now, this is sold from coast to coast at Ace 
Hardware Stores and the asbestos in this product comes from the 
talc that they use as one of the ingredients in it. This is a 
notorious talc from New York, where there has been reports of 
lung scarring, lung cancer and mesothelioma, going back to the 
1940s. And there are deposits of talc, vermiculite and 
construction stone around the country that have contamination 
of asbestos and we really need to have a thorough look around 
at all these sites by the government to root out these kinds of 
dangers and make sure that people aren't exposed to mortal 
risks from products like this.
    This is actually a banned--asbestos is banned in these 
consumer patching compounds in the United States. It was banned 
30 years ago by the Consumer Product Safety Commission. Just 
last month, I testified in a case involving a person whose only 
exposure was that when he was 20 years old, he spent 2 weeks 
preparing a building for his father to use as a pharmacy and he 
was doing all this sanding and sweeping and mixing of these dry 
powders to set up the interior of the building with the drywall 
patching compounds and this guy--he's my age. He's dying of 
mesothelioma now as a result of that one exposure. There is no 
other known exposure in his case.
    We need additional help in analysis of asbestos. The method 
of analysis that is used by OSHA is only considered reliable 
down to the present permissible exposure limit and at that 
limit, it's expected that 5 to 10 people per thousand workers 
will die from lifetime exposure. We need to have more high-
power magnification to limit the measurement methods--35 years 
old. And we need to get NIOSH and other government agencies to 
come up with an improved method.
    The same for bulk sampling of asbestos--the method 
specified by EPA over 30 years ago is only good down to 1 
percent. We need something that can go below 1 percent in 
analyzing soil samples and minerals and so on.
    So to conclude, banning products made with commercial 
asbestos, I think should be relatively easy and should be very 
high priority. Stop these importations of these brake shoes and 
these asbestos-cement products and the rest. And dealing with 
the contaminant asbestos in these other minerals will be a 
little more difficult but that should be expedited. The law 
should be written in a way that enables bans on the less 
controversial imported products made with commercial asbestos 
to take effect as soon as possible. Any product that is made 
with commercial asbestos that is not under review for possible 
exemption by EPA should be banned within a year after enactment 
of this legislation.
    Thank you for inviting me to speak. I have a longer 
prepared statement for the record.
    [The prepared statement of Mr. Castleman follows:]

               Prepared Statement of Barry Castleman, ScD

    I have been warning mechanics about asbestos hazards in brake 
repair since 1972, as a local health official in Baltimore. Since then, 
I have been involved as a public health worker in a wide range of 
issues involving asbestos in the United States and around the world. I 
support banning asbestos product manufacture and importation in the 
United States.
    U.S. imports of brake shoes from countries that mine asbestos and 
manufacture asbestos products are growing and now total over $100 
million annually. There is no surveillance to assure that asbestos 
brake imports from China, Brazil, Colombia, and Mexico even carry the 
cancer warning labels ``required'' by OSHA. We also are importing a lot 
of asbestos-cement sheet from Mexico. These products are no longer made 
in the United States, and they compete against safer products made 
here.
    To this day, we are faced with scandals in government efforts to 
deal with public health asbestos problems, while companies involved in 
damage suits try to distort public policy to gin up trial court 
defenses for their historic failure to warn workers using asbestos 
products. It is my hope that these companies, who now use little or no 
asbestos, will not oppose the asbestos ban just so they can go on using 
the argument that the asbestos products they used to sell are still 
legal for sale in the United States. If Ford and GM oppose an asbestos 
ban here as they face throughout Europe, they should tell us what they 
are selling in the United States now, what models of their new vehicles 
and replacement parts are still made with asbestos. And they should 
explain why this should be allowed to continue.
    I testify as an expert witness in asbestos litigation, usually at 
the request of plaintiffs. This has given me access to corporate 
documents not available in public libraries. I tell juries about the 
corporate and public health history of asbestos, the subject of my 
doctoral thesis at the Johns Hopkins School of Public Health and an 
894-page book, now in its 5th edition (Asbestos: Medical and Legal 
Aspects. Aspen, NY, 2005).

Global Consensus That Asbestos Must Go

    Back in 1989, when the U.S. EPA issued rules to phase out the use 
of asbestos in almost all products, the United States was a leader in 
moving to ban the manufacture and importation of asbestos products. The 
EPA rule was overturned in a court challenge, and EPA was unable to 
persuade the Justice Department to appeal the ruling. Nothing has been 
banned since 1991 under the Toxic Substances Control Act, and asbestos 
products continue to be manufactured and imported for use here.
    European countries took the lead in issuing national bans on 
asbestos use in the 1990s and enacted a ban throughout the (now 27) 
countries in the European Union that came into effect in 2005. Asbestos 
is also now banned in Chile, Argentina, Uruguay, Honduras, Kuwait, 
Saudi Arabia, Jordan, Australia, Japan, the Seychelles, New Caledonia, 
and Gabon. Egypt, Croatia, Vietnam, South Korea, and South Africa are 
moving to end their consumption of asbestos products.
    In the past year, major initiatives on asbestos have been 
undertaken by the World Health Organization, the International Labor 
Organization, and the World Bank. The World Health Organization has 
concluded that ``the most efficient way to eliminate asbestos-related 
diseases is to stop the use of all types of asbestos.'' The WHO is now 
working with the ILO to help countries around the world develop 
national plans to eliminate asbestos use and minimize the hazards from 
in-place asbestos materials. The World Trade Organization has given its 
blessing to national asbestos bans. The World Bank is avoiding the use 
of asbestos-cement materials in tsunami reconstruction in Indonesia. I 
drafted a guidance note that the World Bank plans to use, to select 
safer materials in new construction projects and to minimize asbestos 
hazards in infrastructure renovation.

Current Situation in the United States

    At present, 10,000 Americans die every year from our past use of 
asbestos in this country. The continuing use of asbestos adds to the 
eventual toll. Liability considerations and regulation have steadily 
reduced the quantity of asbestos fiber imported and used as a raw 
material in U.S. manufacturing, but imported asbestos products continue 
to enter the country, endangering workers and the general public. 
Workers in other countries make asbestos products we import, in 
conditions that would not be permitted here under OSHA and EPA 
standards. The products are distributed here by companies that may not 
be labeling them as containing an asbestos cancer hazard in accord with 
OSHA standards. And the distributors of the products sold here may or 
may not be around to pay compensation, by the time people get sick from 
these products, if they ever figure out why they were stricken with 
asbestos diseases. Last, the continuing sale of the asbestos products 
here undercuts U.S. manufacturers of safer, non-asbestos products, 
damaging health, contaminating the environment, reducing employment, 
and harming the U.S. economy.
    The United States continues to import substantial quantities of 
asbestos-cement construction materials and other asbestos products. In 
2006, the United States imported over 63,000 metric tons of asbestos-
cement sheets from Mexico, a 25 percent increase from the year 2000. 
These hazardous construction products have not been made in the United 
States since 1992. Their handling, transport, installation (with 
cutting, drilling, etc.), renovation, and demolition expose countless 
U.S. workers and other citizens to occupational and environmental 
dangers. This is commonly unrecognized as asbestos exposure; and even 
where it is so recognized, it is from a practical point of view largely 
uncontrollable by government regulators. The World Trade Organization 
concluded that the idea of ``controlled use'' of asbestos-containing 
construction materials is unrealistic.
    The United States imports an increasing amount of brake linings and 
pads, now over $120 million worth a year, and an unknown share of these 
imports is made with asbestos. The U.S. International Trade Commission 
has refused to separately classify brake friction materials made with 
asbestos from those made with other materials, so it is not possible to 
know exactly what the imports of the asbestos brake parts come to. But 
leading sources of these brake friction material imports are countries 
that still use (and three of them mine) a lot of asbestos: Brazil, 
China, Colombia, and Mexico. U.S. brake friction material imports from 
these countries have risen from $23 million in 2000, to $76 million in 
2005, and $90 million in 2006. Automotive friction materials have not 
been made with asbestos in the United States for the past several 
years.

OSHA

    OSHA standards since 1972 have required that brake and clutch parts 
made with asbestos bear various warning labels, and none of the 
manufacturers put warning labels on these products before that time. 
Litigation of claims by mechanics has disclosed that Ford Motor Company 
did not start putting OSHA warning labels on the packages until 1980. 
Chrysler did not do so until 1984. General Motors still hasn't produced 
documentation of when GM started to warn consumers of their brake parts 
about asbestos. Yet, it appears from the records I have seen that OSHA 
has never cited, much less fined, any seller of these unlabeled 
products for violation of the standard. OSHA was criticized for its 
poor record of enforcement by Congressman Kucinich (OSHA's Failure to 
Monitor and Enforce Asbestos Regulations in Auto Repair Shops, Feb. 
2004). And when Senator Murray suggested that OSHA monitor the imports 
of these products from Brazil, China, Colombia, Brazil, and Canada, she 
was told, ``OSHA is not contemplating a warning label survey.'' (John 
Henshaw, OSHA Administrator, letter to Senator Murray, Aug. 31, 2004)
    OSHA did post a long-delayed factsheet on its Website on July 26, 
2006, explaining the mandatory appendix of the current (1994) OSHA 
asbestos standard applicable to mechanics doing brake and clutch 
repair. This was immediately challenged by former OSHA chief John 
Henshaw, urging his former subordinates at OSHA to retract the 
factsheet and possibly redo it with additional references included. 
Henshaw threatened that OSHA could be hit with a data quality 
challenge, the same tactic that had been used to press EPA to withdraw 
its published brake asbestos guidance document in 2003 (explained 
below). Henshaw's call precipitated a conference at OSHA that same day, 
including his successor, Edwin G. Foulke, Jr.
    In the flurry that followed, OSHA scientist Daniel Crane was among 
those who did a technical review of the factsheet. He noted that, in 
issuing the 1986 asbestos standard, OSHA had relied on NIOSH data 
showing that asbestos exposures of mechanics exceeded the current 
permissible exposure limit. ``OSHA has no reason to believe that the 
nature of dust generated in the repair of asbestos-containing brakes 
has changed since that time.'' (Aug. 26, 2006)
    Notwithstanding this, on November 6, 2006, OSHA threatened the 
author of the factsheet, industrial hygienist Ira Wainless, with 
suspension for ``failure to perform a comprehensive review of current 
research.'' The ``current research'' consisted mainly of re-analyses of 
earlier articles published in scientific journals, commissioned jointly 
by General Motors, Ford, and DaimlerChrysler, starting in 2001. Line-
item billing for Dr. Shannon Henshaw Gaffney's services appeared 21 
times on Chemrisk asbestos litigation bills to the Big Three in 2004, 
totaling around $10,000. John Henshaw's daughter went to work at 
Chemrisk when she obtained her doctorate in environmental science in 
2004. Mr. Henshaw, who departed OSHA on Dec. 31, 2004, told his former 
subordinates at OSHA last August that there was a lot of litigation 
over asbestos and brake work, but he neglected to mention that he was 
involved in it as an expert witness for a leading defendant, Honeywell 
(Bendix brakes).
    After publicity and inquiries from Congress, the OSHA bosses 
completely withdrew their threat against Mr. Wainless within weeks; 
they also decided to not retract or revise the fact sheet (A. 
Schneider, ``Brakes warning remains/OSHA statement on asbestos exposure 
hazard survives challenge,'' Baltimore Sun, Dec. 17, 2006; E.G. Foulke, 
OSHA, letter to Rep. George Miller, Dec. 14, 2006).
    Mr. Henshaw testified several months ago that he did not know his 
daughter did asbestos litigation defense work at Chemrisk, where he 
began to be listed as a ``teaming partner'' in early 2005, soon after 
leaving OSHA. He says no one paid him to call OSHA officials about 
withdrawing the factsheet, which he contends was ``poorly written.'' 
Henshaw has never published anything in the peer-reviewed scientific 
literature, but he read it regularly during his 25 years at Monsanto 
before becoming the OSHA chief in 2001. (Deposition of John Henshaw in 
Blandford, Dec. 13, 2006)
    Henshaw's approach to his former subordinates at OSHA on a policy 
matter he was involved in as OSHA chief less than 2 years before may be 
a violation of the Federal Ethics Act. An examination of this case may 
suggest areas where the law should apply if it does not yet do so. I 
understand that the U.S. Office of Government Ethics has explained 18 
U.S.C. Sec. 207 as follows:

        As an executive branch employee, you are barred permanently 
        from trying to influence any Federal agency or court, by 
        communications or appearances on behalf of someone other than 
        yourself or the United States (i.e., ``representational 
        contacts''), on a matter that has parties (such as a contract, 
        grant, or lawsuit), if you have worked on that matter as a 
        Government employee. If the matter was under your official 
        responsibility during your last year of Government service, 
        even if you did not personally participate in it, you are 
        barred from making representational contacts about that matter 
        for 2 years.

Seeding the Literature

    The publication and promotion of scientific reviews was key to a 
brazen litigation defense strategy of General Motors, Ford, and 
DaimlerChrysler. Defendant corporations have been prevailed upon to 
disclose copies of the bills received for litigation services by 
Exponent and Chemrisk. The Exponent bill to the Big Three on Apr. 4, 
2003, titled ``Technical Support--Asbestos Litigation,'' has a line 
item, ``Completion of Meta-Analysis.'' Additional charges for 
``Completion of Meta-Analysis'' were billed on May 2, Aug. 1, and Aug. 
29, and Oct. 31, 2003. On Jan. 2, 2004, there was a charge of $19,500 
for ``Presentation of Mechanic Meta-analysis.'' In all, ``Presentation 
at Conferences'' was billed seven times between February and November, 
2004 as ``Technical Support--Asbestos Litigation.'' The ``Finalization 
of 2 Submitted Manuscripts'' (on garage mechanics epidemiology) was 
another item in bills for technical support in asbestos litigation to 
the Big Three (May 28 and July 1 and 30, 2004). Additional Exponent 
billings to the auto companies in 2004 were for writing responses to 
separate articles by Drs. Dodson, Lemen, and Egilman.
    GM, Ford, and DaimlerChrysler have spent at least $23 million 
between 2001 and spring of 2006, for the consulting and publishing 
services of Exponent and Chemrisk, and scientists including Dennis 
Paustenbach, Michael Goodman, David Garabrant, Mary Jane Teta, Patrick 
Hessel, Patrick Sheehan, Elizabeth Lu, Gregory Brorby, and Brent 
Finley. (D.S. Egilman and S.R. Bohme, ``Scientific Method Questioned'' 
Int. J. Occ. Env. Health 12: 292-293, 2006; and Exponent and Chemrisk 
bills produced by in Sept. 2006, in Rebekah Price v. DaimlerChrysler 
Corp. et al.). So, in addition to their technical shortcomings, such as 
selectivity in what was included in these reviews and what was not, the 
recent meta-analyses and commentaries of Exponent and Chemrisk authors 
should be read with it in mind that they were solicited for the purpose 
of fighting personal injury claims brought by mechanics and their 
family members. These publications were part of a strategy of corporate 
defense lawyers, approaching and generously supporting the scientist-
authors, most of whom had previously published little or nothing on 
asbestos. These publications were created to provide evidence that 
mechanics' asbestos exposures do not cause asbestos diseases. They were 
to be published by the best scientists money could buy.

Current Sale in United States of New Asbestos-Containing Vehicles and 
                    Brake Replacement Parts

    After receiving Henshaw's threatening calls last August, OSHA 
officials contacted major auto makers asking whether they still sold 
any new vehicles with asbestos brakes. They were told by General Motors 
and Ford that these firms were still selling some new vehicles with 
asbestos brakes in the United States. This contradicted the reported 
findings of a telephone survey that EPA had done in 2004, which EPA 
reported as follows: ``All nine companies responded that they no longer 
sold asbestos brakes in new vehicles or as replacement parts in the 
United States.'' The companies accounted for 96 percent of light 
vehicle sales in the United States (GM, Ford, DaimlerChrysler, Toyota, 
Nissan, VW, BMW, Honda, Hyundai). http://www.epa.gov/fedrgstr/EPA-TOX/
2006/August/Day-24/t14057.htm
    EPA was recently informed that replacement brakes bought in 2006 
for a Chrysler vehicle were shown by lab testing to contain asbestos. 
So it appears that some of the major auto makers are still selling 
asbestos-containing new vehicles and replacement brakes in the United 
States, even though they probably wouldn't dare try to sell that stuff 
in European Union countries like Germany, Poland, Slovenia, and 
Lithuania.
    We thus have the very disturbing confirmation that new vehicles and 
replacement parts with asbestos continue to be sold in the United 
States. About $103 million worth of brake parts are imported annually 
from countries that mine asbestos and manufacture asbestos products 
(this includes Canada, India, and Peru). China is fast overtaking 
Brazil as the leading country of origin of these automotive friction 
materials. There is no official scrutiny to determine whether the 
required OSHA cancer warning labels are on asbestos brake products from 
these countries. There is no information about the working conditions 
or pollution at the plants where these products are made. There is no 
information about the business relationships that such manufacturers 
have with the major auto makers.
    Fly-by-night distributors have a virtual invitation to ship 
asbestos brake and clutch parts to the United States and not even place 
warning labels on them. OSHA seems content to post a factsheet on its 
Website but does not make the effort to go out and warn mechanics or 
provide credible enforcement of its standard to protect them. 
Meanwhile, most mechanics think asbestos is banned in the United States 
and take few precautions.
    When I first began investigating the victimization of workers in 
backward countries by companies exporting discredited, hazardous 
technology, I never imagined I would ever see the United States treated 
as such a dumping ground by U.S.-based and foreign corporations.
    EPA has the power to summon information on the U.S. sale of 
asbestos-containing automotive friction materials and gaskets as 
replacement parts; EPA can also compel the auto makers to disclose the 
new vehicle models with asbestos-containing friction materials and 
gaskets sold in the United States in 2006 and this year. This authority 
exists under Section 8a of the Toxic Substances Control Act, and it 
should be put to immediate use.

EPA

    The EPA ``Gold Book'' was written in 1986 after full review by EPA, 
OSHA, NIOSH, and others, titled Guidance for Prevention Asbestos 
Disease Among Auto Mechanics. This 16-page pamphlet with the gold cover 
was uncontroversial at the time it was published. It warned that 
mechanics grinding asbestos-containing brake and clutch parts urgently 
needed to have dust controls on the grinding wheels. Compressed air 
blow-out of brake drums, which would be forbidden by an OSHA standard 
issued the same month the EPA pamphlet came out, was advised against, 
unless it could be done inside a transparent glove-box enclosure 
designed to draw away the dusty air to a high-efficiency air filter. 
Significant exposures were otherwise going to occur and place people at 
risk of dying from asbestosis and cancer, warned the Gold Book. It was 
distributed to all of the vocational and technical schools in the 
country, in an exemplary government public health information effort.
    EPA published the Gold Book 11 years after NIOSH had put out a 
national alert on the hazards of asbestos to mechanics. Even the 
industry trade association, the Friction Materials Standards Institute, 
accepted that mechanics could get cancer from the dust and needed to 
employ dust controls and respirators, in a work practices guide 
published in 1978. But a quarter century later, new doubts were raised 
about whether mechanics' asbestos exposure caused asbestos disease. By 
2003, there were still copies of the Gold Book available from EPA, but 
they were just gathering dust on the shelves.
    Suddenly receiving much more attention in the courts than in the 
1990s, brake manufacturers sought some official recognition of the 
``controversy'' they had attempted to create by sponsoring a flurry of 
articles re-analyzing the earlier literature. As luck would have it, 
business interests had slipped a rider into an appropriations bill in 
2001, later anointed the ``Data Quality Act.'' So, in August of 2003, 
one of the big corporate defense law firms, Morgan Lewis and Bockius, 
moved to have EPA withdraw the Gold Book as based on out-of-date 
science and government regulations. The lawyers refused to disclose 
whom they represented to Members of Congress and the media. But an 
article in Corporate Counsel, ``Who Represents America's Biggest 
Companies,'' credited major services by Morgan Lewis to Honeywell. GM 
was another client of the vast law firm. (Last year, I met the lawyer 
who signed the Morgan Lewis letter to EPA, representing another 
defendant at my deposition in an asbestos case, and I showed him where 
I had named him in the latest edition of my book on the public health 
history of asbestos. He just asked me how I knew about General Motors.)
    Four Exponent bills to General Motors, Ford, and DaimlerChrysler 
under the heading, ``Technical Support--Asbestos Litigation'' contained 
charges for the line item, ``Prepare Materials to Challenge 1986 EPA'' 
in the last half of 2003. This is science for sale in the service of 
business interests willing to endanger another generation of mechanics. 
The Gold Book wasn't crucial in proving that mechanics were endangered 
by asbestos. But the official withdrawal of the Gold Book by EPA would 
have provided the basis for national publicity and motions to dismiss 
damage suits in courts across the country, while providing a new 
defense in cases that went to trial.
    Fortunately, people in EPA got the word out about this attack on 
the Gold Book, and scientists sent comments in to EPA providing 
evidence that brake asbestos exposures still did cause asbestos 
diseases. EPA responded in November 2003 that a revised draft version 
of the Gold Book would be presented for public comment in spring of 
2004. I called EPA as time wore on, and in 2005 was told that EPA was 
not going to revise the Gold Book after all, they would defer to OSHA, 
where a factsheet was being prepared about the brake mechanic section 
of the OSHA asbestos standard. That's how I heard about the OSHA 
factsheet, which had been started in 2000 and was undergoing 
considerable delays of its own by 2005. And on July 21, 2005, the 
Office of Management and Budget held the first of 3 or 4 conferences 
with EPA and OSHA about what if anything to tell the public about 
asbestos hazards from brake work. On May 3, 2006, journalist Andrew 
Schneider reported (``Asbestos Concerns Resurface/ Brake imports using 
fibers surge, imperiling mechanics,'' Baltimore Sun) that OSHA was not 
going to publish the factsheet, but EPA was going to revise the Gold 
Book after all.
    Senator Murray placed a hold on the nomination of Stephen McMillin 
as OMB Deputy Director, and OSHA got the factsheet out on July 26, 
2006. The next month, EPA put out a proposed revision of its brake 
warning document for public comment. The revised document is expected 
to be issued in March or April of 2007. I salute the dedicated civil 
servants at EPA and OSHA for persisting against great pressures to 
produce relatively good materials up to this point. But how many people 
were consigned to get cancer some future day, because the Federal 
agencies delayed for several years, playing ping-pong with their 
responsibility to protect workers and the public?
    On May 4, 2006, Representatives David Wu and Major Owens asked the 
GAO to investigate the EPA's delays and OMB's role in handling the Gold 
Book revision. This investigation was delayed by lack of cooperation by 
EPA, and at the end of 2006 the GAO investigation was expanded to also 
examine OSHA's handling of the factsheet on brake asbestos hazards. I 
hope that OSHA cooperates with GAO. But OSHA's response (Dec. 14, 2006) 
to an inquiry by House Committee on Education and the Workforce 
Chairman George Miller was absolutely insulting; Henshaw's successor, 
Edwin Foulke, Jr., brazenly withheld documents from Congress ``because 
of the strong and long-recognized executive branch interest in 
protecting the integrity of the deliberative process.'' It's pretty 
obvious that the integrity of the process would be better served by 
sunlight and oversight, not stonewalling.

Contaminant Asbestos

    Aside from the recognized products using commercial asbestos as an 
ingredient, there are products that use other minerals that naturally 
occur with asbestos contamination in them. These include the notorious 
vermiculite mined for decades in Libby, Montana by W.R. Grace and talc 
mined in northern New York State. By the time the Libby operation was 
closed in 1990, asbestos-contaminated attic insulation had been 
installed in millions of homes in the United States and Canada. The 
Canadian government is considering what to do in the face of news 
reports about Raven Thundersky and several of her family members, who 
have been stricken with mesothelioma from living in such a dwelling.
    The talc mines in New York have been notorious for occupational 
lung diseases since the early 1940s, at which time it was realized that 
asbestos fibers occur naturally in these deposits of talc and in many 
other talc mining areas. This talc is mined by R.T. Vanderbilt Company. 
For over 30 years, Vanderbilt has denied that there is asbestos in its 
talc, making mineralogical arguments to distinguish the contents of its 
talc from the definitions of asbestos in government regulations.
    When asbestos was banned in consumer patching compounds in 1977, 
Bondex International reformulated a spackling compound after being told 
by Dr. Selikoff's laboratory that there was asbestos in the product 
from the talc they had used, which was Vanderbilt talc. So I was amazed 
to learn last year that a widely used product, Durham's Water Putty, 
contained asbestos because it is still made using Vanderbilt talc. I 
learned about this because I was an expert witness in three cases where 
workers who had used this product and developed mesothelioma were suing 
Durham Company and R.T. Vanderbilt. Along with other experts in the 
case, a pathologist and a microscopist who had analyzed the Durham 
product, I drafted and hand-delivered a letter Jan. 29, 2007, to the 
Consumer Product Safety Commission.
    We asked the CPSC to enforce its ban on asbestos in consumer 
patching compounds by taking action against Durham, Vanderbilt, and Ace 
Hardware (whose retail outlets sell the product all over the country). 
We also told CPSC about the long history of denial by Vanderbilt that 
its talc contains fibers that cause asbestos disease, and we asked CPSC 
to find out what other products Vanderbilt talc is used in. My co-
petitioner, pathologist Jerrold Abraham of Syracuse, has seen cases of 
asbestosis, mesothelioma, and lung cancer in individuals whose only 
exposure to asbestos came from the New York State talc mines. He and 
other doctors have published a report in the literature of 5 cases of 
mesothelioma in New York State talc miners in addition to 8 cases 
identified in previous studies as having mesothelioma.
    This is an example of how contaminant asbestos can endanger large 
numbers of people's lives in this country. Another source of concern is 
Virginia Vermiculite, where Mine Safety and Health Administration 
(MSHA) officials were concerned about asbestos exposure of workers at 
this site and at plants receiving and processing this material. 
Vermiculite has been used in such products as potting soil, insulation, 
and cat litter. http://seattlepi.nwsource.com/uncivilaction/asb04.shtml
    MSHA hearings on asbestos hazards of mining and stone quarrying 
were held on October 20, 2005, and I brought these concerns up at that 
time. MSHA action is needed to better protect workers mining talc in 
New York and vermiculite in Louisa, Virginia.
    This danger can extend to basic stone used in construction. In 
2005, research was published linking residence in areas of California 
with naturally occurring asbestos outcrops and increased risk of 
mesothelioma (Pan et al., Am. J. Resp. Crit. Care Med. Oct. 2005). Dr. 
Marc Schenker, one author of this study, expressed concern about the 
health hazard faced by people with environmental exposure in areas 
where development was proceeding in El Dorado County, California, and 
other areas where asbestos minerals are known to be present in the soil 
in significant amounts. http://www.medicalnewstoday.com/
medicalnews.php?newsid=32149
    In El Dorado County, California, there is a considerable amount of 
land development and construction, and soils have been found to contain 
up to several percent of tremolite asbestos. Pathologists Jerrold 
Abraham and Bruce Case have separately determined asbestos fiber 
burdens in lung tissues of deceased pets from the area. Lung tissue 
burdens of tremolite and actinolite asbestos increased with the number 
of years the animals had lived in the area. No such fibers were found 
in the lungs of a cat that had not lived in the area. The fiber burden 
in the pets' lungs was higher than found in the lungs of goats in an 
area of Corsica, where environmental exposure to tremolite asbestos is 
clearly associated with human mesothelioma occurrence. http://
www.upstate.edu/pathenvi/NOTES%20VIEW%20FINAL.pdf
    Testing conducted by the EPA showed that children and adults 
participating in sports activities in areas where asbestos occurs 
naturally in surface soils are exposed to asbestos fibers at up to 62 
times the reference levels. EPA Region 9 has worked with State and 
local authorities in California to map, monitor, control, and regulate 
exposures from naturally occurring asbestos.
    What is needed is a process whereby the EPA does surveillance of 
possible sources of contaminant asbestos around the country, starting 
with Vanderbilt talc and Virginia Vermiculite, using USGS mineral 
survey maps to help identify hot spots. Then, as operations of concern 
are discovered, there needs to be a process of investigation, first for 
EPA to realistically sample the products of these operations and do 
bulk sample analysis. Then, if there is any concern over public and 
worker exposure, the company should have to disclose its commercial 
customer list to EPA. EPA could then contact the customers to see how 
the material is handled, ask what products it is used to make, and 
assess what asbestos exposures result for workers, consumers, and 
people living where the stuff is shipped, processed, and put to end 
use. In annual reports, EPA should disclose what operations it has 
under investigation, and summarize the state of these investigations, 
describing the commercial uses of the suspect materials. And of course, 
the EPA needs the authority to close operations and stop the sale of 
products that are deemed a threat to public health.

Conclusion: Ban Asbestos

    The problem of asbestos in automotive friction materials well 
illustrates the need to ban asbestos in this country. While traditional 
public health information and regulation can reach some people, there 
will be many more who never see an OSHA Website or inspector or receive 
guidance from the EPA. There are hundreds of thousands who do regular 
brake and clutch repairs in their jobs, and another 2,000,000 brake 
jobs are done each year by people working on their own vehicles. 
Similarly, the importation of asbestos-cement building panels from 
Mexico is a serious and unnecessary hazard to construction workers and 
the general public. There is simply no reason to tolerate the import of 
asbestos products that are not even manufactured in this country.
    Modern industry has no need of asbestos. Global corporations (Dow, 
ICI, Unilever) have worldwide codes of practice for avoiding the use of 
asbestos-containing materials in new construction and treating them 
with great care in existing infrastructure. The auto makers serve major 
markets in Europe and elsewhere, without using asbestos in new cars and 
trucks or replacement parts. There are no multinational asbestos 
corporations left in the world.
    What remains of the asbestos industry are separate national 
companies, owned by the bottom dwellers of the corporate food chain. 
These companies' profitability is based on minimizing the costs of 
prevention and compensation, primarily selling asbestos-cement 
construction materials. The asbestos industry is a quasi-criminal 
industry in much of the world today, using its power to corrupt 
political processes and control the media when challenged. The asbestos 
industry is still expanding in such countries as India and China, 
they're still building new asbestos factories over there. And the local 
Lords of Asbestos smile and point to the United States if anyone talks 
about banning asbestos, saying it's still legal over here.
    But this isn't India, we don't have an asbestos industry in the 
United States. The asbestos trade group vanished from K Street long 
ago. The U.S. Government has taken a stand in support of national 
asbestos bans. When asbestos exporter Canada challenged the French 
asbestos ban at the World Trade Organization in 1999-2001, the United 
States supported France's (successful) defense. U.S. asbestos 
consumption is down to 2,000 tons per year, from 800,000 in 1973. There 
are no more operating asbestos mines in the United States. The economic 
impact of banning asbestos and asbestos products in the United States 
would be trivial. And if Congress doesn't allow for a protracted 
rulemaking process, we should be able to match South Korea by having a 
total asbestos product ban in effect by the end of next year.
    I urge that the legislation require EPA to issue proposals within 6 
months to set criteria to establish what products contain asbestos (the 
``ban rule'') and then promptly hold hearings to consider exemptions 
applied for by business interests. EPA should be directed to consider 
in exemption applications the availability of safer, asbestos-free 
alternative products and processes, and the potential health impacts on 
workers, consumers, and the general public. The ban should take effect 
starting 1 year after enactment for all commercial uses of asbestos for 
which substantive requests for exemption have not been made. The EPA 
``ban rule'' should also be issued within 1 year after enactment, 
defining the criteria for establishing whether products are covered by 
the ban. Other agencies, such as NIOSH, may be able to help on this. 
EPA should complete evaluation of all applications for exemption within 
1 year after holding hearings after publishing the proposed ``ban 
rule.'' Exemptions should lapse if not renewed 3 years later. This 
should be relatively straightforward for products made with commercial 
asbestos, less so for products and processes involving contaminant-
asbestos.
    The widespread distribution of asbestos-contaminated talc and 
vermiculite in consumer products urgently needs to be investigated and 
regulated. Public and worker asbestos exposure is most insidious when 
it is concealed, and there should be criminal penalties for selling 
such products while concealing that they have asbestos in them. The Ban 
Asbestos statute should cover contaminant-asbestos articles in commerce 
and provide EPA with the means to fully investigate and regulate all 
such public health hazards. The EPA ban rule should define what is 
meant by an asbestos product, for products including those containing 
contaminant-asbestos, including methods of analysis as well as other 
considerations for conducting evaluations (e.g., have people developed 
asbestos disease from exposure to it, has it shown this potential in 
experimental animal studies, how similar is it to materials about which 
such data exist, are studies to resolve such questions presently being 
conducted by independent researchers).
    To the extent that there are more complex issues involved with 
contaminant-asbestos, the resolution of these should not be structured 
in a way that will delay the less controversial banning of products 
made with commercial asbestos as an ingredient.
    Banning asbestos in the United States would have an important 
effect on the rest of the world. Today, most people in the world still 
live in countries where there is still a lot of asbestos consumed--we 
will also help them by our example, I assure you, even as we help the 
people of our own country.
    I have not been paid by anyone for my preparation and testimony 
here today. Nor do I represent anyone today but myself, a public health 
worker. Thank you for inviting me to speak.

    The Chairman. We do have all of your prepared statements, 
thank you.
    Dr. Wilson, we'll turn to you.

  STATEMENT OF RICHARD WILSON, D.Phil., PROFESSOR OF PHYSICS, 
                 HARVARD UNIVERSITY, BOSTON, MA

    Mr. Wilson. Madame Chairman and members of the committee 
and ladies and gentlemen, about 1972 I first began careful 
comparative studies of various risks, both occupational and 
environmental. I've written many papers on this and 
comprehensive approaches in my book with benefit analysis is 
here and I've got some copies for the members of the committee.
    I was immediately concerned about asbestos. I was appalled 
that the industry and U.S. Government position that the 
threshold exists or at least, according to the Consumer Product 
Safety Commission, it was a nonlinear dose response 
relationship. I was therefore delighted when Professor Julian 
Peto of the United Kingdom, following his brother, Sir Richard 
Peto's advice to the EPA, challenged this at the meeting of the 
New York Academy of Sciences in 1978 and since then, everybody 
has assumed that no threshold exists and I believe correct.
    I was also challenged--the measurements of best form or 
asbestos concentrations in the environment because often, they 
are measured in calm periods of wind when actually the uptake 
of asbestos will be as good as cube of the wind velocity.
    I note that in my personal experience, my father died of 
lung cancer caused by cigarette smoking. My grandmother died of 
lung cancer caused by the air pollution in Halifax, United 
Kingdom. You probably know the prayer Hell, Hull, and Halifax, 
Good Lord Deliver Us. One of my wife's relations was an 
executive of Johns Mansville, who died of asbestos lung cancer. 
So I'm well aware of those issues.
    In the 1980s, everyone became more cautious. Occupational 
limits were reduced over a hundred fold and several hundred 
fold less than the exposures of which gave the enormous numbers 
of cancers of which there is the epidemiology.
    The proposal is to ban asbestos in the United States, which 
might have been sensible in 1979 but now it's been--although 
it's been banned in about 50 countries around the world, not in 
the U.S.A.
    We argue the time for an absolute ban is past. We have used 
more sophisticated regulatory tools with much success. In 1971, 
asbestos consumption was 500,000 tons per year and permissible 
exposures were 100 times what they are now. Now that the sums 
are 250,000 tons less and exposure limit 100 fold less--we 
certainly will have far fewer cancers.
    Now, so we don't have the time of the bad old days. In the 
late 1970s, in my belief and early 1980s, Federal organizations 
went overboard. In 1978, an incorrect report predicted asbestos 
related cancers caused over 70,000 cancers a year in the United 
States. That was discredited within a couple of weeks by the 
Buenos Aires Conference, by the world epidemiologists.
    The prediction by various Federal agencies over the years 
of the numbers who will develop cancer has continually lowered. 
The proposed number of 10,000--I believe that is high. I think 
the number is between 1,700 and 4,000 and moreover, since the 
exposure limits have been reduced, all of those are due to past 
exposures from the bad old days and almost none since exposure 
since 1980.
    So in 1979, there was a proposal for an absolute ban on 
asbestos, which didn't actually come--put forward by the EPA 
until 1989. Now, in 1991 we've heard, the Court of Appeals 
overturned it and said the agency had failed to supply 
substantial evidence to support the rule and the Chairman of 
the EPA to provide it. They haven't and we believe it doesn't 
exist for chrysotile asbestos.
    If the EPA had initiated a ban, for example, on asbestos 
shingles, it would cost 25 million dollars and save 0.32 
statistical lives, about 100 million dollars for a statistical 
life. This high cost is in contrast with the uncontested EPA 
rule of 2000, suggesting that statistical lives of this sort--
just calculated, you understand--would be regulated if they 
exceed--if they are less 5.6 million dollars per life. So 
according to the EPA's present rule, they would not be applying 
to all cancers that would not be regulated, an uncontested 
rule, by the way.
    The Court remanded the matter back to EPA and it's 
important to realize the Court of Appeal's procedure. It is an 
important part of our democracy and we believe exists nowhere 
else in the world and if you object to the Court of Appeal's 
procedure, do exactly what the EPA--what they suggested, go 
back and provide the substantial evidence.
    In the intervening years, there has been controlled use of 
asbestos in many parts of the world and the dangerous amosite 
and chrysotile asbestos has left commerce worldwide--no one 
uses it, ever. That started its decline in the 1960s and the 
U.S. incidence of mesothelioma declined since the 1990s. 
Remember, mesothelioma has a 40-plus years of latency period. 
So any mesothelioma now is exposure from at least 40 years ago.
    This decline is consistent with the idea that mesothelioma 
is caused by the past exposures and also by the time we had 
dangerous amphibole elements and there is no evidence 
mesothelioma is caused by chrysotile to any appreciable extent.
    Less than 17 percent of the countries around the world have 
chosen to ban asbestos and many of their bans are not absolute. 
But we've heard we can do something about that, of course.
    I point out asbestos is not a manufactured material 
although mining and manufacturing processes are used to make it 
useful. But a ban on these processes will not address the real 
risk caused by asbestos outcroppings in many parts of the 
country with a much greater risk right now.
    For example, asbestos exposures in Libby, Montana was from 
dangerous amphibole asbestos, not from the much safer 
chrysotile asbestos. And EPA is currently reviewing its posture 
on this and they haven't yet done a proper risk assessment.
    The Ban Asbestos bill calls for banning materials of 
asbestos, which contains asbestos in any concentration. A 
fundamental principle, I'm against such--zero and absolute 
bans. I think if we don't have any knowledge, they may be 
appropriate. They may have been appropriate in the 1970s but 
they are not, in my view, appropriate now. They are obsolete 
and not appropriate to a developed society.
    Modern methods can identify very low concentrations of 
minerals all over and they can be coped with and controlled.
    The Chairman. Dr. Wilson, if you could summarize real 
quickly, we want to make sure everybody has a chance to speak.
    Mr. Wilson. Now the commercial asbestos minerals have been 
moved from commerce--and the asbestos consumption has been 
reduced by 250 times and it is chrysotile only and the exposure 
levels of the workplace have been controlled 100 times better 
than there were in the 1970s. I think there is no particular 
use. Complete banning of asbestos--gaskets, o-rings, 
diaphragms, roof coatings and such, would be still useful and 
they could be controlled and there is no reason not to do it.
    [The prepared statement of Mr. Wilson follows:]

             Prepared Statement of Richard Wilson, D.Phil.

    These comments are submitted in order to summarize and in some 
places expand on the letter of February 13th submitted by Dr. Robert P. 
Nolan and myself.
    Mme. Chairman, Senators, ladies and gentlemen, about 1972 I began 
careful comparative studies of various risks, both occupational and 
environmental. I have written many papers on this and a comprehensive 
approach to the subject is in my book ``Risk Benefit Analysis,'' copies 
of which I have here. I was immediately appalled at the situation about 
asbestos. It worried me that the industry position was that a threshold 
exists, and the U.S. Government, Consumer Product Safety Commission, 
assumed there is a non-linear dose response relationship. There are 
fundamental theoretical reasons, enunciated in 1976 by Sir Richard Peto 
and others, (Crump et al. 1976) that a linear dose response should be 
the default for almost all carcinogens, depending only on the fact that 
most of these agents (chemical, radiation, or otherwise) cause cancers, 
or other medical outcome, indistinguishable from those occurring 
naturally. Then Taylor's theorem in mathematics applies. I was 
therefore delighted when his brother Julian Peto of the UK challenged 
the threshold concept for asbestos at a meeting of the New York Academy 
of Sciences in 1978. I was also concerned that measurements of airborne 
asbestos concentrations were often taken in a calm period, whereas the 
uptake from surface concentrations will rise as the cube of the wind 
velocity. I was also delighted by the action of Sir Richard Doll of the 
UK, who in response to Julian Peto's criticism asked Julian to join him 
in an important report to the UK government in the early 1980s which 
influenced much of the ensuing policy.
    I emphasize that I yield to no one in concern for the victims of 
the high exposures of the ``Bad Old Days.'' My father died in 1986 of 
lung cancer. Sir Richard Doll and I went over the numbers carefully and 
agreed that it was due to cigarette smoking--although he had stopped 41 
years before. My grandmother died of lung cancer also--caused I believe 
in her case by air pollution in the town of Halifax in UK. Some of you 
will remember the old non-conformist prayer: ``From Hell, Hull, and 
Halifax, Good Lord Deliver Us.'' One of my wife's cousins, an executive 
at Johns Manville, died of lung cancer--caused no doubt by high 
asbestos exposures.
    In the 1980s everyone became more cautious. The occupational 
exposure limits were reduced a hundred fold and asbestos was removed 
from hundreds of locations. There were proposals in the United States 
to ban the use of asbestos entirely which might have been justifiable 
in the ignorance of 1975. Asbestos has been banned in over 40 countries 
around the world, but not in the U.S.A. We argue that the time for an 
absolute asbestos ban has passed. We have used more sophisticated 
regulatory tools with much success. In 1971 all the commercial asbestos 
fiber-types were being used in the United States, asbestos consumption 
was above 500,000 tons per year and the permissible asbestos exposure 
level was 12 fibers/ml (equal to or greater than 5 microns in length) 
an asbestos ban may have been justifiable as the simplest solution to a 
huge problem. Since the U.S. Occupational Safety and Health 
Administration began to regulate asbestos in 1971, we would like to 
point out the events that have occurred to eliminate any need for an 
asbestos ban in the United States.
    The permissible occupational exposure limit has been reduced to 0.1 
fibers/ml over a hundred fold lower than the 1971 asbestos standard and 
hundreds of times lower than the historical high asbestos exposure 
levels of the ``bad old days'' associated with asbestos-related 
disease. The current U.S. permissible exposure level for asbestos is as 
low as any in the world. We strongly disagree with statements in the 
Ban Asbestos Bill indicating the current U.S. permissible exposure 
level is not safe.
    In the late 1970s Federal organizations who had been insufficiently 
cautious before went overboard. The predictions by various Federal 
agencies over the years about the number of Americans who would develop 
asbestos-related cancers have been consistently lowered. In 1978 Mr. 
Joseph Califano released a report from the National Cancer Institute 
and the National Institute of Environmental Health Sciences (completely 
discredited within a couple of weeks by epidemiologists at a conference 
in Buenos Aires, although the Council of Environmental Quality still 
referred to it 18 months later) suggesting that occupational exposures, 
were the major cause of cancer with asbestos causing 17 percent. They 
predicted that 2 million premature asbestos-related cancer deaths would 
occur over the next 30 years--70,000 per year. The false assumption was 
made that any worker exposed to asbestos--even to a small extent--had 
the same cancer risk as the highest exposed asbestos worker. They also 
forgot to say that these would almost all be from past exposures (Efron 
1984, Wilson and Crouch 2001).
    From the 70,000 asbestos-related cancers predicted annually from 
1978 to 2008 the proposed legislation reports ``that as many as 10,000 
American citizens will die each year from mesothelioma and other 
asbestos-related diseases.'' This, we believe, is high. Before the 
asbestos use there were 400 mesotheliomas a year among men and a 
comparable number among women. The number went up and peaked at 2,000 
in men in the year 1990, and is now falling. These are almost certainly 
due to the high exposures starting in the 1940s till the drop in 
amphibole asbestos that began in 1980. Since there is a long latency 
period, often 40+ years for mesothelioma, this makes sense. This makes 
a total of about 1,700 asbestos related mesotheliomas, falling slowly 
to zero in about the year 2030 or 2040. Lung cancer has a shorter 
latency period, and has many other causes, so it is unsure whether 
there are still many lung cancers caused by past exposures. Perhaps a 
maximum of 1,000 per year, making a total of 1,700-3,000 cancers per 
year.
    The move to ban all forms of asbestos is not new. In 1979 there was 
a move for an absolute ban on asbestos. An advanced notice of proposed 
rulemaking by the U.S. Environmental Protection Agency appeared on 
October 17, 1979. That year the total U.S. consumption of asbestos was 
560,000 tons compared to 2,000 tons now. Moreover about 6.6 percent was 
the very toxic amosite asbestos and crocidolite asbestos. The balance 
was the less toxic chrysotile asbestos. The final rule prohibiting most 
asbestos containing products because it ``constituted an unreasonable 
risk to health and the environment'' did not appear until 1989 by which 
time the amphibole asbestos minerals were leaving commerce. And 
exposure limits were much reduced.
    On October 18, 1991 the 5th Circuit Court of Appeal vacated EPA's 
proposed ban because the agency had ``failed to muster substantial 
evidence'' to support the rule. In 1986 the EPA estimated that a ban on 
asbestos shingles would ``cost $23-34 million to save 0.32 statistic 
lives ($72-106 million per life).'' I note that in about the year 2000 
EPA instituted (uncontested) a rule suggesting regulation if the cost 
is less than $5.6 million per statistical life. The 5th Circuit went on 
to query why EPA would consider asbestos so dangerous if for example 
``. . . over the next 13 years, we can expect more than a dozen deaths 
from ingested toothpicks--a death toll more than twice what the EPA 
predicts will flow from the quarter billion-dollar bans on asbestos 
pipe, shingles and roof coatings.''
    The Court of Appeal's decision remanded the matter back to EPA to 
muster further evidence to support their claim that asbestos exposure 
constitutes an ``unreasonable risk.'' Such additional evidence has 
never been provided by EPA and we would argue that for chrysotile 
asbestos it does not exist. The Ban Asbestos Bill has not addressed any 
of the Court of Appeal's concerns about mustering substantial evidence. 
In the intervening time it has been shown that controlled use of 
chrysotile asbestos is feasible and it is happening in many parts of 
the world (Nolan et al. 2001). The ``substantial evidence'' the 5th 
Circuit asked for to show that controlled asbestos exposure presents an 
``unreasonable risk'' is not available and we argue that such evidence 
does not exist (Wilson et al. 2001).

        Has anything changed to justify the U.S. Senate's bill to ban 
        asbestos now?

    As we re-visit the ban issue 28 years after the first proposal and 
16 years after the Court shot it down, much has happened to make a 
complete ban of asbestos in the United States an even less sensible 
public health policy. One involves the definition of asbestos. The 
original etymology of the word is from the Greek. It does not burn. 
That was, of course the most important first use of commercial 
asbestos. One cannot have a simple chemical definition, because the 
same chemical appears in two distinct forms. One ``asbestiform'' has a 
thin fibrous structure and another a bulk form. There are also cleavage 
fragments that have not been regulated as asbestos and are almost 
certainly less toxic. It is generally agreed that only the first--
asbestiform--are legitimately called ``asbestos'' and it is the form 
that is extremely toxic and that has been regulated. There is more 
controversy about whether to treat all the forms common in 1970 as 
having the same toxicity because we could not at the time prove that 
they were different or to consider them differently because they could 
not be proved to be the same! Regulators chose the former, but in the 
intervening time an increasing number of scientists believe that 
chrysotile is less likely to cause lung cancer than the amphibole 
asbestos minerals (amosite and crocidolite). For example a quantitative 
risk assessment by Hodgson and Darnton of the UK Health and Safety 
Executive appeared in 2000 found a difference of over a factor of 5, 
although I personally have problems with their modeling because they 
have a non linear dose response for one of them.
    There is even more agreement that chrysotile is much less likely to 
cause mesothelioma--if indeed it causes it at all. Julian Peto's work 
on mesothelioma among a cohort in Lancashire UK, exposed to pure 
chrysotile found none that could be attributed to the chrysotile, and 
put an upper limit on the potency one fifth of that caused by 
amphiboles. The most recent estimate based on modeling by Yarborough in 
2006 which I do not necessarily support, is that the difference in 
potency between crocidolite asbestos and chrysotile asbestos for 
mesothelioma is 500 to 1. Yarborough concluded that the ``risk of 
chrysotile for mesothelioma in most regulatory context reflects public 
policies, not the application of the scientific method as applied to 
epidemiology studies.'' Yarborough clearly would not support the claim 
in the Ban Asbestos bill that the current asbestos permissible exposure 
limit does not protect workers. Crocidolite asbestos and high exposure 
to amosite asbestos are probably the major etiological agents in this 
disease.
    I am concerned about the definitions of asbestos used in the Ban 
Asbestos bill. They are not specific enough and could be interpreted to 
include other ``non-asbestiform'' materials mentioned above. For 
example acicular is not a characteristic unique to asbestiform 
materials. Non-asbestos amphibole fibers can be described as acicular 
and are not regulated as asbestos by the U.S. Occupational Safety and 
Health Administration (OSHA). Three minerals are included in the ban 
which have never been regulated as asbestos--richterite, winchite and 
erionite. Fibrous erionite, which has been found in natural 
outcroppings in Turkey and used by the local villagers for a variety of 
purposes which involved high exposure has designated by the 
International Agency for Research on Cancer as a human carcinogen 
(Group 1) but there has never been an erionite related mesothelioma 
reported in the United States. The two other ``durable fibers'' 
mentioned are richterite and winchite which have been described in the 
vermiculite deposit at Libby, Montana. Neither of these two fiber-types 
has ever been regulated as asbestos by OSHA. The predominant fiber in 
Libby is tremolite asbestos. I and others recommend that 
``asbestiform'' be added to the description of both these minerals to 
increase the precision and that the word acicular be deleted as a 
characteristic of asbestos. Only then could the definitions in Ban 
Asbestos bill be adequate for regulatory purposes.
    Consumption of these two amphibole asbestos fiber-types, amosite 
and crocidolite, started to decline in the 1960s and the U.S. incidence 
of mesothelioma has been declining since the 1990s (Weill et al. 2004). 
This updates earlier reports including one by Price and myself (Price 
and Wilson 2001). This decline is consistent with the idea that the 
mesotheliomas are caused by past (40 years and more) exposure to these 
dangerous amphibole asbestos minerals. It is also consistent with the 
idea, also suggested by epidemiology, that chrysotile asbestos is not 
known to cause mesothelioma.
    U.S. consumption of asbestos has fallen to 2,000 tons of chrysotile 
asbestos in 2006 which is about \1/4\ percent of the consumption in the 
mid-1970s. Exposures are much better controlled. Ninety percent of the 
chrysotile asbestos is used in asphalt roofing products which are not 
regulated by the U.S. Occupational Safety and Health Administration as 
an asbestos-containing product because there is no evidence of asbestos 
release from this matrix.
    Less than 17 percent of the countries around the world have chosen 
to ban asbestos (most after the EPA ban was vacated in 1991) but 
worldwide consumption has remained in excess of 2,000,000 tons per 
annum. Most of the asbestos bans were not total but were to ban certain 
uses of asbestos while other critical uses such as gaskets to contain 
corrosive gases in rocket engines and diaphragms for production of 
chlorine, are allowed. The U.S. Court of Appeal review is unique in 
that the openness of the U.S. Judicial process allowed for an impartial 
review of a government led asbestos ban. To our knowledge the issues 
raised by the 5th Circuit have never been addressed in any country 
where asbestos has been banned.
    Asbestos is not a manufactured material although mining and 
manufacturing processes are used to make it useful. A ban on these 
processes will not address the risks caused by asbestos outcropping in 
many areas of the country. These natural risks are orders of magnitude 
greater than the residual risks of processed asbestos. For example the 
asbestos exposures in Libby, Montana are to dangerous amphibole 
asbestos. There has been no risk and toxicity assessment for these to 
determine the safe human exposure, although it is reported that the EPA 
is making one. The remediation measures in Libby taken to date are not 
based on a health standard.
    The Ban Asbestos bill calls for banning minerals or products which 
contain asbestos ``in any concentration.'' This search for zero is an 
old fashioned and obsolete procedure. It may be appropriate when one 
has no knowledge, as in primitive societies, or our society in 1975. 
Modern analytical methods can identify very low concentrations of 
mineral fiber present in ore deposits, or even in the general urban 
environment, which may or may not be asbestos. Modern analytical 
methods and modeling are capable of reliable predictions--particularly 
of upper limits to risk. Nor should we insist on zero risk--which is 
theoretically not achievable and the search for which is usually 
counterproductive. Now that the use has been much reduced, and 
exposures curtailed even more, we can demonstrate that there is a 
``negligible risk,'' a procedure now used in other hazardous 
situations. The Ban Asbestos bill as written may cause the presence of 
asbestos at low concentrations to be claimed where it is not present 
(Langer et al. 1991).
    The U.S. asbestos policy proposed in this draft bill, is not based 
on a modern understanding of the cancer risk from various asbestos 
fiber-types. Another consequence of this is that after the expenditure 
of $100 million in Libby, Montana the evidence of a benefit remains 
elusive as stated by the EPA Inspector General in his December, 2006 
report.
    Now that the commercial amphibole asbestos have been removed from 
commerce by economic forces and the asbestos consumption in the United 
States has been reduced 250 times and is consumption only of chrysotile 
asbestos, and the exposure levels in the workplace reduced by many 
hundred fold, it can be demonstrated that there is a ``negligible 
risk'' in the sense now being used for many other hazardous situations. 
There is therefore no justification for banning the controlled use of 
chrysotile asbestos. The use of asbestos in gaskets, O rings and the 
like pose negligible risk to anyone and to curtail them without reason 
is counterproductive to the economy and well being of the United States 
as a whole.
    Of course, as well as reducing the exposures, which we have done, 
society must treat the victims of the past high exposures and learn 
what one can from their suffering. In this testimony I do not address 
any details of this necessity.

                               REFERENCES

Califano J: Draft Summary: Estimate of the fraction of Cancer Incidence 
    in the United States attributable to Occupational Factors. With 8 
    ``contributors'' but, interestingly, no authors. Presented to the 
    AFL/CIO September 11th 1978.
Crump, K.S., Hoel, D.G., Langley, C.H., and Peto, R. (1976) 
    ``Fundamental Carcinogenic Processes and their Implications for Low 
    Dose Risk Assessment'' Cancer Research 36:2973.
Efron E: The Apocalyptics, Simon and Schuster, New York, 1984.
Hodgson JT, and Darnton A: The quantitative risk of mesothelioma and 
    lung cancer in relationship to asbestos exposure. Annals of Occup 
    Hyg; 44: 565-601, 2000.
Langer AM, Nolan RP, Addison J: Distinguishing between amphibole 
    asbestos fibers and elongate cleavage fragments of their non-
    asbestos analogues. In: NATO Advanced Research Workshop on 
    Mechanisms in Fibre Carcinogenesis. R.C. Brown, J. Hoskins, N. 
    Johnson, (eds), pp. 253-267, 1991.
Nolan RP, Langer AM, Ross M, Wicks FJ, and Martin RF (eds): Health 
    Effects of Chrysotile-Asbestos: Contribution of Science to Risk 
    Management Decisions. Canadian Mineralogist Special Publication 5, 
    1-304, 2001.
Office of the Inspector General: EPA Need to Plan and Complete a 
    Toxicity Assessment for the Libby Asbestos Cleanup, Report N<SUP>0</SUP> 
    2007-P-00002, December 5, 2006.
B. Price and R. Wilson, ``Trends in Mesothelioma Incidence and Asbestos 
    Exposure Evaluation,'' Canadian Mineralogist Special publication 5 
    ``The Health Effects of Chrysotile Asbestos'' Eds. Nolan, Langer, 
    Ross, Wicks and Martin, pp. 53-61 (2001).
Weill H, Hughes JM, and Churg AM: Changing Trends in US Mesothelioma 
    Incidence. Occupational Environmental Medicine 61: 438-441, 2004.
Wilson R, Nolan RP, and Domnin SG: Letter to the Editor. The Debate on 
    Banning Asbestos. Canadian Medical Association Journal 165: 1190-1, 
    2001.
Wilson R and Crouch EAC: Risk-Benefit Analysis 2nd edition, Harvard 
    University Press, 2001. See in particular page 129, Table 4-6.
Yarborough CM: Chrysotile as a Cause of Mesothelioma: An Assessment 
    Based on Epidemiology. Critical Reviews in Toxicology 36:165-187, 
    2006.

    The Chairman. Thank you very much, Dr. Wilson.
    Sue Vento.

 STATEMENT OF MRS. SUSAN VENTO, WIDOW OF REPRESENTATIVE BRUCE 
                   VENTO, ST. PAUL, MINNESOTA

    Mrs. Vento. Good morning. Consider the irony, if you will, 
of a hardworking science teacher who went on to become a 
leading national advocate for workers and for the environment, 
dying suddenly from work-related exposure to a natural 
substance found in our environment. Consider if you will, the 
possibility to reduce such life-threatening exposure and to 
increase medical knowledge and the possibility of prolonging 
lives.
    He grew up in a large, Italian and German family on St. 
Paul's East Side, the second oldest of eight children. He 
learned the importance of hard work at an early age from his 
parents and from delivering newspapers and bussing tables in a 
hotel restaurant. He worked at factories and a brewery in order 
to pay his college tuition to become a science teacher.
    Bruce would want me to note that the brewery was his 
favorite job because he had really good breaks there.
    [Laughter.]
    At 30, he was elected to the Minnesota House of 
Representatives and 6 years later, he was elected to his first 
of 12 terms in the U.S. House, where he served on the Natural 
Resources and Banking Committees. He was Bruce Vento. He was my 
husband and my best friend.
    In mid-January 2000, Bruce was on a Congressional trip. 
Early in the trip, he mentioned in one of our evening phone 
calls that he wasn't feeling well. He noted a shortness of 
breath and some back pain.
    Immediately upon returning, he went to the House Physician 
and was then taken out to Bethesda Naval Hospital. The 
following day, Bruce was told he had lung cancer. He flew home 
that evening and we spent the weekend talking about how best to 
proceed. He decided he wanted to see specialists at the Mayo 
Clinic. There, we were introduced to the term, mesothelioma. 
Arrangements were made for further testing. On the morning of 
January 29th, Bruce was told that he did not have lung cancer 
but instead he was diagnosed with pleural mesothelioma.
    The diagnosis was puzzling. Bruce racked his brain to 
determine where and how he could have been exposed to asbestos. 
He later recalled those jobs at the factories and the brewery 
during the early 1960s. His exposure to asbestos was no more 
significant than that which so many Americans have experienced 
in their work and home settings.
    On Valentine's Day, surgeons removed Bruce's right lung, 
the lining of the lung and half of his diaphragm. At the end of 
March, he began chemotherapy followed by 6 weeks of radiation 
therapy. Physicians, nurses, technicians and staff quickly came 
to understand that Bruce was not their typical patient. With a 
science background, he was quick to question them in great 
detail about procedures, medications and side effects. Even 
when in wrenching pain or when totally exhausted, he'd quiz 
them before he would let them do anything.
    Following the completion of the radiation, we were 
confident that Bruce was through the worst of it but within a 
few weeks, we were told that the cancer had spread to Bruce's 
other lung. On September 25th, we were urged to arrange for 
hospice care, which we did the next day. On the beautiful 
autumn morning of October 10th, Bruce died at our home with his 
family at his side.
    Since Bruce's death, I have had the privilege of becoming 
involved in advocacy organizations that represent mesothelioma 
patients and their families. Let me tell you about just a few 
of them that I've met.
    Chris, a quiet, hardworking young man, was exposed to 
asbestos while working as an airline mechanic. He battled 
mesothelioma bravely for 7 years with his wife, Wendy and their 
daughter, Taylor, at his side every step of the way. Chris lost 
that battle this past December 21st. He was 44.
    Klaus, a proud man fiercely determined to beat the odds 
when it comes to mesothelioma. He was exposed to asbestos while 
working a summer job with a construction crew putting up 
drywall and while doing several renovation projects. He was 
diagnosed in 2001. He and his family have explored every 
possible treatment option. He is currently battling a 
recurrence and struggling to prolong his life.
    Mary, quiet, reflective, a pretty young mom who lives with 
her husband, Sean and two darling daughters just north of the 
Twin Cities. She also lives with the reality of a ticking time 
bomb, mesothelioma, which she was diagnosed with in October 
2002. She was exposed to asbestos as a little girl while 
sitting on her dad's lap as he drank coffee at the end of his 
workday. He was a construction carpenter. He suffers from 
asbestosis and the brutal reality of knowing that he brought 
those fibers home from work on his clothing.
    Bev, a vibrant, joyful nurse who provided loving care and 
endless support for cancer patients and their families, 
including Bruce and me, during the summer of 2000. Just months 
after Bruce's death, Bev was diagnosed with mesothelioma. 
Despite extensive treatment, Bev died in November 2005. Her 
exposure to asbestos occurred in one of her first work 
settings, a Minneapolis hospital.
    Mary and Bev never worked directly with asbestos and yet it 
has forever impacted their lives and the lives of their 
families and friends. Klaus's, Chris's, Bev's, Mary's and 
Bruce's stories are just a few of the thousands of tragedies 
that are occurring throughout this country every day.
    Senator Murray, your bill will bring hope to all of us 
whose lives have been touched by this disease. It will prohibit 
the use of asbestos and will correct the mistaken belief held 
by so many that asbestos was banned decades ago. It will 
increase public awareness, which is needed to dispel the myth 
that only intense and prolonged exposure is hazardous and 
finally, it will provide desperately needed resources for 
medical research, life-prolonging early detection and treatment 
options and ultimately a cure for mesothelioma.
    Thank you, Senator Murray. Thank you so much for your years 
of tireless work on this issue. Thank you to each of you who 
are here today, Senator Brown and Senator Isakson. We 
appreciate your hearing our pleas for your support of this 
important legislation. Please know that your efforts to help 
secure passage of this bill will be deeply and forever 
appreciated by mesothelioma patients and their families 
throughout this country.
    [The prepared statement of Mrs. Vento follows:]

                   Prepared Statement of Susan Vento

    Consider the irony, if you will, of a hard working science teacher 
who went on to become a leading national advocate for workers and for 
the environment dying suddenly from work-related exposure to a natural 
substance found in the environment.
    Consider, if you will, the possibility to reduce such life-
threatening exposure and to increase medical knowledge and the 
possibility of prolonging lives.
    He grew up in a large Italian & German family on St. Paul's 
eastside, the second oldest of 8 children. He learned the importance of 
hard work at an early age from his parents and from delivering 
newspapers and bussing tables in a hotel restaurant. He worked at 
factories and a brewery in order to pay his college tuition to become a 
science teacher. At 30, he was elected to the MN House of 
Representatives, and 6 years later, he was elected to his first of 12 
terms in the U.S. House, where he served on the Natural Resources and 
Banking Committees. He was Bruce Vento; he was my best friend and my 
husband.
    There was little that ever slowed down Bruce. He was a very active 
person--traveling almost every weekend back to Minnesota's 4th 
Congressional District to meet with constituents and to do his best as 
their representative in the U.S. House.
    Regardless of where he was, he'd typically start each day by 
swimming, using the nautilus or bicycling on St. Paul's gorgeous 
trails. In mid-January 2000, Bruce was on a congressional trip. Early 
in the trip he mentioned in one of our evening phone calls that he 
wasn't feeling well--he noted a shortness of breath and back pain. 
Immediately upon returning he went to the House physician and was then 
taken out to Bethesda Naval Hospital. The following day, Bruce was told 
he had lung cancer.
    He flew home that evening, and we spent the weekend talking about 
how best to proceed. He decided he wanted to see specialists at the 
Mayo Clinic in Rochester, MN. At Mayo, we were introduced to the term 
``mesothelioma.'' Arrangements were made for further testing. On the 
morning of January 29th, Bruce was told that he did not have lung 
cancer, but instead he was diagnosed with pleural mesothelioma.
    The diagnosis was puzzling. Bruce wracked his brain to determine 
where he could have been exposed to asbestos. He later recalled those 
jobs at the factories and the brewery during the early 1960s. His 
exposure to asbestos was no more significant than that which so many 
Americans have experienced in their work and home settings.
    On Valentine's Day, surgeons removed Bruce's right lung, the lining 
of the lung, and half of his diaphragm. At the end of March he began 
chemotherapy followed by 6 weeks of radiation therapy. Physicians, 
nurses, technicians and staff quickly came to understand that Bruce was 
not their typical patient. With his science background, he was quick to 
question them in detail about procedures, medications, side effects. 
Even when in wrenching pain or when totally exhausted, he'd quiz them 
before he'd let them do anything.
    For Bruce's family and friends, but most especially for Bruce, 2000 
was a year focused on his well-being and doing everything we could to 
beat this mysterious disease. The mantra was, ``If anyone can beat 
this, it's Bruce,'' due to his tireless tenacity and passion.
    Following the completion of the radiation, we were confident that 
Bruce was through the worst of it. But within a few weeks, we were told 
that the cancer had spread to Bruce's other lung. On September 25th, we 
were urged to arrange for hospice care, which we did the next day. On 
the beautiful, autumn morning of October 10, Bruce died at our home 
with his family at his side.
    Since Bruce's death I have had the privilege of becoming involved 
in advocacy organizations that represent mesothelioma patients and 
their families and have met many of them. Let me tell you about just a 
few of them.
    Chris. A quiet, hard-working young man was exposed to asbestos 
while working as an airline mechanic. He battled mesothelioma so 
bravely for 7 years with his wife Wendy and their daughter Taylor at 
his side every step of the way. Chris lost that battle this past 
December 21. Chris was 44.
    Klaus. A proud man, fiercely determined to beat the odds when it 
comes to mesothelioma. Klaus's quiet determination has made him a role 
model to so many who have met him. He was exposed to asbestos working a 
summer job with a construction crew putting up drywall as well as 
during several renovation projects. He was diagnosed in 2001. He and 
his family have explored every possible treatment option. He is 
currently battling a reoccurrence and struggling to prolong his life.
    Mary. Quiet, reflective, a pretty young mom who lives with her 
husband and two darling daughters just north of the Twin Cities. She 
also lives with the reality of a ticking time bomb--mesothelioma, which 
she was diagnosed with in October 2002. She was exposed to asbestos as 
a little girl while sitting on her dad's lap as he drank coffee at the 
end of his work day. He was a construction carpenter. He suffers from 
asbestosis and the brutal reality of knowing that he brought those 
fibers home from work on his clothes.
    Bev. A vibrant, joyful nurse who provided such loving care and 
endless support for cancer patients and their families, including Bruce 
and me during the summer of 2000. Just months after Bruce's death, Bev 
was diagnosed with mesothelioma. Despite extensive treatment, Bev died 
in November 2005. Her exposure to asbestos occurred in one of her first 
work settings--a Minneapolis hospital.
    Mary and Bev did not work directly with asbestos, and yet, it has 
forever impacted their lives and the lives of their families and 
friends.
    Klaus's, Chris's, Bev's, Mary's, and Bruce's stories are just a few 
of the thousands of tragedies that are occurring throughout this 
country every day.
    Senator Murray's bill will bring hope to all of us whose lives have 
been touched by this disease:

    <bullet> It will prohibit the use of asbestos in products in this 
country and will correct the mistaken belief held by so many that 
asbestos was banned decades ago.
    <bullet> It will increase public awareness which is needed to 
dispel the myth that only intense and prolonged exposure is hazardous.
    <bullet> Finally, it will provide desperately needed resources for 
medical research, life prolonging early detection and treatment 
options, and ultimately a cure.

    Thank you, Senator Murray, for your years of tireless work on this 
issue. Thank you to each of the members of this subcommittee who are 
here today to hear our pleas for your support of this important 
legislation. Please know that your efforts to help secure passage of 
this bill will be deeply and forever appreciated by mesothelioma 
patients and their families throughout this country.

    The Chairman. Thank you so much, Mrs. Vento.
    Dr. Pass.

   STATEMENT OF DR. HARVEY PASS, PROFESSOR OF CARDIOTHORACIC 
       SURGERY, NEW YORK SCHOOL OF MEDICINE, NEW YORK, NY

    Dr. Pass. Chairwoman Murray, Ranking Member Isakson, 
Senator Brown, distinguished members of the U.S. Senate 
Employment and Workplace Safety Committee, my name is Harvey 
Pass. I am the Director of the Division of Thoracic Surgery at 
the New York University School of Medicine in New York. When I 
was the Head of Thoracic Oncology at the National Cancer 
Institute in Bethesda, I was the first to make mesothelioma a 
research priority and I have continued my mesothelioma clinical 
and bench work investigations at the Karmonos Cancer Institute 
in Detroit and now in New York. I'm also a board member and 
Head of the Scientific Advisory Board for the Mesothelioma 
Applied Research Foundation and I'm proud that my research in 
mesothelioma has been funded by the National Cancer Institute, 
the American Cancer Society and the Veteran's Administration.
    Mesothelioma is a diffuse tumor of the lining of the lungs, 
the abdomen and the heart, which kills close to 3,000 victims 
in the United States. It relentlessly invades the tissues of 
the chest and the abdomen, causing excruciating pain in most 
afflicted patients at the end of their life. The average 
survival for individuals with mesothelioma is 1 year. The cause 
of mesothelioma is asbestos. Mesothelioma takes 30 years to 
exhibit symptoms and roughly between 10 and 50 years from the 
time of the initial exposure. The mesothelioma victims of today 
built our country as pipe fitters, boilermakers, insulators, 
electricians and ship builders, among others and a third of 
today's mesothelioma victims served as United States people in 
the Navy, on ships or in shipyards. Families have been 
destroyed by second-hand fiber exposure when these heroes 
brought asbestos into the household. It is estimated that there 
is asbestos in 30 million homes in the United States as well as 
in numerous products. Exposure to asbestos is unpredictably 
dangerous. A minimum or a one-time exposure, as you've heard or 
a very low exposure over time may be enough to trigger the 
catastrophe leading to mesothelioma.
    It is essential that we ban asbestos now and find 
alternatives to asbestos use. Armed with mountains of evidence 
about the profound risk of asbestos, it is our responsibility 
to act by stopping the flow of asbestos into our environment 
and protect future generations. By finally banning asbestos, 
Senator Murray's bill will save lives, which without a doubt, 
would otherwise be lost to this disease.
    We also have to think about all those who have already been 
exposed and who will continue to be exposed to asbestos already 
in our environment. It is estimated that 23 million Americans 
have been occupationally exposed over the past 50 years and are 
now at risk. 9/11 and Katrina only emphasize this even more. 
Asbestos is virtually omnipresent in all buildings built in the 
late seventies and for those who could develop mesothelioma as 
a result of these exposures, the only hope is effective 
treatment.
    Mesothelioma has been an orphan in medical research. Until 
3 years ago, there wasn't even a standard therapy approved by 
the FDA that did anything better than nothing at all. Even this 
approved treatment, which is regarded as the new standard of 
care, only prolongs life by 3 months. Hence, hand-in-hand with 
prevention, must come funding for early detection and improved 
treatment of the disease.
    This is why research funding, a key component of the Murray 
bill, is also critical. Mesothelioma investigators are learning 
which genes and proteins can give a signature for the disease 
and which of these also control the pathways for mesothelioma. 
Since 1999, research and advocacy for mesothelioma has been 
championed by the Mesothelioma Applied Research Foundation and 
4 million dollars in seed money has been given to the brightest 
investigators in the world.
    But we now need to have the Federal government help us in 
order to make sure that these promising findings will hold true 
in conducting expensive, challenging but necessary validation 
trials in the United States.
    Senator Murray's bill will do this by establishing 10 
centers of excellence across the United States for mesothelioma 
and help to accrue patients in sufficient numbers to run 
clinical trials. Senator Murray's bill would also mandate 
collaboration, not only among these centers but with the 
Intramural Program of the NCI and with the Department of 
Veteran's Affairs. The bill also will establish, through the 
National Institute of Occupational Health and Safety, efforts 
to establish this mesothelioma registry so we'll even know how 
many mesotheliomas there actually are out there so we can know 
the extent of the epidemic.
    Three years ago, I was invited to the Senate to advocate 
for mesothelioma victims by endorsing Senator Murray's bill. 
Since that time, I've treated and operated on too many new 
patients, new patients who were diagnosed, treated, 
subsequently recurred and have already died, leaving behind 
families that only wanted to have longer time with their loved 
ones. Despite these tragedies, we are no closer to banning the 
cause of this cancer than we were in 2004.
    The time has come for a war on mesothelioma, first by 
eliminating the use of asbestos and then by arming the soldiers 
with sufficient resources to find the disease in its early 
stages so that newer therapies can prolong their lives.
    We owe this to our heroes.
    [The prepared statement of Dr. Pass follows:]

               Prepared Statement of Harvey I. Pass, M.D.

    Chairwoman Murray, Ranking Member Isakson, and distinguished 
members of the U.S. Senate Employment and Workplace Safety 
Subcommittee, my name is Harvey Pass and I am the Director of the 
Division of Thoracic Surgery at the NYU School of Medicine in New York. 
When I was Head of Thoracic Oncology at the National Cancer Institute 
(NCI) in Bethesda, I was the first to make mesothelioma a research 
priority, and I have continued my mesothelioma clinical and bench work 
investigations at the Karmanos Cancer Institute in Detroit and now in 
New York. I am also a board member and head of the Scientific Advisors 
for the Mesothelioma Applied Research Foundation. I am proud that my 
research in mesothelioma has been funded by the NCI, American Cancer 
Society and the Veterans Administration.
    Mesothelioma is a diffuse tumor of the linings of the lungs, 
abdomen or heart which kills close to 3,000 victims in the United 
States. It relentlessly invades the tissues of the chest and abdomen, 
causing excruciating pain in most afflicted patients at the end of 
their life. The average survival for individuals with mesothelioma is 1 
year.
    The cause of mesothelioma is exposure to asbestos.
    Mesothelioma takes 30 years to exhibit symptoms, or roughly between 
10 and 50 years from the time of the asbestos exposure. The 
mesothelioma victims of today built our country as pipe fitters, 
insulators, boilermakers, electricians and shipbuilders, among others 
and a third of today's mesothelioma victims served the United States on 
Navy ships or in shipyards. Families have been destroyed by second hand 
fiber exposure when these heroes brought asbestos from their livelihood 
into their home. It is estimated that asbestos is in 30 million U.S. 
homes as well as in thousands of products. Exposure to asbestos is 
unpredictably dangerous: a minimum or one-time exposure or a very low 
exposure over time may be enough to trigger the catastrophic events 
leading to mesothelioma.
    It is essential that we ban asbestos now and find alternatives to 
asbestos use. Armed with mountains of evidence about the profound risk 
of asbestos, it is our responsibility to act by stopping the flow of 
asbestos into our environment and protect future generations. By 
finally banning asbestos, Senator Murray's bill will save lives which 
without doubt, would otherwise be lost to this disease.
    We also have to think about all who have already been exposed, and 
who will continue to be exposed to the asbestos already in our 
environment. It is estimated that 23 million Americans have been 
occupationally exposed over the past 50 years and are now at risk. 9/11 
and Katrina have potentially exposed countless more. Asbestos is 
virtually omnipresent in all the buildings built before the late 70s. 
For those who could develop mesothelioma as a result of these 
exposures, the only hope is effective treatment.
    Mesothelioma has been an orphan in medical research. Until 3 years 
ago, there was not even one treatment for mesothelioma approved by the 
FDA as better than doing nothing at all. Even this approved treatment, 
which is regarded as the new standard of care, is associated with only 
a 3 month survival advantage in the majority of cases which are 
detected in an advanced state. Hence, hand in hand with prevention must 
come funding for early detection and improved treatment of the disease.
    This is why the research funding component of Senator Murray's bill 
is also so critical. Mesothelioma investigators are learning which 
genes and proteins can give a signature for the disease, and which of 
these also control the pathways that will turn a normal cell into a 
mesothelioma. Since 1999, research and advocacy for mesothelioma has 
been championed by the Mesothelioma Applied Research Foundation, which 
has awarded over $4 million in seed money grants to the brightest 
investigators around the world. But we now need the Federal Government 
to partner with us in order to make sure that the promising findings 
will hold true by conducting expensive, challenging, but necessary 
trials across the United States in order to get these promising 
approaches from the lab to the patients' bedsides.
    Senator Murray's bill will do this by establishing 10 centers of 
excellence across the United States for mesothelioma, and help to 
accrue patients in sufficient numbers to run meaningful clinical 
trials. Senator Murray's bill would mandate collaboration not only 
among the 10 centers, but with the NCI's own intramural programs, and 
the Department of Veterans Affairs. The bill will also support the 
National Institute for Occupational Safety and Health (NIOSH) efforts 
to establish a mesothelioma registry and tissue bank so that we can 
come to grips with the magnitude of the epidemic and provide valuable 
resources to be shared among investigators.
    Three years ago, I was invited to the Senate to advocate for 
mesothelioma victims by endorsing Senator Murray's bill. Since that 
time, I have treated too many new patients who were diagnosed, treated 
and subsequently recurred, and died, leaving behind families that only 
wanted to enjoy more time with their loved ones. Despite these 
tragedies, we are no closer to banning the cause of this cancer than we 
were in 2004. The time has come for a war on mesothelioma, first by 
eliminating the use of asbestos, and then by arming the soldiers with 
sufficient resources to find the disease in its early stages so that 
newer therapies can prolong their lives. We owe this to our heroes.

    The Chairman. Thank you, Dr. Pass.
    John Thayer.

STATEMENT OF JOHN THAYER, PIPEFITTER AND SUPERVISOR, OFFICE OF 
          THE ARCHITECT OF THE CAPITOL, WASHINGTON, DC

    Mr. Thayer. Good morning. Before I start my testimony, I'd 
like to be able to introduce the guys that I'm going to be 
talking about, which are these 10 guys right here, just so 
everybody can be aware of who they are.
    My name is John Thayer. I'm a Supervisor of the Capitol 
Power Plant Tunnel Crew that I just introduced. We work for the 
Architect of the Capitol. There are 10 of us in the tunnel 
crew. We maintain the five miles of underground utility tunnels 
that supply heat and cooling to all of Congress and some 20 
other Federal buildings on Capitol Hill. Some of us have worked 
in the tunnels for well over 20 years. If you are comfortable 
sitting in this room, it's because the team of pipefitters, 
welders and electricians and insulators--they're all doing 
their job.
    The tunnels are a tough place to work. Temperatures get up 
to 160 degrees. Big slabs of concrete fall from the ceilings 
and the cramped passages are thick with welding fumes, 
pulverized asbestos and concrete dust. The Capitol Police 
refuse to patrol the tunnels out of concern for their officers 
and for the safety of their dogs. The Fire Department--the DC 
Fire Department--will not attempt an emergency rescue in the 
tunnels but will only come as a body recovery because there are 
no communication systems and access is extremely limited.
    On behalf of the entire crew, I want to express our support 
for your initiative, Senator Murray, in holding this hearing on 
banning asbestos. We know from personal experience the lethal 
danger that asbestos presents because we have worked in and 
breathed asbestos for decades and unfortunately are now 
beginning to suffer the health consequences.
    And if workers at the heart of the U.S. Government are 
being put at risk, then imagine what it must be like for the 
millions of unseen workers in private industry. Just over a 
year ago, we found out the AOC had been misleading us for years 
about the extent of our workplace exposure to asbestos. The 
Architect knew but didn't tell us that the concentration of 
air-borne asbestos in the tunnels was extremely toxic, 30 to 40 
times over the legal limit.
    We discovered this when the Office of Compliance filed an 
unprecedented complaint against the Architect for not fixing 
the safety problems that the Office of Compliance had 
identified 7 years earlier.
    So we asked to see the medical records from our annual 
employment physicals conducted by the Office of Attending 
Physician. My own records stated that I had severe scarring of 
my lower lung fields and that my lung age interpretation was 
118 years old. I was 33 years old at the time. No one ever told 
me this. On the contrary, every year the doctor gave me a piece 
of paper saying that I was cleared to work in the tunnels. We 
all got those pieces of paper.
    We needed to find out the truth. Three of us drove all the 
way to Detroit in July of 2006 to see Dr. Michael Harbut, a 
nationally renowned expert at the Karmonos Cancer Institute, 
who has diagnosed and treated thousands of patients with 
asbestos-related diseases.
    We learned that we all had signs of asbestos exposure. Let 
me tell you, that was a long, quiet drive home. Three 
relatively young, otherwise healthy guys who don't smoke, who 
live pretty simple lives, learning that we had caught something 
at work that might kill us or probably going to and that we 
could die a lot earlier than normal.
    Even worse, the Architect had let us carry this deadly 
asbestos home with our clothes every day for years, without 
telling us this posed a risk to our wives and children.
    Banning asbestos is important, not only for the safety of 
the workers who handle it but also for their families. We all 
have now been examined by Dr. Harbut, traveling at our own 
expense, to get the standard of care recommended by the 
American Thoracic Society under Dr. Harbut's leadership, the 
care denied to us by the AOC.
    Preliminary results showed that we all have symptoms of 
asbestos exposure, not to mention the elevated risks of lung 
cancer, colon cancer and mesothelioma. We are essentially 
ticking time bombs.
    Last spring, we sat in hearings held by Senator Allard and 
heard the Architect lie to Congress about the hazards we face 
on the job. We were not allowed or invited to speak. AOC 
management claimed that they had just learned about the 
asbestos problem when in fact, they had known about it for 
years. They blamed us for our own medical conditions by 
claiming that we would not follow safety rules, when in fact, 
they had never provided us or mandated respirators or 
decontamination until April of 2006.
    The AOC continues to misrepresent working conditions in the 
tunnels. It has tried to sweep the problem under the rug by 
hiring contractors to turn power washers on the asbestos in 
some of the tunnels. Contractors that regularly violate OSHA 
procedures have been reported to the Office of Compliance. 
Contractors that endanger the public by allowing asbestos to be 
released through the air and through the grates in the 
sidewalks. As a matter of fact, asbestos has been blowing 
through these grates for years but it has gotten worse.
    I have tried in vain to stop them from running the exhaust 
fans. Recently, they restarted the fans that I said to secure, 
along the street along the Hart Building.
    It's been a year since we wrote to several Members of 
Congress pleading for help but neither the Architect or 
Congress has effectively addressed the problem. In fact, just 2 
days ago, personal exposure monitors for two of my men showed 
six times the allowable exposure.
    We have also been retaliated against for blowing the 
whistle on our unsafe working conditions and have filed a 
complaint with the Office of Compliance. Unfortunately, we are 
now preparing to take that to Federal Court. We should not have 
to go to court to be compensated for our injuries and defend 
our right to speak out for a safe workplace.
    We call on you, the Members of Congress for whom we work, 
to do what you can do to see that we are all compensated for 
irreparable harm that we have suffered and we especially call 
on you to ban asbestos from all workplaces so that no one has 
to risk their own welfare and that of their families just to 
earn a living.
    The Chairman. Thank you very much, Mr. Thayer. Thank you to 
all of your workers for being here today as well.
    I'm just going to ask one or two questions and turn it to 
Senator Isakson. I know that Senator Brown needs to get to the 
floor to preside so I want to get to you quickly here.
    But Mr. Thayer, I just wanted to ask you, to your 
knowledge, has OSHA inspected the tunnels that you work in?
    Mr. Thayer. No, they have not. We actually asked for a 
NIOSH inspection but they are going through the AOC because of 
what they call security reasons. They'll probably have to 
subpoena them to get down there.
    The Chairman. OK. I understand when somebody works around 
asbestos, there are some pretty clear rules that they are 
supposed to follow and in fact, I think people are supposed to 
get certified in asbestos abatement. Do the contractors that 
worked on removing asbestos in the Capitol tunnels use asbestos 
abatement procedures, like walling the area off with plastic 
sheeting or wearing personal protective gear?
    Mr. Thayer. They do but they don't--they're not following 
the standards and that's what some of these pictures are. 
That's an actual removal since we complained. If you notice, 
that grate that is right there?
    The Chairman. Right.
    Mr. Thayer. That grate is inside the containment and right 
above that grate is the stoplight--they are actually physically 
removing asbestos inside that tunnel at the same time that 
people are walking by over the tunnel. They didn't follow 
proper containment. Their containments are all broken down.
    The Chairman. When was that picture taken?
    Mr. Thayer. These were taken probably in August.
    The Chairman. Of this year?
    Mr. Thayer. 2006.
    The Chairman. OK. Thank you, Mr. Thayer. I'm going to turn 
to Senator Isakson and then Senator Brown.
    Senator Isakson. I'd be happy for Sherrod to--do you want 
to go ahead, Sherrod? I'd be happy to yield to you and then 
I'll take----
    Senator Brown. Thank you very much, Senator Isakson and 
Madame Chair, thank you very much and thank you for this panel. 
I appreciate especially Mr. Thayer being here and your service 
and your courage and the men and women that you work--that you 
supervise and you work with. Too often around here, we don't 
pay attention to people who make these buildings run and people 
who serve the meals and people who clean the rooms and thank 
you very much for what you do to make this government work 
better and we owe you way more than an apology for the 
treatment of workers around this institution.
    Mrs. Vento, thank you. I served with Bruce for 8 years and 
there is no better advocate, stronger voice for workers in this 
country than Bruce Vento, well beyond the confines of St. Paul 
and your part of Minnesota for what he did and the courage and 
the outspokenness and the advocacy that he played.
    Where I live in Lorraine, Ohio, a county just west of 
Cleveland, is the home of ship builders and the home of 
steelworkers and the home of defense workers, especially during 
World War II and the number of asbestos cases and related--the 
lung diseases and others are way too high and we've done way 
too little and I so much applaud, as a cosponsor, so much 
applaud the legislation that Senator Murray has worked on and 
like you, Dr. Castleman--I'm sorry I missed the first part of 
your testimony but I read it and like you, I assume that 
asbestos manufacturing use had been banned in this country and 
it should be.
    I have to go and preside on the floor but I appreciate so 
much what all of you have done, being here and especially the 
legislation, so thank you, Madame Chair.
    The Chairman. Senator Isakson.
    Senator Isakson. Thank you very much. Dr. Pass, can you--is 
there a difference between chrysotile and amphibole asbestos in 
terms of the exposure and mesothelioma.
    Dr. Pass. Well, Senator, that's a great question and I 
would--and there are certain things which I'm an expert at and 
I wouldn't presume to give testimony on something that would 
not be absolutely 100 percent correct.
    Senator Isakson. I respect that.
    Dr. Pass. So I will not answer that question but defer that 
to experts that I could refer this panel to so that there will 
be no confusion about it.
    Senator Isakson. Dr. Castleman, I'll ask you the same 
question. I know you're not a medical doctor but you have a 
doctorate in public health, I think.
    Mr. Castleman. Yes. The U.S. regulatory agencies have been 
prevailed upon time and again to set a different standard for 
chrysotile asbestos than for the amphibole varieties and they 
have always declined to do that. This has been done with EPA, 
with OSHA. In experimental animal studies, chrysotile asbestos 
is just as deadly as the amphibole varieties and to the extent 
that there may be a less, somewhat lesser hazard with 
chrysotile on the issue of mesothelioma, any information on 
that isn't perfectly clear. The chrysotile is still accepted by 
everyone as a cause of lung cancer and asbestosis and the bans 
in the European countries have all--most of them have been put 
into place after the amphibole varieties of asbestos were no 
longer mined and sold.
    Senator Isakson. Well, I'm glad you mentioned that. That's 
kind of the next question I was going to ask. You mentioned the 
exception on the chlorine in some of the European Union 
countries but is there any differentiation in those 40 
countries that ban asbestos, between the chrysotile and the 
amphibole?
    Mr. Castleman. No. The ban is for all types of asbestos and 
the only exception is the chlorine plants using the diaphragm 
self-process.
    Senator Isakson. One other question from your testimony. I 
just--again, I've been reading and I'm kind of like a sponge. I 
haven't absorbed everything I need to yet. You mentioned the 
Durham's Water Putty and the talc component that contained the 
asbestos, is that correct?
    Mr. Castleman. Right.
    Senator Isakson. I keep reading the term--the difference 
between processed asbestos and naturally occurring so I'm just 
asking this to learn. Does the asbestos naturally occur in the 
talc and that's how it got in there or was the asbestos a 
prescriptive part of the formula for the putty?
    Mr. Castleman. It naturally occurs in the talc. That is 
what I was trying to convey by talking about contaminant 
asbestos. It occurs--asbestos is a mineral but it also occurs 
as a contaminant of other minerals. So we find it in some talc 
deposits.
    Senator Isakson. The reason I ask that and I have deep 
regard for Chairman Murray and what she is trying to 
accomplish. I haven't read the case, but I would imagine when 
the courts threw out the EPA's first ban of asbestos, it had 
something to do with differentiating between chrysotile and the 
other or some other differentiations. When something naturally 
occurs in a mineral that is a part of a product, how do you 
ban--how do you keep it out of there?
    Mr. Castleman. Well, in the case of the talc that contains 
asbestos from upstate New York, this was recognized as a hazard 
by Dr. Selikoff, who analyzed a number of these drywall-
patching compounds and published his results in 1975. One of 
the products that he analyzed and found asbestos in was a 
product that used the talc from upstate New York and that 
company stopped--the company is called Bond-X and they 
reformulated their product to eliminate that type of talc. So 
they're, as far as I know, still selling the product or at 
least they went on selling the product after that and they were 
simply able to reformulate it without using the asbestos 
contaminated talc.
    Senator Isakson. Thank you very much. Dr. Harvey--and my 
time is about up but one quick question. You made a statement 
with regard to that, you objected to the term, any 
concentration, in the legislation? Dr. Wilson, I'm sorry.
    Mr. Wilson. Yes, I made the statement.
    Senator Isakson. I apologize. Dr. Wilson, I'll restate the 
question. You made a comment with regard to any concentration 
in the legislation. Would you elaborate on that for one second?
    Mr. Wilson. Well, when I calculate risks of air pollution, 
of cancers, of asbestos, of anything else, I believe firmly on 
the basis of good understanding, particularly that of Sir 
Richard Peto, that there is no threshold for almost anything 
for causing trouble. And the EPA has recognized that for 
cancers but it has not recognized that for noncancers like air 
pollution, which they should.
    Now then you cannot ban everything in any concentration. So 
you've got to decide what concentration you're going to have. 
To say zero or in any concentration is the first step in 
understanding but we've been trying to understand asbestos now 
for 30 years. We can go beyond that. We can do better. We can 
say--we can allow it in a concentration of less than 0.015 per 
milliliter for example. But just to say zero is displaying a 
lack of understanding and knowledge.
    Senator Isakson. Thank you and Madame Chairman, I apologize 
that I asked you to provide for Senator Specter and he hasn't 
showed so I will acknowledge and make sure everybody knows that 
you were great in doing that. I'm sorry he didn't come.
    The Chairman. All right and if he arrives, we will 
certainly allow him to speak. Well, Dr. Pass, let me just 
follow up. Dr. Wilson said that you have to have some kind of 
threshold. Give us the medical background of how much exposure 
can cause asbestosis or mesothelioma.
    Dr. Pass. Senator Murray, I don't think we have an answer 
to that question and I'll preface it because there are other 
aspects to individuals that have to do with susceptibility. You 
could have an individual that is exposed to an extraordinarily 
low amount of asbestos and still develop mesothelioma and that 
is the problem with why you need to just get rid of it because 
it's so unpredictable. There are studies now that are being 
done, not only in the United States but in foreign countries, 
trying to figure out the genetic basis of susceptibility to 
asbestos-related injury. So as long as we know that it may not 
be a certain threshold but there may be certain individuals who 
are more exposed. Our problem is to find those individuals who 
are exposed and to protect them. But the first way to protect 
everybody is to get rid of the inciting stimulus and that's why 
I support your bill.
    The Chairman. OK. Well, I appreciate that. So you're 
basically telling us, we don't know how much--how many fibers 
can cause some of these diseases, so----
    Dr. Pass. In a human, correct.
    The Chairman. So by setting a threshold, we may actually be 
allowing people to be lethaly exposed because we don't know 
what a safe level is. That is also why we need more research as 
well as banning asbestos.
    And let me ask you, too, do you know much about the 
Mesothelioma Registry?
    Dr. Pass. I do. I know that they are doing wonderful work 
through Pittsburgh to set this up. They are struggling because 
they are very concerned about whether this is going to be an 
effort that is going to be funded so that they can continue a 
second year. They have reached out to mesothelioma centers that 
can provide them with information, to provide specimens as well 
as information on patients that we--anonymously--that we have 
seen so we can find out the magnitude of the problem. But this 
is a difficult situation for this group. They don't know when 
the funding is going to run out. Their mandate is to set up 
this network among us, as mesothelioma and asbestos experts, to 
help them to figure out how bad this problem is because again, 
we say that it is between 1,400 and 4,000. We really haven't 
looked at that and that's why we have to support them.
    The Chairman. OK. And the registry is important because it 
allows us to know who has been exposed and helps us track where 
they've been exposed?
    Dr. Pass. That is correct as well as to provide very, very 
important information and specimens across centers that are not 
available except at certain centers so that everybody is 
sharing in a network so that we can use this material for 
discovery and for treatment.
    The Chairman. Thank you. Dr. Castleman, you emphasized the 
need to immediately address the importation and sale of 
asbestos brakes and construction panels in the United States, 
in your testimony. Can you tell me what the Federal Government 
actually needs to do to make that change happen?
    Mr. Castleman. Well, you don't need to pass a new law to 
accomplish some of these things. As you suggested, OSHA could 
go to parts stores and pull some parts off of the shelves and 
analyze them, the imported brake parts that are coming from 
countries like China and Columbia and Mexico and Brazil.
    The Chairman. I think this one here is from Australia.
    Mr. Castleman. And the ones that don't say they have 
asbestos, I wonder if some of them do. OSHA has never cited any 
company for failing to put warning labels on its products, even 
though they've had an asbestos standard requiring warning 
labels since 1972 and we now know that, for example, Ford and 
Chrysler didn't put warning labels on their brake parts until 
the 1980s but they've never been subject to surveillance and 
citation for this and this is something OSHA needs to do, 
otherwise we're basically inviting people to sell us products 
without putting the warning labels, bring them in from China 
through some fly-by-night distributor.
    The Chairman. Right.
    Mr. Castleman. Another thing that we can do--the EPA has 
the authority to summon from the automobile companies the 
information on whether they are still selling asbestos 
containing brakes as replacement parts, whether they are still 
selling new models of cars with asbestos containing friction 
materials or gaskets. The U.S. Customs Service has the means to 
provide us the names of the foreign exporters and the U.S. 
importers of these products so that these companies can be 
directly questioned about whether these materials that they are 
bringing in are made with asbestos. And finally, the 
International Trade Commission can change its import 
classification so that we can have a separate classification 
for imported brakes that contain asbestos and for imported 
brakes that don't. So we can see from which countries we might 
be importing a public health hazard. At this time, the import 
commodity classifications are old classifications from the days 
that these were all asbestos products.
    The Chairman. Right. In your testimony, you talked about 
the EPA revising a guidance document for mechanics and 
particularly for the mechanics who work on brakes that have 
asbestos. Even if we ban asbestos immediately, we're going to 
have a lot of cars out there, for a long time that, have brakes 
with asbestos in them. This is a copy of the so-called Gold 
Book. We're waiting for EPA to issue their new guidlines for 
the public, but it's not out yet. I'd like you to comment on 
when they do get it out, how long will it take for us to deal 
with this problem? How do we deal with the fact that for a long 
time to come, we're going to have brakes out there that have 
asbestos in them?
    Mr. Castleman. Well, that's right. When people are 
servicing cars, they don't know what the brakes were that were 
in the cars and there could be asbestos in the brake drum dust 
that they have to remove when they do the servicing so the 
mechanics need to be warned about these things. The original 
Gold Book is now being revised and has been sent up to the 
Office of Management and Budget for its final review. The 
people at the EPA are hoping to have that out in the next month 
or so. I don't know what changes the Office of Management and 
Budget is asking the EPA to make in the Gold Book.
    The Chairman. Is 1986 the last time the EPA issued any 
warning to mechanics, and guidance for preventing asbestos 
exposure?
    Mr. Castleman. Right. Twenty years, more than 20 years ago.
    The Chairman. And nothing has been released since, warning 
mechanics?
    Mr. Castleman. That's correct. But when this was originally 
put out, it was done in a really big way. They sent copies of 
this to all the vocational and technical schools in the country 
and they really did a lot to get the word out to people about 
the dangers of asbestos and doing brake repair and clutch 
repair. So this is something--if the document that comes back 
from the EPA this time around is good, then a similar type of 
outreach would be warranted.
    The Chairman. This needs to be done right.
    Senator Isakson.
    Senator Isakson. Real quickly just two things. And this is 
really to anybody that knows the answer to this question. 
Today--now, 2007, the asbestos that is in the chlorine filters, 
that is in the brake linings, which are the two things that 
have been mentioned. Do we know whether it is chrysotile or 
amphibole? Or is it all just chrysotile now?
    Mr. Castleman. The only type that is used anywhere now is 
chrysotile.
    Senator Isakson. That's the only type?
    Mr. Castleman. There is no commercial amphibole mining and 
sales anywhere since the 1990s.
    Senator Isakson. I just want to be sure that was on the 
record.
    Mr. Castleman. The contaminants tend to be amphiboles, the 
contaminants of vermiculite and talc are amphiboles.
    Senator Isakson. Which gives me the second technical 
question. I'm just trying to make sure I'm right for Dr. 
Wilson. You stated in this range of potency that the ratio was 
5--I thought I heard you say 500 to 1 in terms of the range of 
potency between the two. Is that what you said?
    Mr. Wilson. That is the question under dispute. One 
particular office says its 500 to 1. Now, the real data comes 
from a study from Lancashire, which Julie and Peter talked 
about. He thinks--that was about 1975--and on that study, the 
number of mesotheliomas from pure chrysotile was at least five 
times less. He didn't see any than it would be if it were like 
amphibole. This has not been brought into any of the EPA 
studies and in all my work, I automatically do two 
calculations. One by EPA and then divide by 5 to say it's at 
least less than this, as Julie and Peter says. And there is no 
real evidence that chrysotile causes mesothelioma to any 
appreciable extent. It's almost always been--it's always been 
amphiboles involved in it as well. So that's--and that's an 
interesting point. I just want to correct one thing. I want to 
say, I do not believe there is a threshold below which things 
cannot cause cancer. And I do believe that's almost any 
substance and for good, theoretical reasons about what we call 
perturbation theory. And it's outlined by Sir Richard Peto in 
1975. So any thought--when one talks about a limit, that's a 
limit, a practical limit and one accepts it to get a negligible 
risk and a risk as low as in other parts of society.
    Senator Isakson. I just want to acknowledge, Madame 
Chairman, it's so refreshing. Dr. Pass and Dr. Wilson both have 
qualified their answers by saying they are in dispute or they 
couldn't testify precisely. We hear so many people who testify 
absolutely. It's wonderful to see professionals who qualify 
their remarks for us when we're trying to learn a very 
technical subject and I appreciate all your testimony and Sue, 
it is terrific to see you again.
    The Chairman. Well, thanks, Senator Isakson. This is 
precisely why I put research into this bill, many of the rules 
and regulations we see coming from the government right now, 
are developed with 1960s technology. Yet, we are seeing people 
diagnosed every single day, who have been exposed to asbestos 
and we don't know how much exposure--maybe just a tiny amount 
and that's why I believe we need to ban asbestos. Another 
important part of this bill is research and Dr. Pass, maybe you 
could comment on why that is needed.
    Dr. Pass. When I was at the NCI in the 1990s, there was 
very little to do for mesothelioma. Now, very frankly, 2007, we 
have publications on at least two biomarkers that are now going 
into validation, to try and see whether these are markers of 
asbestos-induced injury that may particularly go to 
mesothelioma. That's a huge thing. I mean, there aren't markers 
for lung cancer but for mesothelioma, we may have good markers. 
There is now a consortium of individuals that have gotten 
together. They've given up this idea of silos and universities 
and are working as a program project to study these 
carcinogenic questions and also to extend this not only 
nationally in hot spots like Libby but also internationally in 
Turkey. This is a moment to seize for mesothelioma research. 
It's a moment to seize for asbestos-related research and 
therefore, anything which can promote collaborative research 
with very talented investigators. There may be PhD's, 
scientists, genomic experts--now is the time to get these 
people together to concentrate on this one disease, 
mesothelioma but also we will learn so much about the 
carcinogenicity of asbestosis, also lung cancer, that we must 
seize the moment and the money needs to be there for these 
individuals to have it and that's why the bill that mandates 
collaborative interactions is so important. Thank you.
    The Chairman. Thank you. And Mrs. Vento, I'm going to end 
with you. You've done a lot of work on the Mesothelioma Applied 
Research Foundation. Can you tell us a little bit about what 
you're doing?
    Mrs. Vento. Well, the Mesothelioma Applied Research 
Foundation is an organization that includes several folks whose 
lives have been personally touched. Mary Cosentino, a mom and 
an attorney and a great woman from Illinois as well as several 
of us who have lost loved ones and physicians--Dr. Pass is a 
member of our board as well. Our Foundation is doing what it 
can to secure and fund research grants, to most especially help 
the patients and their families to reach out to them and to do 
everything that we can to increase the awareness and most 
definitely to help you pass this bill. So thank you very much.
    The Chairman. Thank you. I want to thank all of our 
witnesses for being here today. Senator Isakson, I want to work 
with you on a bipartisan basis. I want to see this signed by 
the President. We're going to keep working until we get this 
done. I really appreciate everybody's input and John, I 
especially want to thank you and your workers who are here 
today for talking to us about a very real issue that all of us 
need to focus our attention on. I appreciate each one of you 
for having the courage to be here today. To all of our 
witnesses, thank you again for your testimony and I am going to 
ask unanimous consent that the hearing record remain open 7 
days for additional relevant materials to be submitted. And we 
will adjourn, subject to the call of the Chair.
    Thank you.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                      Statement of Senator Specter

    Chairwoman Murray, thank you for the opportunity to address 
the subcommittee today.
    I share your concern about protecting American workers and 
their families from the deadly effects of asbestos exposure in 
the workplace. Indeed, I have spent much of the last several 
years in the Senate fighting for the people sickened by this 
deadly substance by crafting legislation to guarantee them 
timely and fair compensation.
    I led this fight with the help of Senator Leahy and many 
other members from both sides of the aisle who believe strongly 
in enacting a comprehensive legislative solution that would put 
an end to an irrational and unfair tort system that has failed 
truly sick asbestos victims. And I must note the extraordinary 
time and energy invested by the late Judge Edward Becker, my 
friend of 56 years, in bridging differences and crafting 
solutions on extraordinarily complex legislation. Judge Becker 
made countless trips to Washington from his home in 
Philadelphia to testify at asbestos hearings before the 
Judiciary Committee; to meet with stakeholders: and to speak 
individually with Senators to enlist their support in having 
Congress fulfill its responsibility on this issue.
    Judge Becker's devotion to finding a Federal solution to 
the asbestos problem, and his concern for those affected by the 
broken system, continued through his last days.
    As I address the subcommittee this morning, I do so as a 
Senator who not only has been, but continues to be, committed 
to passing Federal asbestos legislation for our country's 
workers and their families.
    The Nation's courts for years have implored Congress to 
address the asbestos litigation crisis. The Supreme Court has 
stated that the current flawed system ``defies customary 
judicial administration.'' In 1997 the Supreme Court observed:

        The most objectionable aspects of this asbestos 
        litigation can be briefly summarized: dockets in both 
        Federal and State courts continue to grow; long delays 
        are routine; trials are too long; the same issues are 
        litigated over and over; transaction costs exceed the 
        victims' recovery by nearly two to one; exhaustion of 
        assets threatens and distorts the process; and future 
        claimants may lose altogether. Amchem Products v. 
        Windsor, 521 U.S. 591 (1997).

    The issues are extraordinarily complex. It took years to 
build consensus among some of the most powerful interests in 
Washington--trial lawyers, organized labor, manufacturers, 
employers, and insurers, just to name a few. Working with Judge 
Becker, my colleagues and I provided a forum for frank 
discussion among the parties affected by various proposals. 
Above all, we sought fairness, practicality and sound policy. 
We held 48 large ``roundtable'' meetings; Judge Becker alone 
held 65 separate meetings with individual stakeholders; there 
were hundreds of other meetings and thousands of hours of work. 
In fact, your staff was present at some of these roundtable 
meetings. I cannot think of any other legislative undertaking 
that involved more time, more effort, or more commitment to 
understanding and addressing the issues.
    At the beginning of the last Congress, in 2005, Senator 
Leahy and I introduced S. 852, a comprehensive bill to resolve 
the crisis in our civil justice system. We built upon the 
significant effort to resolve the asbestos problem of then-
Chairman Hatch, who in 2003 introduced a bill establishing a 
proposed trust fund and an administrative no-fault process. The 
Senate undertook significant action on S. 852 in 2005, despite 
calls from skeptics who said that moving the bill from the 
Judiciary Committee was nearly impossible. On May 26, 2005, the 
committee reported S. 852 favorably on a strong bipartisan vote 
of 13-5 following a grueling 6-day mark-up that involved late 
nights and several hundred amendments. When Majority Leader 
Frist brought the bill to the floor, the Senate voted 
overwhelmingly (98-1) to invoke cloture on the motion to 
proceed. We fell one vote shy of the 60 votes needed to 
overcome a budget point of order, a procedural hurdle thrown in 
the way. The bill was sent back to the Judiciary Committee, 
where we continued our work.
    On May 26, 2006, Senator Leahy and I introduced S. 3274 
``The Fairness in Asbestos Injury Resolution Act of 2006,'' 
(the FAIR Act), which incorporated many amendments filed during 
the floor debate on S. 852, including an alternative allocation 
system for small and medium-sized business proposed by Senator 
Kyl, and Senator Landrieu's amendment relating to filing 
procedures for individuals exposed to asbestos as a result of 
natural disaster.
    During this process, even you Senator Murray, presented 
compelling testimony before the Judiciary Committee during the 
108th Congress about the need for enacting Federal legislation 
aimed at banning the distribution of asbestos containing 
products in the stream of commerce. As a result, the Judiciary 
Committee worked closely with your office in crafting a 
bipartisan solution that became part of the broader asbestos 
trust fund bill. As you move ahead on your asbestos ban 
legislation, I trust that the compromises we reached will be 
honored. These compromises included (among other things): (i) 
carefully negotiated DOD exemption language adopted during 
committee markup last Congress; (ii) exemptions for roof 
coatings and diaphragms used in the production of chlorine; and 
(iii) a specific definition of asbestos.
    While the most recent FAIR Act of 2006 was not considered 
by the full Senate, I remain committed to finding a solution to 
this litigation crisis that leaves victims with serious 
disability without compensation. I want to ensure justice for 
the tens of thousands of Americans who already have developed 
debilitating or deadly asbestos-related diseases, and those who 
will become ill in the coming years. I applaud your continued 
efforts to protect our Nation's current and future workers from 
asbestos exposure, but I believe a more comprehensive solution 
is necessary.
    Today, asbestos victims filing tort claims receive an 
average of 42 cents of every dollar spent on asbestos 
litigation. Sadly, the other 58 cents are swallowed by the high 
transaction costs of litigation, where 31 cents of every dollar 
go to defense costs, and 27 go to plaintiffs' attorneys and 
other related costs.
    We don't want more companies to go bankrupt. We don't want 
asbestos victims suffering without the help they need and 
deserve. I will continue to fight for a fair and bi-partisan 
bill that will do right by victims and businesses across the 
country. The sheer number of claims continues to clog both 
State and Federal courts. Claims by unimpaired individuals have 
delayed payments and reduced the money available for the truly 
sick. Asbestos claims have driven many defendants into 
bankruptcy, leaving some victims without payment altogether and 
other victims diverted to bankruptcy trusts that offer, in some 
cases, cents on the dollar as a result of asset depletion. Wall 
Street continues to punish solvent companies for the 
unpredictability of their asbestos liability, preventing 
business growth and the creation of new jobs. Very recently--
this year--there have been court rulings and media reports 
about conflicts of interest, multiple recoveries (``double 
dipping''), and fraud related to asbestos bankruptcy trusts--
the result of which is that, even where there are assets 
available for payment, fair and just compensation still is not 
going to those who are impaired.
    And in this time of talk about support for our troops, many 
of our Nation's veterans who were exposed to asbestos during 
their military service suffer from asbestos-related diseases, 
including one of the deadliest cancers--mesothelioma. Because 
many of the companies that supplied asbestos to the military 
went bankrupt long ago, and because the Federal Government is 
immune from suit, sick veterans are often left with little or 
no compensation. Let me be clear about this tragedy. Our 
veterans gave years of their lives in service to our country, 
but when they contract deadly and painful illnesses caused by 
asbestos exposure during their service, we tell them ``sorry, 
there is nothing we can do for you.'' This is wrong. Congress 
owes our veterans a solution.
    Today you have Capitol Hill Tunnel employee John Thayer 
testify as to his and other tunnel workers exposure to asbestos 
while working on the utility tunnels below the Capitol. Our 
bill would allow our tunnel workers fair and just compensation 
for any injuries they may contract due to this exposure.
    While we did not enact an asbestos trust fund bill last 
Congress, our efforts were not in vain. Through hearings, 
Senate floor action, markups and meetings, we did shine light 
on fraudulent mass screening programs that generate falsified 
x-ray readings for unimpaired claimants, and medical 
certifications by doctors who never examined the ``patients.'' 
These programs drove the alarming rise earlier this decade of 
unimpaired asbestos claims that flooded the tort system to the 
detriment of the truly sick. Judges and prosecutors took notice 
and cracked down on these abuses. As a result of heightened 
awareness and enforcement, claims of the unimpaired have 
declined.
    But many problems remain. Our veterans still have no 
relief. Families of other workers are left with medical bills 
and no compensation. The residents of Libby, Montana, where 
W.R. Grace operated an asbestos-contaminated mine until 1990, 
leaving residents and workers sick from asbestos exposure, have 
no hope of recovering adequate compensation; W.R. Grace is 
bankrupt.
    I continue to work with Chairman Leahy and my colleagues to 
ensure that comprehensive asbestos reform remains a priority 
for the Senate. I have instructed my staff to continue 
assessing the underlying asbestos litigation problem and to 
focus on ways to help our veterans and those suffering from 
mesothelioma, as well as putting an end to abusive litigation 
tactics in our civil justice system. Last fall, I had 
discussions with Senator McConnell about scheduling floor 
action on asbestos early this Congress. I have had recent 
discussions with Majority Leader Reid who, while noting 
admitted difficulties in scheduling floor time for this matter, 
said that he would try to find time for an asbestos bill this 
Congress.
    We have a moral obligation to do more than criticize or 
even wash our hands of this problem. We must find a solution.
    Chairwoman, Murray, I thank you for this opportunity to 
speak about an issue that is so important to so many and I look 
forward to continue working with you on this matter.

                 Prepared Statement of Linda Reinstein

    On behalf of the Asbestos Disease Awareness Organization (ADAO), I 
represent thousands of victims and their families around the world who 
have become sick or died as a result of exposure to asbestos.
    My name is Linda Reinstein, Executive Director of the Asbestos 
Disease Awareness Organization and now a mesothelioma widow. My husband 
lost his 3 year battle with mesothelioma on May 22, 2006. I am neither 
a lobbyist nor an attorney, only a volunteer.
    We face an enormous public health crisis. As early as 1898, 
asbestos exposure was linked to disease. The stress and trauma is life 
altering for those Americans with known asbestos exposure waiting for 
time to reveal their medical fate.
    The simple truth is--asbestos kills. Every year in the United 
States, 10,000 men, women and children die from asbestos-caused 
diseases. Asbestos diseases are incurable; preventing exposure is the 
only way to eliminate disabilities, diseases and deaths. Asbestos is 
the largest single cause of occupational cancer. Every year, 1 in every 
125 men over the age of 50 dies from an asbestos caused disease.
    Inhaling and swallowing asbestos fibers can cause malignant and 
nonmalignant diseases, such as, but not limited to, Mesothelioma, 
Asbestosis, Chronic Pulmonary Respiratory Disorders, Lung Cancer, 
Larynx, Esophagus, Stomach Cancer, Kidney and Bowel problems. A recent 
asbestos disease study sited, 65 percent of the victims suffer from 
cancer and the remainder 35 percent suffer from nonmalignant diseases.
    Although mesothelioma annually claims the lives of an estimated 
2,000 Americans, other cancers and respiratory diseases kill 8,000 more 
Americans. Many victims feel like they are breathing through a pinched 
straw, for every breath, every minute, every day. When the victims' 
oxygen levels become critically low, they are tethered to supplemental 
oxygen to prolong life. Lack of oxygen causes death by respiratory 
failure and/or cardiac arrest.
    Early diagnoses can increase the treatment options for the patient 
and improve their quality of life. Patients initially diagnosed with 
asbestosis now live long enough to be diagnosed with mesothelioma at 
the end of their life.
    Asbestos was widely used in the construction and attic insulation 
in millions of homes in the United States and Canada built before 1975.
    In 1976, Congress passed the Toxic Substance Control Act and named 
asbestos as a toxic mineral.
    In 1977 the International Agency for Research on Cancer (IARC) 
classified asbestos as a Category 1 Human Carcinogen, the highest 
cancer hazard classification for a substance.
    In 1986 President Reagan signed into law the Asbestos Hazard 
Emergency Response Act (AHERA). This law and the regulations to enforce 
it were designed to prevent children or staff from being exposed to 
asbestos in the schools, but they have not been updated or revised 
since 1987.
    In 1989 the EPA promulgated an asbestos ban, but within 2 years, 
the United States Court of Appeals for the 5th Circuit overturned 
portions of the regulations and the Federal Government did not appeal 
the decision to the Supreme Court.
    In 2002, the collapse of the World Trade Center towers led to the 
release of hundreds of tons of asbestos from the towers. An estimated 
20,000 responders, workers, volunteers and residents suffer from 
respiratory diseases. The annual direct treatment costs are $140 
million dollars. We can only extrapolate the cost of human tragedy and 
treatment expenses from the Hurricane Katrina disaster.
    In 2006, the World Health Organization and the International Labor 
Organization in a policy paper issued in and a resolution adopted 
respectively agreed that: all forms of asbestos are classified as human 
carcinogens, no threshold for ``safe'' exposure exists, and the 
elimination of asbestos use is essential to stop the global epidemic of 
asbestos-related disease.
    And now, younger victims are dying from diseases. Recently, a 9-
year-old child was diagnosed with mesothelioma and died 3 years later. 
Victims of asbestos related diseases are completely innocent. They are 
firefighters and veterans, construction workers and engineers. They are 
the women who became exposed washing their husbands' work clothes. They 
are children whose loving hug turned deadly.
    Our data shows the common patient profile to be a 51 year old with 
no known occupational exposure.

    <bullet> Leigh, mesothelioma victim, 27, believes she developed 
mesothelioma after walking to primary school through a factory yard 
where asbestos was cut.
    <bullet> June, 53, mesothelioma victim, had no known occupational 
exposure.
    <bullet> Adam, mesothelioma victim, dead at 33, had no known 
occupational exposure.
    <bullet> Alan, mesothelioma victim, dead at 67, was briefly exposed 
to asbestos as a submarine engineer and while doing home repairs.
    <bullet> Thomas, 57, asbestosis victim, worked for 27 years as a 
railroad electrician.

    Asbestos diseases are difficult to diagnose and treat; many deaths 
are inaccurately recorded. Our statistics primarily report occupational 
exposures which is only one of six types of exposures that cause 
painful and often deadly diseases.
Types of Occupational and Non-Occupational Asbestos Exposure
    <bullet> Occupational
    <bullet> Take-home and Secondary
    <bullet> Environmental (Naturally Occurring Asbestos)
    <bullet> Consumer Products
    <bullet> Deconstruction, Renovation or Implosions of Contaminated 
Buildings
    <bullet> Unknown

    Asbestos continues to be mined and exported from Canada. The United 
States and Canada remain the only two industrialized nations that have 
not yet banned the use of asbestos in common products while more than 
40 countries have banned asbestos. Consumers are at risk with imported 
asbestos contaminated products such as brakes.
    Most Americans assume their air, soil and water are safe from toxic 
contaminants--but as victims, we know the truth. Just walk the streets 
of Libby or New York City--they know all too well about irreversible 
effects of asbestos poisoning.
    The asbestos ban will only be as effective as the laws are 
enforced. Presently, minimal fines and lack of enforcement make our 
existing laws weak and deadly asbestos exposure continues.
    It is time to eliminate all asbestos caused diseases with education 
and prevention, while simultaneously investing in research for a cure.
    These terrible facts ensure that there will be asbestos victims in 
America for decades to come. An immediate worldwide ban on the 
production and use of asbestos is long overdue, fully justified and 
absolutely necessary. Congress needs to ban asbestos and increase 
funding for research and education--laws we need and can agree upon 
today.
    My testimony is dedicated to my late husband, Alan Reinstein, 
President of ADAO, who lost his mesothelioma battle on May 22nd 2006.
    Our daughter is just 14 years old.

               Prepared Statement of Jennifer Joy Wilson

     The National Stone, Sand & Gravel Association (NSSGA) appreciates 
the opportunity to submit a statement for the record of the hearing on 
the ``Ban Asbestos in America Act of 2007.'' NSSGA supports rigorous 
regulation of harmful exposure to asbestos, which has long been 
regulated as a carcinogen. NSSGA, however, cautions that regulation and 
legislation addressing asbestos must have definitions and analytical 
methods that are based on sound science. Additionally, definitions and 
methods must be sufficiently accurate and precise to differentiate 
regulated asbestiform minerals and exclude prismatic, rock-forming 
minerals, which have never been found to cause health effects like 
those associated with asbestos. Current analytical methods for defining 
asbestos were designed to measure commercial asbestos in environments 
known to contain it, and therefore are inappropriate for the natural 
environment because they are incapable of distinguishing between 
asbestiform and prismatic, rock-forming minerals.
    Based near the Nation's capital, NSSGA is the world's largest 
mining association by product volume. Its member companies represent 
more than 90 percent of the crushed stone and 70 percent of the sand 
and gravel produced annually in the United States and approximately 
117,000 working men and women in the aggregates industry. During 2005, 
a total of about 3.2 billion tons of crushed stone, sand and gravel, 
valued at $17.4 billion, were produced and sold in the United States. 
Without these important commodities, the Nation's infrastructure could 
not be built or maintained and the commerce and quality of life 
American's enjoy would be severely reduced. With over 11,000 operations 
nationwide approximately 70 percent of the Nation's counties house an 
aggregates operation, many with multiple operations.
    Of considerable concern is that any legislation dealing with 
asbestos must define it accurately. Asbestos is a commercial term for 
six naturally occurring minerals that are composed of long, thin, 
flexible fibers that easily separate and become airborne. The six 
regulated asbestos minerals also exist in a fundamentally different 
structure as prismatic, rock-forming minerals, in prismatic crystal 
forms. These prismatic minerals are common rock-forming components of 
many igneous and metamorphic rock types found along the east and west 
coasts of the United States, in the Midwest and in Alaska. The problem 
is that the definitions and analytical methods that have been used to 
define and measure asbestos in air and bulk samples are not able to 
distinguish between the harmful forms of the minerals and those forms 
that pose no health effects.
    In 1986, the Occupational Safety and Health Administration (OSHA) 
passed a regulation that tightened existing rules on the six asbestos 
minerals while expanding its rules to include three prismatic, rock-
forming minerals. The mining industry, including the aggregates sector, 
challenged this action. In 1992, after public hearings, OSHA recognized 
the problem and concluded that exposure to these prismatic, rock-
forming minerals does not cause the adverse health effects associated 
with asbestos.
    The issue emerged again in the wake of asbestos contamination found 
at a vermiculite mine in Libby, Montana that has resulted in serious 
asbestos related illnesses occurring among miners there and with the 
Libby community. Several Federal agencies, including the Environmental 
Protection Agency (EPA) and the Mine Safety and Health Administration 
(MSHA), are currently examining the need for additional regulation of 
naturally occurring asbestos. The U.S. Geological Survey (USGS) and the 
National Institute for Occupational Safety & Health (NIOSH), non-
regulatory agencies, are providing scientific information to help 
resolve these issues.
    Federal asbestos trust fund legislation that died in the 109th 
Congress accurately defined asbestos minerals as follows:

        ASBESTOS--The term ``asbestos'' includes--
                (A) chrysotile;
                (B) amosite;
                (C) crocidolite;
                (D) tremolitc asbestos;
                (E) winchite asbestos;
                (F) richterite asbestos
                (G) anthophyllite asbestos;
                (H) actinolite asbestos; and
                (I) asbestiform amphibole minerals.

    Differences between the asbestiform and prismatic mineral varieties 
are evident in their physical form and not in their chemical 
composition. The challenge then becomes to differentiate between the 
two. This can be done through carefully drawn definitions and 
discriminate analytical methods. Currently analytical methods and fiber 
definitions for asbestos were designed for settings where commercial 
asbestos is expected to be present. They are not useful, however, in 
the natural environment, where asbestos is not usually present, because 
they cannot distinguish between asbestiform and prismatic, rock-forming 
minerals. Current analytical methods falsely identify many prismatic 
cleavage fragments as asbestos.
    Federal legislation, if passed, without the proper definitions, 
could result in unjustified regulation of prismatic, rock-forming 
minerals as if they were asbestos. Confusing these minerals with 
asbestos will likely alarm miners, the public and the investment 
community unnecessarily and spur frivolous lawsuits. Companies in the 
construction materials industry could become targets of asbestos 
litigation, which has already forced many companies in other industries 
into bankruptcy.
    Most importantly, failure to define asbestos correctly in 
legislation could result in ordinary prismatic rock-forming minerals 
being included in asbestos health risk assessments, diluting the 
asbestos health risk assessment, and potentially resulting in 
occupational and public health overexposure to asbestos.
    In addition to accurately defining asbestos, NSSGA believes new 
test methods are needed to measure the lower concentrations of asbestos 
that can occur in the natural environment. A voluntary laboratory 
accreditation program, similar to the National Voluntary Laboratory 
Accreditation Program, is needed to help assure local testing 
laboratories produce accurate results.
    The American Society for Testing Materials (ASTM) published a new 
consensus test protocol in July 2006, D 7200-06, for measuring asbestos 
in the natural environment.
    The logical entity to develop a national laboratory accreditation 
program based on the new ASTM protocol is the National Institute of 
Standards and Technology (NIST) in the U.S. Department of Commerce. 
NIST has worked for over 100 years with U.S. companies, universities, 
governmental agencies and other organizations to build the 
infrastructure--the technical support system--vital to the Nation's 
technological capabilities and its long-term economic competitiveness. 
NIST has the necessary scientific expertise and experience to undertake 
such a project, and its Chemical Science and Technology Laboratory is 
the Nation's primary reference laboratory.
    Finally, NSSGA supports an independent study of naturally occurring 
asbestos to ensure consistency of effort in determining what actually 
is asbestos. Currently, so many agencies are involved in studying the 
issue including MSHA, EPA, USGA, NIST, and NIOSH, that NSSGA believes 
the result could be more confusion and a panoply of testing 
methodologies. NSSGA supports an independent study by the National 
Academy of Sciences or the Health Effects Institute, both well regarded 
scientific agencies with experience in studying this issue.
    In conclusion, NSSGA supports efforts to ban asbestos in America, 
but urges caution and a recognition that asbestos exists naturally in 
the environment. Therefore, it is imperative that any legislation 
accurately defines asbestos in order to distinguish prismatic rock-
forming minerals that are not harmful to human health from true 
asbestos. Also, due to the fact that previous testing methodologies 
were created for determining asbestos in commercial environments, NSSGA 
supports development of a laboratory accreditation program, based on 
the new ASTM test protocol for determining naturally occurring 
asbestos, to be done by NIST, as well as an independent third-party 
study to be undertaken by either the National Academy of Sciences or 
the Health Effects Institute.

                   Prepared Statement of Kerry Swift

     In 2002, after several years of complaints regarding deficiencies 
in the Asbestos Management Plans, and major contamination by asbestos 
floor tiles, all four of Brookfield Connecticut Public Schools were 
extensively cleaned of asbestos fibers by professional contractors.
    It was decided that in order to open schools on time in September, 
abatement would be delayed until a future date. Instead, a Monitoring 
Plan consisting of periodic air/dust sampling would be conducted to 
monitor the environment for any continued accumulation of asbestos 
fibers.
    During this testing, continued chrysotile contamination from the 
remaining floor tiles was a problem, but in Whisconier Middle School, 
the routine air testing discovered anthophylite asbestos in the art 
room, this type of asbestos was also found in microvac dust testing of 
the room. For several months, the source of this ongoing contamination 
remained a mystery. Extensive bulk testing of the art materials in the 
room was conducted. Finally, by using Transmission Electron Microscopy 
(TEM), traces, under 1 percent, of anthophylite asbestos, which had 
been undetectable using Polarized Light Microscopy (PLM), were found in 
clay containing talc. The clay had been purchased from Sheffield 
Pottery in Massachusetts. The Material Safety Data Sheets (MSDS) from 
Sheffield, for this clay, indicated talc from R.T. Vanderbilt 
containing ``non-asbestiform'' anthophylite and ``non-asbestiform'' 
tremolite as one of the ingredients. Once the clay was replaced with a 
clay that did not contain talc, no anthophylite asbestos was detected 
in air and dust tests.
    However, several months later, the anthophylite contamination 
reappeared. Bulk testing again found the source to be talc clay, this 
time from Amherst Pottery Supply. The school had inadvertently bought 
asbestos-talc-containing clay again.
    According to the lab reports of the air testing, using the AHERA 
counting standard, structures, which met the criteria for the 
definition of an asbestos fiber, were found in the air, as high as 
0.0184 structures/cubic centimeter (s/cc), which is almost double the 
0.01 s/cc standard most public health regulations allow for public 
occupancy.
    We've been told by the Connecticut Department of Public Health that 
``many'' schools in Connecticut are using the same talc clay from 
Sheffield Pottery. If Brookfield hadn't had the Monitoring Program, 
which we are not aware of ever being done in any other school system, 
Brookfield's children would still be using this asbestos-talc clay as 
well, and be working in this unseen contamination every school day.
    Does R.T. Vanderbilt's talc contain asbestos, or non-asbestiform 
anthophylite and tremolite fibers? Frankly, as a parent, I don't care 
how it's classified. I don't want it in my child's lungs. R.T. 
Vanderbilt can continue to quibble with the regulators over the precise 
definition of an asbestos fiber, but while this argument drags on, 
children in art rooms everywhere are using clay containing this talc. 
Can't we say enough is enough and protect our children?
    We urge you to support the complete ban on asbestos.

    (Brookfield Parents, Kerry Swift, Brookfield, CT 06804 and Kathleen 
Rossland, Brookfield, CT 06804.)
                                 ______
                                 
                 Richard A. Lemen, Ph.D., M.S.P.H.,
                                          Canton, GA 30115,
                                                    March 18, 2007.
Hon. Patty Murray,
U.S. Senate,
Washington, DC 20501.

    Dear Senator Murray: I am writing to respond to the comments of 
Professor Richard Wilson of Harvard University's Department of Physics 
and Center for Risk Analysis. In Professor Wilson's comments to the 
Senate Employment and Workplace Safety Subcommittee on March 1, 2007, 
he made reference to the safety of the current Occupational Safety and 
Health Administration's (OSHA's) standard for asbestos, which is 0.1 
fiber/cc as a time-weighted average over an 8 hour workday.\1\ Several 
of Wilson's contentions are misleading. I will address many of his 
incorrect assertions below. However, as co-author of the 1976 
recommendation to adopt the current asbestos standard, I'd first like 
to provide some background on the genesis of today's standard.
---------------------------------------------------------------------------
    \1\ Wilson R, 2007. Comments of Professor Richard Wilson, 
Department of Physics & Center for Risk Analysis, Harvard University on 
the Proposed Asbestos Ban, Senate Employment and Workplace Safety 
Subcommittee under the Senate Health, Education, Labor, and Pensions 
Committee, March 1, 2007, Dirksen Senate Office Building Room 430, 
Washington, DC.
---------------------------------------------------------------------------
Background on the Existing Asbestos Standard
    The current standard of 0.1 fiber/cc as a time-weighted average 
over an 8 hour workday was first proposed in 1976 by the National 
Institute for Occupational Safety and Health (NIOSH) in a Revised 
Recommended Asbestos Standard.\2\ Previously, in 1972, NIOSH had 
recommended a standard of 2 fibers/cc based on data supporting the 
British Occupational Hygiene Society's (BOHS') standard on asbestos. 
The data came from a study conducted on a Turner and Newell asbestos 
textile facility in the UK, which was first studied by Dr. Richard Doll 
in 1955.\3\ In 1965 Knox et al.\4\ reported on additional lung cancers 
from the Doll cohort (Doll had asserted that all of his lung cancer 
cases had exposures prior to the 1931 government-industry regulations). 
The 1965 study and another by Knox et al. in 1968 \5\ formed the basis 
for the 2 fiber/cc recommendation of NIOSH in 1972. Knox said of his 
study that it should be noted that, ``In this factory chrysotile is 
predominantly used, but it cannot be affirmed that workers have not 
been exposed to crocidolite at all. It is certain, however, that none 
have worked with crocidolite for any considerable part of their working 
life.''
---------------------------------------------------------------------------
    \2\ NIOSH, 1976. Revised Recommended Asbestos Standard. U.S. 
Department of Health, Education, and Welfare, Public Health Service, 
Center for Disease Control, National Institute for Occupational Safety 
and Health. Primary responsibility for development of this document was 
shared by Richard A. Lemen and John M. Dement, with technical 
consultation provided by Dr. Joseph K. Wagoner. December, DHEW (NIOSH) 
Publication No. 77-169.
    \3\ Doll R, 1955. Mortality from lung cancer in asbestos workers. 
Br J Ind Med, 12: 81-86.
    \4\ Knox JF, Doll RS, Hill ID, 1965. Cohort analysis of changes in 
incidence of bronchial carcinoma in a textile factory. Ann NY Acad Sci, 
132: 526-535.
    \5\ Knox JF, Holms S, Doll R, Hill ID, 1968. Mortality from lung 
cancer and other causes among workers in an asbestos textile factory. 
Br J Ind Med 25: 293-303.
---------------------------------------------------------------------------
    The same year as NIOSH proposed its 2 fiber/cc recommended 
standard, Lewinsohn published a reanalysis of the Knox cohort, which 
showed that a greater prevalence of abnormalities existed than earlier 
reported, including in individuals employed after 1950.\6\ For these 
reasons, as outlined in the 1976 Revised Recommended Asbestos Standard, 
NIOSH maintained that the original 1972 NIOSH-recommended standard be 
revised because it was not protective. NIOSH wrote, ``The BOHS-
recommended standard of 2 fibers/cc was based on data related only to 
asbestosis and the Society clearly cautioned that, since a quantitative 
relationship between asbestos exposure and cancer risk was not known, 
it was not possible at that time to specify an air concentration which 
was known to be free of increased cancer risk. (BOHS 1968)'' \7\
---------------------------------------------------------------------------
    \6\ Lewinsohn HC, 1972. The medical surveillance of asbestos 
workers. Soc Health, 92: 69.
    \7\ NIOSH, 1976. Revised Recommended Asbestos Standard. U.S. 
Department of Health, Education, and Welfare, Public Health Service, 
Center for Disease Control, National Institute for Occupational Safety 
and Health. Primary responsibility for development of this document was 
shared by Richard A. Lemen and John M. Dement, with technical 
consultation provided by Dr. Joseph K. Wagoner. December, DHEW (NIOSH) 
Publication No. 77-169.
---------------------------------------------------------------------------
    Furthermore, based on this emerging scientific data on asbestos 
health risks, NIOSH recommended, for the first time in the United 
States, that the only way to eliminate asbestos-related disease in the 
workplace was to ban asbestos use.\8\ Additionally, to protect against 
the non-carcinogenic effects of asbestos, NIOSH recommended an 
analytical method within the workplace that at that time used the most 
reliable, reproducible, and available method to both industry and 
official agencies. That methodology was the phase-contrast microscope 
technique, which could adequately analyze particles down to a 
concentration of 0.1 fiber/cc, the lowest statistically reliable 
quantification limit.\9\
---------------------------------------------------------------------------
    \8\ Ibid.
    \9\ Ibid.
---------------------------------------------------------------------------
    As history shows, in 1976 OSHA did not adopt this NIOSH Revised 
Recommended Asbestos Standard, despite scientific evidence that the 
OSHA standard of 5 fibers/cc and the NIOSH recommended standard of 2 
fibers/cc were both inadequate for protecting workers from the 
deleterious effects from exposure to asbestos. In 1979, the directors 
of both OSHA and NIOSH appointed me as chairperson of a committee to 
evaluate the effectiveness of and risks posed by the OSHA standard of 2 
fibers/cc. This committee evaluated the most recent asbestos data 
available at the time and again concluded this standard was not 
protective and needed revision.\10\ The committee again recommended 
lowering the standard to its lowest measurable concentration, utilizing 
the phase contrast methodology, because there was no known safe 
concentration of exposure to asbestos.
---------------------------------------------------------------------------
    \10\ Lemen RA, Groth DH, Dement JM, Wagoner JK, Lloyd JW, Kang HK, 
Jennings RL (Jr.), 1980. Workplace Exposure to Asbestos Review and 
Recommendations. DHHS (NIOSH) Publication No. 81-103. U.S. Department 
of Health and Human Services, Public Health Service, Centers for 
Disease Control, National Institute for Occupational Safety and Health 
and U.S. Department of Labor, Occupational Safety and Health 
Administration.
---------------------------------------------------------------------------
    This recommendation, however, was not implemented until 1994, 8 
years after OSHA had lowered its standard to 0.2 fibers/cc. Even at the 
current standard of 0.1 fiber/cc, OSHA projected a risk of about 3.4 
excess deaths per 1,000 workers and a 20 year exposure risk to 2.3 per 
1,000 workers.\11\ OSHA's linear extrapolation risk analysis is 
criticized because of its reliance only on high exposure measurements, 
which then projects risks on a linear curve downward. When OSHA 
conducted this risk analysis, it asked for other analyses at lower 
concentrations, however, none were forthcoming. This was mainly because 
no one had done such studies utilizing accurately lower exposure 
concentrations. Does this matter and if not, why not? These questions, 
and the answers to them, bring me to Wilson's misleading assertions.
---------------------------------------------------------------------------
    \11\ Occupational Exposure to Asbestos, Department of Labor, 29 CFR 
Parts 1910, 1915, and 1926, RIN: 1218-AB25, Occupational Safety and 
Health Administration, Final Rule.
---------------------------------------------------------------------------
Exposure to Asbestos at the Current OSHA Standard Can Still Cause 
        Asbestos Disease--There is No Threshold of ``Safe'' Exposure
    In his testimony, Wilson said, ``We strongly disagree with 
statements in the Ban Asbestos bill indicating the current U.S. 
permissible exposure level is not safe.'' To support his claim, Wilson 
asserted that both Dr. Richard Doll and Julian Peto, researchers in the 
UK, questioned such low thresholds and went even further to critique 
their validity through supposedly scientific analysis. These included 
several reports to both the UK and U.S. governments concluding 
differing findings. While Dr. Doll never changed his conclusions that 
asbestos could be used safely at low enough concentrations, Julian Peto 
has revised his stance multiple times.\12\ A 2007 paper by Geoffrey 
Tweedale validates many of the problems that Dr. Barry Castleman found 
upon close examination of Dr. Doll's first analysis of lung cancers 
among asbestos workers, and thus raises questions concerning 
protections for asbestos-exposed workers.\13\ Both the Tweedale and 
Castleman papers shed light on the inadequate and misleading science of 
the Doll and Peto analyses. Peto now predicts his earlier estimates of 
asbestos-related deaths in the UK to have been low; he now predicts the 
risks to be at least three to four times higher than his earlier 
projections and now expects some 150,000 or more deaths from this man-
made epidemic in the UK.\14\ At the subcommittee hearing, Wilson failed 
to disclose the extent to which history has proven Peto to have been 
wrong.
---------------------------------------------------------------------------
    \12\ Tweedale G, 2007. The Rochdale asbestos cancer studies and the 
politics of epidemiology: What you see depends on where you sit. Int J 
Occup Environ Health, 13: 70-79.
    \13\ Castleman B, 2001. Re: Dolls 1955 study on cancer from 
workers. Am J Indust Med, 39: 237-240.
    \14\ Peto J, Hodgson JT, Matthews RE, Jones JR, 1995. Continuing 
increase in mesothelioma mortality in Britain. Lancet, 4 March, 345: 
535-539.
---------------------------------------------------------------------------
All Six Types of Asbestos, Including Chrysotile, Are Dangerous, Not 
        Only the Amphiboles
    Wilson also asserts that the major epidemic of asbestos related 
disease is a result of amphibole asbestos use, which is virtually non-
existent today. He suggests, therefore, that a ban affecting only 
chrysotile is not necessary. The science does not support his argument, 
and the fact that most studies of asbestos have evaluated mixed 
exposures to both amphibole and serpentine asbestos bring this 
conclusion into further contention. (Also, serpentine asbestos 
[chrysotile] is rarely found without being contaminated with amphibole 
forms of asbestos, such as tremolite). Studies of pure chrysotile 
asbestos in animals and laboratories refute his assertion and 
findings,\15\ while human epidemiology support a role of synergetic 
action when both types of asbestos are found together.\16\ The fact 
that 95 percent of asbestos used commercially was chrysotile does not 
support an only amphibole role in asbestos-related neoplasms,\17\ nor 
does the ``amphibole hypothesis,'' which purports the causative role of 
disease to be related only to amphiboles in the risk of asbestosis, 
lung cancer and mesothelioma.\18\ That all asbestos fiber types cause 
asbestos-related diseases is supported by every major scientific 
organization in the world, and it is only the exact potency of 
chrysotile, per dose to cause mesothelioma, when compared to that for 
amphiboles, which remains controversial. However, even when potency (on 
a dose by dose basis) is considered, the fact remains that chrysotile 
alone (or in its most common configuration, which is contaminated with 
an amphibole such as tremolite), is capable of causing asbestos-related 
diseases; no safe dose has been identified below which there is zero 
risk of developing both lung cancer and mesothelioma.\19\
---------------------------------------------------------------------------
    \15\ Frank AL, Dodson RF, Williams MG, 1998. Carcinogenic 
implications of the lack of tremolite in UICC reference chrysotile Am J 
Indust Med, 34(4): 314-417; Kohyana, N, Shinohara, Y, & Suzuki, Yl. 
Mineral Plants and Some Reexamined Characteristics of the International 
Union Against Cancer Standard Asbestos Samples. Am J. Indus. Med. 1996; 
30: 515-528; Craighead JE, Mossman BT, 1982. The pathogenesis of 
asbestos-related disease. NEJM, 306 (21): 1416-1456.
    \16\ Acheson ED, Gardner MJ, Mesothelioma and exposure to mixtures 
of chrysotile and amphibole asbestos, Arch Environ Health. 34(4): 240-
242 (1979).
    \17\ Smith AH, Wright CC, 1996. Chrysotile asbestos is the main 
cause of pleural mesothelioma. Am J Indust Med. 30: 252-266.
    \18\ Stayner LT, Dankovic DA, Lemen RA, 1996. Occupational exposure 
to chrysotile asbestos and cancer risk: A review of the amphibole 
hypothesis. American Journal of Public Health, February, Vol. 86; (2); 
179; Lemen RA, 2004. Chrysotile Asbestos as a Cause of Mesothelioma; 
Application of the Hill causation model. Int J Occup Environ Health. 
Vol. 10; 233-239.
    \19\ Stayner LT, Dankovic DA, Lemen RA, 1996. Occupational exposure 
to chrysotile asbestos and cancer risk: A review of the amphibole 
hypothesis. American Journal of Public Health, February, Vol. 86; (2); 
179; Lemen RA, 2004. Chrysotile Asbestos as a Cause of Mesothelioma; 
Application of the Hill causation model. Int J Occup Environ Health. 
Vol. 10; 233-239. Hodgson JT, Darnton A, 2000, The quantitative risks 
of mesothelioma and lung cancer in relation to asbestos exposure. Ann 
Occup Hyg, 44(8): 565-601; Landrigan, PJ, Nicholson, WJ, Suzuki, Y, & 
Ladou, J. The hazards of chrysotile asbestos: a critical review. Ind 
Health. 1999; Jul: 37: 3: 271-80; IARC. IARC Monographs on the 
Evaluation of Carcinogenic Risk of Chemicals to Man--Asbestos Volume 
14. International Agency for Research on Cancer, World Health 
Organization, Lyon, 1977; IPCS. Environmental Health Criteria 203: 
Chrysotile Asbestos, International Program on Chemical Safety, World 
Health Organization. 1998.
---------------------------------------------------------------------------
Most Developed Countries and Their Scientists Support Banning Asbestos
    Wilson's conclusion that there is no need for a ban on asbestos is 
based on his comparative risk analysis, suggesting what he refers to as 
``negligible risk,'' something he does not define. His contention that 
risks are a necessary part of life for normal human activities must be 
judged against the overwhelming evidence of the risks posed by 
asbestos, combined with the fact that eliminating it would have no 
residual effect on society. Furthermore, his assertion that only 17 
percent of the countries around the world have chosen to ban asbestos 
is very misleading when these 17 percent represent the countries with 
the most highly advanced scientific communities and the strongest 
public health protections. His arguments do not comport to the 
scientific opinions of the world's major scientific bodies, but rely on 
a small selected group of papers by authors, only a few of which have 
conducted research or contributed to the valid scientific research on 
the health effects of asbestos. Some of Wilson's cited publications 
appear as commentaries in publications of dubious distinction, i.e., 
The Apocalyptics, some are not even scientifically peer reviewed 
publications, and some represent his own commentaries, while the rest 
are selected because they support Wilson's own arguments. While I 
respect Wilson's right to express his opinions, I feel it important 
that your record reflect the prevailing scientific opinions of 
scientists engaged in the actual research that has contributed to our 
knowledge concerning the health consequences from exposure to asbestos.
Naturally Occurring Asbestos Is Not the Bill's Focus, Nor Should It Be
    Wilson goes on to assert that because asbestos is a naturally 
occurring mineral, its outcroppings will still cause exposures, even 
after a ban. This has limited validity because what he doesn't point 
out is that until the commercial exploitation and use of asbestos in 
man-made products, background concentrations were essentially nil (to 
the best of our knowledge). Nor does Wilson provide any supporting 
documentation or evidence for his claim that the ``natural risks are 
much greater than the residual risks of processed asbestos.'' While he 
then mentions the infamous example of the asbestos contamination in 
Libby, he ignores the fact that the town was contaminated as a result 
of the industrial processing of asbestos-contaminated vermiculite; it 
is not as if the people of Libby were harmed merely by living near 
naturally occurring asbestos. It is obvious that a ban will not 
eliminate the risks posed by naturally occurring asbestos or by the 
millions of asbestos containing products already in place in homes, 
businesses, factories and vehicles. Wilson's argument is a red herring.
Conclusions
    Wilson's call for a broader definition of asbestos is something the 
bill should and can do. NIOSH is also proposing an expanded definition 
in its recently released draft report, ``Asbestos and Other Mineral 
Fibers: A Roadmap for Scientific Research.'' \20\ However, because such 
a massive research project can be misused, it is imperative that your 
bill require strict oversight of the NIOSH research. This could be 
accomplished by the appointment of an unbiased congressional committee 
to review the progress of this research, which should be conducted 
through a transparent, unbiased, scientifically valid process.
---------------------------------------------------------------------------
    \20\ Middendorf P, Zumwalde R, Castellal R, 2007. Asbestos and 
Other Mineral Fibers: A Roadmap for Scientific Research. February, 
Department of Health and Human Services, Centers for Disease Control 
and Prevention, National Institute for Occupational Safety and Health.
---------------------------------------------------------------------------
    I would also point out the need for more research into the 
substitutes for asbestos to assure that they pose no harm. One review 
of such an approach to substitutes can be found in the 1999 Commentary 
by Harrison et al., in which the authors examine the European 
perspective for substitutes for chrysotile asbestos.\21\
---------------------------------------------------------------------------
    \21\ Harrison PCT, Levy LS, Patrick,G, Pigott GH, Smith LL, 1999. 
Commentary: Comparative Hazards of Chrysotile Asbestos and Its 
Substitutes: A European Perspective. Environl Health Persp, 107 (8): 
607-611, August.
---------------------------------------------------------------------------
    I propose you weigh the scientific record documenting the dangers 
of asbestos, evaluate the public health merits of ending its use, 
consider what other advanced nations have chosen, and take the proper 
action to further eliminate the risks of continued asbestos use in the 
United States. By banning asbestos, the United States will continue its 
role in helping those less scientifically developed nations make sound 
scientific and public health decisions, while taking a major step to 
prevent further asbestos-related disease and death many Americans would 
otherwise experience from the continued use of asbestos.
    If I can be of any assistance please do not hesitate to contact me. 
I enjoyed working with you in the early stages of drafting this 
legislation, and I offer my professional experience and technical 
expertise to you and your staff. Thank you for your longstanding 
commitment to ensuring that asbestos is banned in the United States 
once and for all.
            Sincerely,
                                   Richard A. Lemen, Ph.D.,
                            Assistant Surgeon General, USPHS (ret),
                                 Former Deputy and Acting Director,
             National Institute for Occupational Safety and Health.
     Center for Applied Studies of the Environment,
                                   New York, NY 10016-4309,
                                                     March 8, 2007.
Hon. Patty Murray,
Chairperson,
Subcommittee on Employment and Workplace Safety,
U.S. Senate,
Washington, DC 20510-4701.
Hon. Johnny Isakson,
U.S. Senate,
Washington, DC 20510-4701.

Re: Senate Bill (S. 742) to Ban Asbestos in America Now

    Dear Senators Murray and Isakson: First, we appreciate the 
opportunity for submission of post-hearing comments regarding a 
proposed bill to asbestos in the United States. Attached please find 
our post-hearing comments which provide supplemental and related 
information to the presentations and comments made during the March 1, 
2007 hearing. We respectfully request your thorough consideration of 
our comments and scientific references. For your convenience, we list 
below the primary issues that are covered in our comments:
    1. There is no global consensus that chrysotile asbestos should be 
banned. The majority of countries have a controlled use policy. The 
United States consumes less than a 0.1 percent of the world chrysotile 
asbestos production using it to fabricate products which have not been 
shown to release measurable amounts of airborne asbestos.
    2. Risk assessment from the controlled use of chrysotile asbestos 
indicates the lifetime risk from asbestos related diseases would be 
about 75-fold below the upper limit EPA claims to regulate. We did not 
do risk assessments for the more dangerous amphibole asbestos fiber-
types as they are no longer used in commerce.
    3. The definition of asbestos used in the ban asbestos bill is not 
specific for asbestos but includes types of mineral fibers which are 
not asbestos and commonly occur. The Occupational Safety and Health 
Administration have already made a finding that these ``new asbestos 
minerals'' should not be regulated as asbestos. The bill calls for 
banning mineral ores if these ``new asbestos minerals'' are present at 
any concentration. These would create an asbestos problem in a 
significant percentage of U.S. mining operations for no rational public 
health purpose.
    If you have any questions or need additional information please 
feel free to contact me.
            Cordially,
                                    Robert P. Nolan, Ph.D.,
                                                   Deputy Director.
                                 ______
                                 
 Post-Hearing Comments of R.P. Nolan, Ph.D., A.M. Langer, Ph.D, and M. 
            Ross, Ph.D., J Dunnigan, Ph.D., and J. Addision

    We appreciate Senators Murray and Isakson's willingness to have the 
record remain open for an additional week to allow for the submission 
of post-hearing comments.
      specific comment on issues discussed at the senate hearings
    There is no global consensus that asbestos must go. We have 
reviewed the information available and there exists a scientific basis 
for a public policy that allows for the controlled use of chrysotile 
asbestos to continue. The asbestos ban in the European Union did not 
provide the substantial evidence that the 5th Circuit Court of Appeals 
felt was missing when it remanded the EPA's proposed asbestos ban in 
1991. Nor did we see such evidence offered at the March 1st Senate 
hearings and we continue to believe the available evidence does not 
support claiming that an unreasonable risk of injury is associated with 
the controlled use of chrysotile asbestos.
    The European Union has a population of 475,000,000 people living in 
25 countries representing about 7 percent of the world's population. In 
excess of 2,000,000 tons of chrysotile asbestos continues to be used in 
the countries which have chosen not to ban asbestos. Without 
considering the views of just five such countries--China, India, 
Mexico, Brazil and Russia--representing about 2.7 billion people (40 
percent of the world's population) a consensus cannot be formed and 
their decision not to ban is consistent with that of the United States 
5th Circuit Court of Appeals.
    There is much in the record about the use of asbestos-containing 
friction products and cement building materials. During the March 1st 
hearing, it was stated that the United States currently imports ``over 
$120 million worth a year'' of brake linings and pads that are made 
with asbestos along with other asbestos-containing products. These 
assertions simply were not proven. The import statistics, as developed 
by the U.S. Census Bureau, and published by the U.S. Geological Survey 
(Table 1), ``U.S. Imports of Products with Basis of Asbestos, 
Cellulose, or Other Minerals in 2006'' only actually show the amount of 
chrysotile asbestos imported from Canada into the United States (2,230 
metric tons).
    All of the other categories of imported products are identified as 
may or may not contain asbestos. A variety of minerals and not just 
asbestos are included in Table 1 as imported products. And, the source 
of the products listed for import includes a number of countries that 
have banned asbestos, e.g., Australia, Finland, Denmark, Chile, United 
Kingdom, France, and Germany among them, further indicating these are 
likely to be non-asbestos products.
    Another significant issue is that some of these products that may 
contain asbestos, are imported into the United States and trans-shipped 
to other countries for use. Hence, any ban asbestos legislation should 
examine the potential impact on international trade.
    The information available about the extent to which asbestos 
continues to be used in friction products and cements is anecdotal and 
we should focus on the asbestos-containing products that we know are 
used in commerce. We can address concerns about the products of unknown 
composition when and if such information becomes available. Issues rose 
at the hearings (about the use of asbestos-containing friction products 
and cement building materials) that can be addressed by the current 
Occupational Safety and Health Administration (OSHA) asbestos 
regulations.
    If these imported asbestos-containing products do not have warning 
labels concerning asbestos content as are currently required then this 
matter needs to be addressed by the appropriate government agency. If 
the asbestos permissible exposure limits (PEL) are being exceeded (as 
Mr. Thayer has alleged for the Capitol tunnel workers), these 
situations can be remedied immediately within the current laws. A ban 
on asbestos will not remedy these situations. The 5th Circuit commented 
that poor enforcement of the existing asbestos regulations cannot be 
used as a justification for an asbestos ban, a position placed in the 
record at the hearings.
    We do not believe the record supports arguing for an asbestos ban 
on the basis of asbestos-containing brake shoes and lining and 
asbestos-cement sheet which might be coming into this country unlabeled 
and improperly used. When asbestos is added to these products in the 
21st Century it is certain to be chrysotile asbestos as the amphibole 
asbestos fiber-types have left commerce. We believe that the controlled 
use of chrysotile asbestos does not present an unreasonable risk of 
injury. We urge your close attention to the attached annotated 
bibliography of scientific evidence regarding the issue of asbestos in 
automotive products (Appendix I).
    We find the World Bank's effort to avoid the use of asbestos-cement 
materials in the post-tsunami reconstruction of Indonesia to be without 
a compelling foundation. Many substitute materials have been referred 
to in these hearings and in other places as safe (and safer) than using 
chrysotile asbestos. No evidence has been offered to support this 
assumption. Is there medical and scientific evidence to indicate that 
the asbestos substitutes (at the levels of exposure which are likely to 
occur) are safer than exposure to chrysotile asbestos at the current 
U.S. permissible exposure level? If such information is available it 
should be provided. We do not believe such evidence exists.
    The 5th Circuit also commented that there are carcinogenic risks 
associated with the substitutes for asbestos cement pipe such as vinyl 
chloride and ductile iron but the EPA refused to assess the risks of 
substitutes for asbestos cement pipe. When addressing friction products 
the Court noted unanswered questions about the safety of non-asbestos 
friction products when retro fixed to vehicles designed for asbestos 
friction products. In addition, they were concerned about the lack of 
toxicology testing for the substitute materials. We would argue that 
the health effects associated with the controlled use of chrysotile 
asbestos are very well understood making the use of untested 
substitutes problematic as exposure to the substitutes may present 
unknown health hazards.
    It is without question that asbestos-related diseases and 
mesothelioma in particular are life threatening at best and painfully 
fatal at worst. The record does not reflect the point that all the 
diseases commonly associated with excess asbestos exposure (asbestosis 
(pulmonary fibrosis), mesothelioma and lung cancer) also occur in those 
with little background asbestos exposure. However, asbestos exposure 
does increase the frequency with which the malignant diseases occur but 
is not the only recognized cause of these diseases.
    First the background. There is a natural background level for 
asbestos in the ambient which is predominantly chrysotile asbestos. It 
has been found in the air on remote Pacific islands where no naturally 
occurring asbestos is present and in ice cores collected from both the 
Artic and Antarctic ice caps. Analysis of deep ice cores indicates 
chrysotile asbestos was airborne in both hemispheres prior to the 
commercial use of these minerals in the late 19th Century (Nolan et al. 
2007).
    Exposure to low levels of airborne asbestos is an unavoidable 
consequence of living on the Earth. We know of no one who has argued 
that these background levels of chrysotile asbestos from environmental 
exposure are associated with increases in asbestos-related disease. 
However, some environmental exposures to airborne amphibole asbestos 
(in certain geological locales) have caused mesothelioma and other 
asbestos-related diseases (Browne and Wagner 2001). Because these 
exposures are environmental do not assume they are associated with low 
cumulative asbestos exposures.
    We would argue that background levels of airborne chrysotile 
asbestos are clearly safe rather than the more pessimistic view in ``no 
known safe level for asbestos'' given as a finding in the draft bill. 
There are background rates and other causes for all the diseases 
associated with the inhalation of asbestos, but we are all exposed to 
asbestos and will continue to be even if a ban is implemented. Only 
certain types of exposure (often to specific asbestos fiber-types) have 
been epidemiologically associated with an increased risk of developing 
an asbestos-related disease (Hodgson and Darnton 2000, Browne and 
Wagner 2001, Nolan et al. 2001, Price and Ware 2004). These for the 
most part have involved exposure to amphibole asbestos fiber-types.
    Secondly, when the diffuse interstitial fibrosis usually associated 
with asbestosis occurs in the absence of excess asbestos exposure, it 
is called idiopathic pulmonary fibrosis. The word idiopathic means 
arising spontaneously or from an obscure or unknown cause. Asbestosis 
and idiopathic pulmonary fibrosis are pathologically so similar that 
the presence of asbestos (or asbestos bodies) in the pulmonary tissue 
is often the only differentiating feature. Idiopathic fibrosis may well 
have been the cause of New York City Police Officer Cesar A. Borja's 
death earlier this year on January 23rd.
    Although Officer Borja may have had some asbestos exposure due to 
the events of 9/11 his pulmonary fibrosis is more likely to have been a 
pre-existing idiopathic fibrosis (New York Times, 2007, Nolan et al. 
2005). The cause of this officer's death was widely mischaracterized in 
the electronic and print media as clearly 9/11-related and illustrates 
how poorly significant details concerning these types of cases are 
communicated to the general public by the media and taken up by the 
highest levels of government.

    BANNING NON-ASBESTOS MINERALS ALONG WITH THE REGULATED ASBESTOS 
                                MINERALS

    The definitions used in the bill are problematic in that it bans 
asbestos in any concentration from any material. Commercially viable 
deposits of amphibole asbestos minerals are very rare with only about 5 
geological locales (South Africa, Australia, India, Finland and 
Bolivia) in the world where significant mining has taken place. All of 
these commercial amphibole asbestos mining operations are now closed. 
However, amphiboles are one of the most common silicates with an 
abundance of 5 percent by volume in the earth's crustal rocks 
(Wedepohl, 1971).
    Crushing non-asbestos amphibole minerals gives rise to prismatic 
cleavage fragments that morphologically resemble asbestos (Langer et 
al. 1991). Some have claimed exposure to these fragments present a risk 
of developing asbestos-related diseases. Because of the frequency of 
the occurrence of amphibole minerals virtually every crushed 
crystallized rock will yield cleavage fragments that might be 
mischaracterized as asbestos.
    The Occupational Safety and Health Administration held rulemaking 
hearings on whether cleavage fragments and other non-asbestos fibers 
should be included in the asbestos standard based mainly on their 
morphological similarity to asbestos. The results of that rulemaking 
were published in the Federal Register in 1992. OSHA concluded that 
sufficient evidence exists to demonstrate that the non-asbestos 
amphibole fibers (cleavage fragments) present less of a health hazard 
than asbestos and did not belong in the asbestos standard (Nolan et al. 
1991). OSHA further concluded that the bulk concentrations of such 
fibers are generally very low as are their airborne concentrations.
    The language in the proposed ban bill defines non-asbestos fibers 
as asbestos; this error could potentially lead to regulatory action 
that carries no public health benefit. Furthermore two amphiboles 
(richterite, winchite) and a zeolite mineral (erionite) are 
specifically listed as if they were asbestos minerals. These three 
minerals, as defined, are not asbestos and do not belong in a bill 
banning asbestos. Richterite and winchite, both amphiboles, can occur 
as massive non-asbestos minerals, only in Libby, Montana and in some 
deposits in Texas have these minerals occurred in asbestiform and the 
distinction is critical. The desire to re-define non-asbestos minerals 
as asbestos with the goal of regulating them as asbestos is not an 
acceptable scientific approach to regulatory policy that OSHA 
specifically noted in their rulemaking. Interestingly for some reason, 
chrysotile asbestos is not specifically mentioned in this part of the 
bill.
    The definition used in the ban asbestos bill for a mineral fiber 
fails to take note of the fact that although all asbestos particles are 
fibers the converse is not true. All fibers are not asbestos. Fibers 
occur in nature with 3 to 1 aspect ratios which are not asbestos. The 
bill calls for the banning of acicular fibers which are not asbestos 
and commonly occur in ore deposits. The fiber definition is poorly 
crafted. It does not include the criterion that the banned fibers 
should be respirable and of a specified length (5 microns or greater) 
but simply gives just an aspect ratio of length to width.
    If passed with the current definition the bill would create an 
entire new class of asbestos minerals and ban them at the same time. 
The bill should restrict itself to the 6 minerals currently regulated 
as asbestos and conform to the accepted mineralogical definition of 
asbestos and abandon the ``make it up as you go approach'' (Ross et al. 
1984, Langer et al. 1991). It should also reflect the current OSHA 
definitions and counting strategy employed for characterizing the 
occupational environment.

   BANNING THE USE OF ORE DEPOSITS WHICH CONTAIN TRACES OF ASBESTOS 
                                MINERALS

    Commercial ore deposits do occur in the United States which contain 
limited horizons where regulated asbestos minerals occur. By following 
the Mine Safety and Health Administration asbestos regulations these 
areas can currently be mined if the asbestos exposures are controlled. 
The seams of asbestos which occur in folded and dilated rock can be 
surprisingly limited but have been reported (Ross and Nolan 2003).
    A risk assessment was undertaken for just such a case where 
grunerite asbestos (an amphibole also called amosite) was present in a 
limited area of a non-asbestos ore body (Nolan et al. 1999). The 
lifetime risk for the miners of developing an asbestos-related disease 
was equivalent to smoking a few cigarettes over their entire lifetime. 
Banning the controlled use of asbestos may very well limit our Nation's 
ability to operate many U.S. mining operations and limit or halt the 
development of new projects. Some of these involve strategic materials.

                        PUBLIC EDUCATION PROGRAM

    If asbestos is banned the call for a public education program would 
seem to be moot. If we banned cigarettes would we need to have a 
program to tell people not to smoke? The dangers of asbestos are widely 
known to the general public and with a ban; exposure to asbestos in 
place would seem the only remaining issue. This would involve mainly 
the building trades which are already aware of the hazards of asbestos, 
and asbestos abatement practices are already highly developed. Many of 
the issues raised in this part of the bill either no longer occur or 
would be eliminated by the ban. The public education program requires 
re-thinking.

                  PROGRAM FOR ASBESTOS-CAUSED DISEASE

    The bill calls for the annual expenditure of $10 million for 
creating 10 research centers focusing on the treatment of diseases 
caused by asbestos. We recommend the inclusion of a basic science 
center among the 10 proposed, to focus on the properties of minerals 
which impart biological activity. A laboratory should include the 
collection and study of mineral content within the lung and other 
tissues. And the inclusion of epidemiologist and biostatisticians to 
critically evaluate patterns of morbidity and mortality among defined 
cohort.

    RISK ASSESSMENT FOR ASBESTOS-RELATED CANCER AT THE CURRENT OSHA 
           PERMISSIBLE EXPOSURE LIMIT FOR CHRYSOTILE ASBESTOS

    Lung cancer and mesothelioma--both occur in the absence of asbestos 
exposure (Price and Ware, 2004). The most common cause of lung cancer 
is cigarette smoking and the risk of lung cancer can be increased by 
asbestos exposure.

    Risk assessment can be used to understand the extent of asbestos-
related disease we should expect with controlled use of chrysotile 
asbestos.

    We will start by calculating the asbestos-related lung cancer 
deaths in the United States from controlled use of chrysotile asbestos. 
There are approximately 2.5 million deaths in the United States 
annually and let us assume they are all non-smokers. We wish to 
discourage smoking as it is an important public health problem (Table 
2).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Our goal is to calculate the increase in the observed number of 
lung cancers (Obs<INF>L</INF>). Approximately 2.5 million people die 
each year in the United States and we will assume that 5 percent (or 
125,000) were exposed for 25 years at the current asbestos exposure 
standard of 0.1 f/ml.

    Exp<INF>L</INF>--Expected background of lung cancer deaths in the 
125,000 deaths among non-smokers would be 0.8 percent or 1,000 non-
smoking related lung cancers.
    R<INF>L</INF>--Risk of lung cancer expressed as a percentage of 
lung cancer deaths per f/mL x years of asbestos exposure. The RL used 
is 0.062 obtained from Hodgson and Darnton (2000) (their Table 2) and 
is specific for chrysotile asbestos.
    E<INF>CA</INF>--The cumulative asbestos exposure is 2.5f/ml x years 
from 25 years of chrysotile asbestos exposure at the current asbestos 
PEL of 0.1f/ml x years.

    Using these values the Obs<INF>L</INF> for 125,000 deaths of non-
smokers with 25 years of controlled chrysotile asbestos exposure is 
1,001.5 where 1,000 lung cancers are background among non-smokers and 
1.5 asbestos-related lung cancers. We will assume 2 asbestos-related 
lung cancers in this group and 1,000 background cases of unknown 
cause(s). If the entire population smoked the asbestos-related lung 
cancers would increase by 10-fold greater to 15 asbestos-related lung 
cancer cases while the number of smoking related lung cancers would be 
10-fold above background or 10,000 cases, making the total observed 
10,015 lung cancer cases. Even among smokers the increase in lung 
cancer risk from small cumulative asbestos exposures over a working 
lifetime of 25 years is small (Figure 1).
    The number of mesotheliomas from the controlled use of chrysotile 
asbestos in the 2.5 million deaths each year can also be calculated. 
The number of asbestos-related mesotheliomas (O<INF>M</INF>) depends on 
the type of asbestos one is exposed to, the cumulative exposure and the 
age at which exposure first occurs (mesothelioma is independent of 
smoking) and can be calculated by:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Where:

    R<INF>M</INF>Risk of mesothelioma as a percentage of the total 
expected mortality (rather than the relative risk used in asbestos-
related lung cancer). The R<INF>M</INF> used, 0.001 is obtained from 
Hodgson and Darnton (2000) (their Table 1) (adjusted to 30 years of age 
at first exposure) and over estimates the chrysotile asbestos risk as 
some exposure to amphibole asbestos occurred in the cohorts used to 
determine the value of R<INF>M</INF>.
    E<INF>CA</INF>--The cumulative exposure to chrysotile asbestos is 
2.5 f/ml x years obtained by assuming 25 years of occupational asbestos 
exposure at the current OSHA PEL of 0.lf/ml, identical to what we 
assume for the lung cancer calculation given above.
    Tpop--Here we will assume 5 percent of the 2.5 million deaths each 
year are exposed at the cumulative asbestos exposure of 2.5 f/ml x 
years making the total population at risk 125,000.

    Solving for O<INF>M</INF>:

    O<INF>M</INF>=3.1 mesothelioma cases or approximately 3 additional 
mesothelioma deaths from the controlled use of chrysotile asbestos 
among 2.5 million deaths each year.
    If we assume that 5 percent of the 2.5 million deaths which occur 
in the United States each year are exposed for 25 years at the current 
asbestos exposure standard there would be 2 additional lung cancer 
deaths (in the absence of smoking) and 3 asbestos-related mesotheliomas 
from the controlled use of chrysotile asbestos at the current 
Occupational Safety and Health Administration permissible exposure 
level. It is important to note that these asbestos-related cancers are 
based on mathematical calculations and may not actually occur. The 
linear no threshold model is the most pessimistic (predicting greater 
disease incidence) in that it is designed to be the most protective for 
the workers. We know of no scientist who has expressed an opinion to 
the contrary. No one knows if there is a threshold and at these low 
cumulative asbestos exposures there may be no increased cancer risk our 
calculation represents a worst case scenario.

    The five asbestos-related cancers would occur in 2.5 million deaths 
or 0.2 asbestos-related cancer deaths per 100,000 lifetimes (see Table 
1 for a list of comparative risks). The available scientific evidence 
does not support the claim that controlled use of chrysotile asbestos 
presents an unreasonable risk of injury. With good industrial hygiene 
practices the risk of injury from a controlled use of asbestos policy 
compares favorably, or is lower by orders of magnitude, with other 
risks that society accepts (Nolan et al. 2001).

    Currently there are approximately 2,500 mesothelioma deaths in the 
United States. Among the 2.5 million deaths each year the 2,500 
mesotheliomas account for 0.1 percent of the mortality (Price and Ware 
2004). The 2,500 mesotheliomas currently occurring each year in the 
United States does not occur equally among males and females but rather 
about 2,000 occur in males and 500 in females. The difference indicates 
that males are exposed in occupational environments where females work 
less frequently and where exposures leading to mesothelioma occur more 
commonly. The three mesotheliomas related to the controlled use of 
chrysotile would increase the total number of mesotheliomas to 2,503 an 
increase of about 0.1 percent of the mesothelioma mortality.
    We do not know if all the difference in mesothelioma incidence 
between the sexes is asbestos-related but let us assume the 1,500 
mesothelioma differences is all asbestos exposure related for our 
analysis and none of the female mesotheliomas are asbestos-related. The 
background for mesothelioma in the United States would be about 1,000 
cases per year or 0.04 percent (1,000 mesotheliomas in 2.5 million 
deaths) once the incidence among the sexes becomes equal eliminating 
the asbestos-related mesotheliomas (which is happening, Weill et al. 
2004). The three additional mesothelioma cases from the controlled use 
of chrysotile asbestos would be 0.00012 percent (3 mesotheliomas in 2.5 
million deaths) 300-fold lower than background. Such results could 
never be observed but only calculated using risk assessment.
    The increased mortality for asbestos-related cancer at the current 
permissible exposure level of asbestos would be less than 5 deaths per 
year among the 2.5 million Americans who die each year or about 2 
asbestos-related cancers per million deaths. This number is so low that 
these deaths can never be observed using epidemiological methods but 
can only be calculated using risk assessment. We reject the claim that 
``asbestos is unpredictably dangerous'' some individuals may not 
understand how to describe the risk but asbestos-related cancers are 
among the most predictable of all the forms of human cancer (Hodgson 
and Darnton 2000, Yarborough 2006). Comparison with other risks is 
often useful in understanding if 2 asbestos-related cancers per million 
is an unreasonable risk of injury (see Table 2 for a list of 
comparisons).
    Also assuming 5 percent of the population will be exposed to 
sufficient asbestos throughout their lives to have a cumulative 
exposure of 2.5f/ml x years is pessimistic and the actual number of 
people with exposure this high is most likely to be much lower. And, 
conversely we expect few scientists would argue that more than 5 
percent of the population has a higher exposure.
    The alleged 10,000 asbestos-related deaths per year reported as a 
finding in the bill is questionable and the 1,700-3,000 cancers per 
year in Professor Wilson's testimony is largely related to the past 
high exposure and to the use of the much more dangerous commercial 
amphibole asbestos minerals.

    Do not let the small number of Asbestos-Related Cancer expected 
from the Controlled use of Chrysotile Asbestos conceal the Problems 
Uncontrolled Asbestos Exposure can Cause.

    If the 2.5f/ml years were to crocidolite asbestos the expected 
number of mesotheliomas would be 500-fold higher or 1,550 cases which 
is approximately the current number of excess mesotheliomas among males 
in the United States. Assuming the risk of lung cancer increases 
linearly with exposure, the very high historical exposure led to very 
high increase in the risk of lung cancer and mesothelioma. Twenty-five 
years of asbestos exposure at the 1971 asbestos exposure limit of 12f/
ml would lead to a cumulative exposure of 300 f/ml x years compared 
with 2.5 f/ml x years by the current standard making the lung cancer 
risk 120-fold higher. Historical chrysotile asbestos exposures could be 
50f/ml or greater and the work week much longer than today leading to 
very high increases in lung cancer mortality far beyond what would be 
expected from smoking alone (Figure 1 & 2). The regulations controlling 
asbestos exposure were designed to reduce these risks and we would 
argue that they have been successful.
    The Federal regulatory and research agencies in the United States 
have not developed risk assessments for the specific asbestos fiber-
types and often calculate the risk for the asbestos-related cancer as a 
single risk including both lung cancer and mesothelioma. This does not 
reveal the important role cigarette smoking has in asbestos-related 
lung cancer and averages the mesothelioma potency of the various 
asbestos fiber-types. The departure of the amphibole asbestos minerals 
from commerce made this approach obsolete. There are also similarities 
between Hodgson and Darnton (2000) and the Federal asbestos risk 
assessments. A linear no threshold exposure response assumes any 
exposure, no matter how small, increases the risk of developing 
asbestos-related cancer. However, very small exposures cause very small 
increases in asbestos-related cancer risk, a risk comparison table and 
exposure-response curve can enhance our understanding of this (Table 2, 
Figure 1).

    Now that commercial amphibole asbestos is no longer in the 
marketplace, we can find no scientific basis to justify a public policy 
banning the controlled use of chrysotile asbestos.

     R.P. Nolan, Ph.D., A.M. Langer, Ph.D. & M. Ross Ph.D.,
                                  Earth and Environmental Sciences,
                                    Graduate and University Center,
                      The City University of New York, New York, NY

                                        J. Dunnigan, Ph.D.,
                                               Professor Titulaire,
                                              Faculte des Sciences,
                              Universite de Sherbrooke, QC, Canada.

                                                J. Addison,
                                     John Addison Consultancy Ltd.,
                             Cottingham, Yorkshire, United Kingdom.

References

Browne K, Wagner JC. Environmental Exposure to Amphibole-Asbestos and 
    Mesothelioma. In: RP Nolan, AM Langer, M Ross, FJ Wicks & RF 
    Martin, editors. The Health Effects of Chrysotile Asbestos: 
    Contribution of Science to Risk-Management Decision. Canadian 
    Mineralogist Special Publication 5 5:21-28, 2001.

Federal Register 57: 24310, June 8, 1992.

Hodgson JT, Darnton A. The quantitative risk of mesothelioma and lung 
    cancer in relationship to asbestos exposure. Annals of Occup Hyg; 
    44: 565-601, 2000.

Langer AM, Nolan RP, Addison J: Distinguishing between amphibole 
    asbestos fibers and elongate cleavage fragments of their non-
    asbestos analogues. In: NATO Advanced Research Workshop on 
    Mechanisms in Fibre Carcinogenesis. R.C. Brown, J. Hoskins, N. 
    Johnson (eds) (Plenum, New York), pp. 253-267, 1991.

New York Times; Weeks After a Death, Twist in Some 9/11 Details. Chan 
    S, Baker A, February 13, 2007.

Nolan RP, Langer AM, Oechsle GW, Addison J, Colflesh DE: Association of 
    Tremolite Habit with Biological Potential: Preliminary Report. In: 
    Mechanism of Fibre Carcinogenesis. Brown RC, Hoskins JA, Johnson NF 
    (eds) (Plenum, New York), pp 213-251, 1991.

Nolan RP, Langer AM, Wilson R: A Risk Assessment for Exposure to 
    Grunerite Asbestos (amosite) in an Iron Ore Mine. Proceedings of 
    the National Academy of Sciences 96: 3412-3419, 1999.

Nolan RP, Langer AM, Ross M, Wicks FJ, Martin RF (eds): Health Effects 
    of Chrysotile-Asbestos: Contribution of Science to Risk Management 
    Decisions. Canadian Mineralogist Special Publication 5, pp. 1-304, 
    2001.

Nolan RP, Ross M, Nord GL, Axten CW, Osleeb JP, Domnin SG, Price B, 
    Wilson R. Risk Assessment for Asbestos-Related Cancer from the 9/11 
    Attack on the World Trade Center. J Occup Environ Med 47: 817-825, 
    2005.

Nolan RP, Langer AM, Ross M, Addison J, Gee JBL. Non-Occupational 
    Exposure to Commercial Amphibole Asbestos and Asbestos-Related 
    Disease: Is there a Role for Grunerite Asbestos (Amosite)? 
    Proceedings of the Geologists' Association 118:117-127, 2007.

Price B, Ware A. Mesothelioma Trends in the United States: An Update 
    based on SEER data for 1973 through 2003. Amer JEpidem 159: 107-
    112, 2004.

Ross M, Kuntze RA, Clifton RA: A Definition for Asbestos. Special 
    Technical Publication 834. American Society for Testing Materials, 
    pp. 139-147, 1984.

Ross M, Nolan, RP: History of Asbestos Discovery and Use and Asbestos-
    Related Disease in Context with the Occurrence of Asbestos within 
    Ophiolite Complexes. Geological Society of America, Special Paper 
    373: 447-470, 2003.

Wedepohl KH (1971) Geochemistry, Holt, Reinhart and Winston, New York.

Weill H, Hughes JM, Churg AM: Changing Trends in US Mesothelioma 
    Incidence. Occupational Environmental Medicine 61: 438-441, 2004.

Yarborough CM: Chrysotile as a Cause of Mesothelioma: An Assessment 
    Based on Epidemiology. Critical Reviews in Toxicology 36:165-187, 
    2006.
Table 1.--From U.S. Geological Survey (2006) Annual Asbestos Commodity 
                                 Report
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  Table 2.--Risk of Death in a Lifetime for Some Selected Environmental
                             ExposuresSec.
------------------------------------------------------------------------
                                                               Lifetime
                                                               Risk per
                                                               100,000
------------------------------------------------------------------------
Cigarette Smoking (lung Cancer only).......................        8,000
U.S. air pollution (calculated deaths from Assumed                 2,000
 correlation)..............................................
U.S. Motor Vehicle accidents:
    All Deaths.............................................        1,200
    Pedestrian Deaths......................................          100
U.S. home deaths:
    All....................................................          600
    Falls (mostly over age 65):............................          200
U.S. Natural Radiation background at sea level: (cancers)            200
 excluding radon gas.......................................
Person living with a smoker................................          100
Drowning deaths (non-transport caused).....................           80
Person living in a brick building (added natural radiation)           70
One transcontinental round-trip flight per year:
    Accident...............................................           15
    Cosmic Rays............................................           15
Upper Limit EPA Claims to Regulate.........................           15
Falling Meteorite..........................................           15
Struck by a Failing Airplane Part..........................          0.4
Smoking three cigarettes in a lifetime.....................          0.3
U.S. population risk from controlled use of chrysotile       0.02<dagger
 asbestos..................................................            >
Mining a limited seam of amphibole asbestos in a non-          0.05Sec.
 asbestos mine.............................................
------------------------------------------------------------------------
Sec.  Adopted from Nolan RP, Langer AM, Wilson R: A Risk Assessment for
  Exposure to Grunerite Asbestos (amosite) in an Iron Ore Mine.
  Proceedings of the National Academy of Sciences 96: 3412-3419, 1999.
<dagger> For the chrysotile asbestos exposed sub-population (of 5
  percent) this risk would be 20-fold higher.

  <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
  <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
  
                               appendix i
                issue of asbestos in automotive products
    Nowhere in the hearing record is there a distinction between 
chrysotile asbestos-containing automotive products and those containing 
amphibole types of asbestos.
    This particular absence blatantly rejects the credibility of meta-
analysis reviews on the health risks to workers manufacturing friction 
materials and to workers employed in brake servicing (Paustenbach et 
al. Environmental and occupational health hazards associated with the 
presence of asbestos in brake linings and pads (1900 to present): A 
``state-of-the-art'' review. Journal of Toxicology and Environmental 
Health--Part B--Critical Reviews 7: 33-110). In this review, the 
authors concluded that no increase in risk was detected, except in 
those workers that have been exposed to mixtures containing amphiboles.
    The following peer-reviewed studies from other sources are 
relevant, such as:

    Blake, CL Dotson, GS Harbison RD: Assessment of airborne asbestos 
exposure during the servicing and handling of automobile asbestos-
containing gaskets. Regulatory Toxicology and Pharmacology, 45: 214-222 
2006.

        In this paper, the authors state that--The mean PCM and phase 
        contrast microscopy equivalent (PCME) 8-h time weighted average 
        (TWA) concentrations for these samples were 0.0031 fibers/cubic 
        milliter (/ml) and 0.0017 f/ml, respectively. Based on these 
        findings, automobile mechanics who worked with asbestos-
        containing gaskets may have been exposed to concentrations of 
        airborne asbestos concentrations approximately 100-fold lower 
        than the current Occupational Safety and Health Administration 
        (OSHA) Permissible Exposure Limit (PEI) of 0.1 f/ml.

    Newhouse, ML, Sullivan KR: A mortality study of workers 
manufacturing friction materials: 1941-86. British Journal of 
Industrial Medicine 46(3): 176-179, 1989.

    The study referred to in 5898 has been extended by 7 years. The 
authors confirm that there was no excess of deaths from lung cancer or 
other asbestos related tumors, or from chronic respiratory disease. 
After 1950, hygienic control was progressively improved at this 
factory, and from 1970, levels of asbestos have not exceeded 0.5-1.0 f/
ml. The authors conclude: ``It is concluded that with good 
environmental control, chrysotile asbestos may be used in manufacture 
without causing excess mortality.''

    Berry G, Newhouse, M.L: Mortality of workers manufacturing friction 
materials using asbestos. British Journal of Industrial Medicine 40(1): 
1-7, 1983.

        A mortality (1942-80) study carried out in a factory producing 
        friction materials, using almost exclusively chrysotile. 
        Compared with national death rates, there were no detectable 
        excess of deaths due to lung cancer, gastrointestinal cancer, 
        or other cancers. The exposure levels were low, with only 5 
        percent of men accumulating 100 fibre-years/ml. The authors' 
        state: ``The experience at this factory over a 40-year period 
        showed that chrysotile asbestos was processed with no 
        detectable excess mortality.''

    To our knowledge, none of these publications have ever been 
challenged through the normal accepted channel used in peer-reviewed 
journals by the scientific community, that is: by submitting opposing 
views or critique in a commentary under Letter to the Editor.
                                 ______
                                 
                      Never Again Consulting, Inc.,
                            Attleboro, Massachusetts 02703,
                                                     March 8, 2007.
Ms. Janice Camp,
Committee on Health, Education, Labor, and Pensions,
Subcommittee on Employment and Workplace Safety,
U.S. Senate,
Washington, D.C. 20510.
Re: Comments on Hearing On Banning Asbestos In America

    Dear Ms. Camp: I am submitting the following comments to be added 
to the record of the hearing on asbestos, held on March 1, 2007.
    I am primarily responding to the testimony of physicist Dr. Richard 
Wilson. There are some crucial points that must be made in response to 
the question Dr. Wilson posed, ``What has changed [since 1991] to 
justify the U.S. Senate's bill to ban asbestos now?'' He argues that 
since amphibole asbestos use has decreased dramatically, the necessity 
to ban all asbestos products is no longer present. There are two 
fundamental flaws to this argument.
    1. Amphibole asbestos that was used in the United State has not 
disappeared. Much of this asbestos remains on pipes (as in the Capitol 
tunnels) and in building structures (it was often sprayed on structural 
steel). As such, workers and members of the public are continuously 
exposed to this form of asbestos.
    2. Chrysotile asbestos causes mesothelioma and when combined with 
amphibole exposure, it is as equally potent as amphiboles as a cause of 
mesothelioma.
    Chrysotile asbestos is an undisputed cause of asbestosis and lung 
cancer.\1\ \2\ \3\ Chrysotile fibers are the most common fiber found at 
the proverbial scene of the crime--the pleura or the lining of the 
lung. These fibers are concentrated within the pleura of mesothelioma 
patients.\4\ \5\ In fact, many mesothelioma patients have documented 
exposure to chrysotile only, as evidenced by tissue burden analysis.\4\ 
\5\ \6\ Furthermore, those with exposure to chrysotile and amphiboles 
have double the rate of mesothelioma than those exposed to amphiboles 
alone.\7\ \9\ This information is especially important because 
scientists have long recognized the fact that chrysotile utilized 
within the United States contains the tremolite form of amphibole 
fiber.\6\ Processing does not remove tremolite from chrysotile. Dr. 
William Longo has examined a variety of finished chrysotile products 
and found that all of them contain some measure of tremolite 
contamination.\10\ \12\
    While it is certainly true that occupational safety procedures have 
decreased the threat that asbestos once posed, it is misleading to 
think that the threat has passed completely. There is no documented 
threshold limit below which asbestos exposure is not known to cause 
cancer. OSHA limits can only be so effective, and many subcontractors 
and small businesses are not adequately protected by occupational 
safety measures. In discussing the historical decrease in asbestos use, 
Dr. Wilson has, in fact, answered his own question. When the courts 
overruled the EPA ban on asbestos, the reasoning was based upon the 
projected cost of replacing asbestos use. Since today's usage is 
significantly lower than 16 years ago, the costs of banning asbestos 
are also much lower. Replacements for asbestos products exist. The 
economic strain predicted by the courts is no longer a great threat 
when compared to the costs of healthcare for asbestos-related diseases 
and the immeasurable price of lives saved.
    I serve as a consultant to victims of asbestos exposure and to 
companies that have sold asbestos products.
            Sincerely yours,
                            David S. Egilman, M.D., M.P.H.,
                                      Clinical Associate Professor,
                                                  Brown University.
                             REFERENCE LIST

1. Becklake M, Fournier-Massey G, Rossiter C, McDonald J. Lung function 
    in chrysotile mine and mill workers of Quebec. Arch Environ Health. 
    24:401-9.1972.
2. Lidell D, Eyssen G, Thomas D, McDonald C. Radiological changes over 
    20 years in relation to chrysotile exposure in Quebec. Inhaled 
    Part.4 (Part 2):799-813.1975.
3. Rossiter C, Bristol L, Cartier P, et al. Radiographic changes in 
    chrysotile asbestos mine and mill workers of Quebec. Arch Environ 
    Health.24:388-400.1972.
4. Suzuki Y, Yuen SR. Asbestos tissue burden study on malignant 
    mesothelioma. Ind Health.39(150):160.2001.
5. Suzuki Y, Yuen SR, Ashley R. Short, thin asbestos fibers contribute 
    to the development of human malignant mesothelioma: pathological 
    evidence. Int J Hyg Environ Health.208(3):201-10.2005.
6. Sebastian P, McDonald J, McDonald A, Case B, Harley R. Respiratory 
    cancer in chrysotile textile and mining industries: exposure 
    inferences from lung analysis. Br J Ind Med.46:180-7.1989.
7. Acheson E, Gardner M. Mesothelioma and exposure to mixtures of 
    chrysotile and amphibole asbestos. Arch Environ Health.34:240-
    2.1979.
8. Seidman H, Seilokoff I, Gelb S. Mortality experience of amosite 
    asbestos factory workers: dose-response relationships 5 to 40 years 
    after onset of short term work exposure. Am J Ind Med.10:479-
    514.1986.
9. Seilokoff I, Hammond EC, Seidman H. Mortality experience of 
    insulation workers in the United States and Canada, 1943-1976. Ann 
    NY Acad Sci.330:91-116.1979.
10. Hubbard JL, Longo WE. Detection of Amphibole Asbestos in Chrysotile 
    Sheet Gaskets. Raleigh: Material Analytical Services, Inc.; 2002 
    Apr.
11. Longo WE. Detection of Amphobile Asbestos in Chrysotile Brake 
    Linings. Materials Analytical Services, Inc.; 2000.
12. Longo W. Oral deposition. District Court, Harris County, Texas 11th 
    Judicial District in re: Asbestos Litigation Chrysotile Hearing. 5-
    23-2005.
                                 ______
                                 
                              Government of Canada,
                                      Washington, DC 20001,
                                                     March 8, 2007.
Hon. Patty Murray,
Chair, Subcommittee on Employment and Workplace Safety,
Committee on Health, Education, Labour, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Senator Murray: Canada noted with interest the hearing of the 
Senate Committee on Health, Education, Labour, and Pensions 
Subcommittee on Employment and Workplace Safety on Asbestos: Still 
Lethal/Still Legal: The Need to Better Protect the Health of American 
Workers and Their Families, held March l, 2007. Attached please find a 
number of observations regarding Canada's policy on asbestos use and 
the distinction between amphibole asbestos and chrysotile asbestos.
            Yours sincerely,
                                           Claude Carriere,
                                           Charge d' Affaires, a.i.
  Government of Canada Comments to the Subcommittee on Employment and 
                            Workplace Safety

    Canada welcomes the deliberations of the Subcommittee on Employment 
and Workplace Safety on this important subject. Canada would like to 
take the opportunity to share a number of observations with the 
subcommittee. These comments principally focus on Canada's Safe Use 
Principle for minerals and metals, on Canada's controlled use approach 
and on our views with regards to asbestos, in particular the important 
distinction between amphibole asbestos and chrysotile asbestos.

       THE MINERALS AND METALS POLICY OF THE GOVERNMENT OF CANADA
 
   The Safe Use Principle promoted by the Government of Canada in its 
Minerals and Metals Policy (1996) is important in the context of the 
sustainable development of natural resources. This principle is an 
extension of life-cycle management and incorporates risk assessment and 
risk management principles. The Safe Use Principle, in building on the 
Toxic Substances Management Policy of the Government of Canada, 
recognizes that:

    <bullet> minerals, metals and their products can be produced, used, 
re-used, recycled and returned to the environment in a manner that is 
consistent with sustainable development;
    <bullet> society enjoys important benefits from the use of these 
natural resources, in conjunction with their sound management;
    <bullet> certain mineral- and metal-containing products may pose 
risks to human health or the environment and, as a consequence, need to 
be managed throughout their entire life cycle;
    <bullet> naturally occurring inorganic substances, such as minerals 
and metals, behave differently than synthetic organic chemicals and, as 
a consequence, require different risk-management approaches; and,
    <bullet> minerals and metals, in and of themselves, are not 
candidates for bans, phase-outs or virtual elimination.

    The Minerals and Metals Policy of the Government of Canada, and its 
integrated Safe Use Principle, conforms to World Trade Organisation 
(WTO) principles such as not creating unnecessary barriers to trade or 
market access and basing regulations on sound science supported by an 
appropriate risk assessment that accounts for the prevailing conditions 
in the country of interest.
    For more information on Canada's Minerals and Metals Policy, please 
see http://www.nrcan.gc.ca/mms/policy/policy_e.htm.

    THE CANADIAN PERSPECTIVE ON ASBESTOS-RELATED ILLNESSES, AND IN 
 PARTICULAR, THE IMPORTANT DISTINCTION BETWEEN AMPHIBOLE ASBESTOS AND 
                              CHRYSOTILE 

                                ASBESTOS

    The Government of Canada recognizes that all forms of asbestos 
fibres, including chrysotile, are carcinogenic. The main health risks 
associated with all forms of asbestos are primarily occupational, and 
relate to the inhalation of fibres that may lodge in the lungs in the 
course of mining, manufacturing and construction and renovation 
activities. However, contrary to amphibole asbestos, scientific studies 
show that chrysotile is a less potent carcinogen and less persistent in 
the lungs than the other forms of asbestos, and consequently poses a 
lower health risk.
    Further, the Government of Canada recognizes that asbestos-related 
illnesses being observed now are occurring as a result of uncontrolled 
exposures associated with past practices and uses that are now 
unacceptable. It is well-known that there is a latency period between 
heavy dose exposures to asbestos fibres and the development of health 
effects. The illnesses we are currently seeing in countries that have 
intensively used asbestos fibres, predominantly the amphibole asbestos 
category, are linked in large part to past high-level exposures and to 
inappropriate uses, such as sprayed insulation and high temperature 
insulation products for pipes to prevent heat losses. In both cases, it 
was generally amphibole asbestos that was used. These uses were 
discontinued in the late 1970s.
    The Government of Canada follows a controlled use approach to 
strictly control exposure to chrysotile through Federal, provincial and 
territorial workplace exposure limits and bans on some categories of 
consumer and workplace products under Canada's Hazardous Products Act.
    The Government of Canada is of the view that the occupational 
health risks of chrysotile can be managed if regulations, programs and 
practices are in place to limit exposure to airborne fibres and that 
the risks would be no greater than posed by other occupational 
activities. Low levels of exposure pose low risks.
    The Government of Canada also believes that where exposures and 
subsequent risks cannot be properly controlled, the specific use should 
be discontinued or prohibited. Consistent with its Minerals and Metals 
Policy, Canada targets its intervention at the product and use levels 
instead of the substance itself.
    All forms of asbestos are regulated extensively in Canada. Canada's 
Department of Health has encouraged provincial occupational health 
authorities to adopt stringent workplace exposure limits for asbestos. 
The sale of friable products that were formerly available in Canada, 
i.e., products that release asbestos fibres under normal use, and the 
sale of pure asbestos to individuals have been banned under the 
Hazardous Products Act. In addition, emissions of asbestos into the 
environment from mining and milling operations are limited under the 
Canadian Environmental Protection Act.
    Today's strict workplace standards, combined with the ban of most 
uses of amphibole asbestos have reduced worker exposure levels to 1/10 
to 1/1000 of the levels that existed in the past.
    Today, chrysotile represents nearly 100 percent of the world 
consumption of asbestos as amphibole asbestos has essentially 
disappeared from the market and over 98 percent of world's the 
consumption of chrysotile is utilized in chryso-cement or friction 
products where the fibres are encapsulated and, in that form, do not 
pose a risk to human health.
    In conclusion, Canada would like to thank the Subcommittee on 
Employment and Workplace Safety for the opportunity to share our 
experience with the controlled use of chrysotile.
                                 ______
                                 
    [Editor's Note: For more information on asbestos exposure 
in Libby, Montana go to www.ephonline.org/docs/2007/948/
abstract.html to review the study entitled ``Vermiculite, 
Respiratory Disease and Asbestos Exposure in Libby, Montana: 
Update of a Cohort Mortality Study,'' (Environmental Health 
Perspectives) by Patricia Sullivan, National Institute for 
Occupational Safety and Health, Field Studies Branch, Division 
of Respiratory Disease Studies.
    For more on efforts to ban asbestos go to www.ijoeh.com/
pfds/IJOEH_1301_Giannasi.pdf  to review the article entitled 
``Ban on Asbestos Diaphragms in the Chlorine-related Chemical 
Industry and Efforts toward a Worldwide Ban'' by Fernanda 
Giannasi.]
                                ------                                

    [Whereupon, at 11:12 a.m., the hearing was adjourned.]


</pre></body></html>
